<html>
<title> - WHY WEREN'T 9/11 RECOVERY WORKERS PROTECTED AT THE WORLD TRADE CENTER?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 WHY WEREN'T 9/11 RECOVERY WORKERS PROTECTED AT THE WORLD TRADE CENTER?

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, SEPTEMBER 12, 2007

                               __________

                           Serial No. 110-62

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                     U.S. GOVERNMENT PRINTING OFFICE
36-730 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 12, 2007...............................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    70
    Fossella, Hon. Vito, a Representative in Congress from the 
      State of New York, prepared statement of...................    70
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     4
        Prepared statement of....................................     5
        Letters from John Graham and Rick Ostrander..............    37
        New York Times article, dated September 7, 2007, 
          ``Accuracy of 9/11 Health Reports Is Questioned''......    45
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Clark, Patricia, Regional Administrator, Occupational and 
      Safety Health Administration, U.S. Department of Labor.....    16
        Prepared statement of....................................    17
    Cordero, Freddy, World Trade Center recovery worker..........     7
        Prepared statement of....................................     9
    Jackson, Brian A., Ph.D., associate director, Homeland 
      Security Program, the RAND Corp............................    21
        Prepared statement of....................................    23
    Landrigan, Philip J., M.D., M.Sc., professor and chairman, 
      Department of Community and Preventive Medicine, Mount 
      Sinai School of Medicine...................................    10
        Prepared statement of....................................    12
    Melius, James, M.D., Dr.PH, administrator, New York State 
      Laborers' Health and Safety Trust Fund.....................    30
        Prepared statement of....................................    32


 WHY WEREN'T 9/11 RECOVERY WORKERS PROTECTED AT THE WORLD TRADE CENTER?

                              ----------                              


                     Wednesday, September 12, 2007

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:07 a.m., in Room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Scott, Woolsey, Clarke, 
McKeon, Fortuno, Foxx, Maloney and Nadler.
    Staff Present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Jordan Barab, Health/Safety Professional; 
Alice Cain, Senior Education Policy Advisor (K-12); Lynn 
Dondis, Senior Policy Advisor for Subcommittee on Workforce 
Protections; Michael Gaffin, Staff Assistant, Labor; Peter 
Galvin, Senior Labor Policy Advisor; Thomas Kiley, 
Communications Director; Alex Nock, Deputy Staff Director; Joe 
Novotny, Chief Clerk; Rachel Racusen, Deputy Communications 
Director; Michel Varnhagen, Labor Policy Director; Cameron 
Coursen, Minority Assistant Communications Director; Ed Gilroy, 
Minority Director of Workforce Policy; Rob Gregg, Minority 
Legislative Assistant; Richard Hoar, Minority Professional 
Staff Member; Victor Klatt, Minority Staff Director; Alexa 
Marrero, Minority Communications Director; Molly McLaughlin 
Salmi, Minority Deputy Director of Workforce Policy; Linda 
Stevens, Minority Chief Clerk/Assistant to the General Counsel; 
and Loren Sweatt, Minority Professional Staff Member.
    Chairman Miller. The Committee on Education and Labor will 
come to order for the purposes of holding a first hearing on 
worker health issues raised in the aftermath of the terrorist 
attack on the World Trade Center on September 11th, 2001. I 
want to thank my colleagues for joining us this morning and in 
advance thank the witnesses for being here, for your testimony.
    This hearing will review the events immediately following 
the attacks focusing on what lessons we have learned from the 
recovery from that event and how we can apply those lessons to 
protecting workers in future large-scale disasters and 
terrorist events. This will be the first in at least two 
hearings on how the country protects its response and recovery 
workers in the aftermath of large terrorist attacks or other 
disasters such as Katrina.
    Much has been debated about actions that were taken and 
actions that were not taken to protect the workers' health 
following 9/11. We will continue that discussion today by 
hearing from those who were responsible for worker protection, 
health experts, workers themselves and their representatives. 
We will explore the decision making of some of those who have 
the responsibility for worker protection, the decisions made 
and the reasoning behind those decisions. This was an extremely 
important subject, not just because thousands of 9/11 
responders continue to suffer from the aftermath of that tragic 
event, but we need to make sure that first responders know that 
we will do everything we can to protect them during a national 
catastrophe like we faced as a result of terrorism 6 years ago 
and as a result of the hurricane 2 years ago.
    There are things we already know. There are a few things--
there are some things and a few things--I sound like Donald 
Rumsfeld--there are some things we already know. As a result of 
the hazardous materials emitted in the air following the 
collapse of the World Trade Center, we are faced today with 
thousands of workers suffering from serious health problems 
resulting from exposure they suffered in the hours, days, weeks 
and months they worked at Ground Zero. We also know that, 6 
years after 9/11, this country has yet to provide for the long-
term serious health care needs for these workers. We will be 
hearing from one of these workers today as well as an expert 
heading up the efforts to monitor and treat those workers.
    There is general agreement that communications from our 
government did not clearly communicate the hazards of the dust 
and fumes to workers and residents. We know that many workers 
throughout the clean up did not wear respirators that could 
have protected their health.
    As I stated earlier, the goal of this hearing is to look at 
the response of the Federal Government and other agencies 
responsible for worker health during the national emergency. As 
our first rule of rescue states, ``don't create more victims,'' 
here are the questions I hope this hearing will clear up: 
First, are current OSHA standards, both their chemical exposure 
limits and other standards, like hazardous waste operations and 
emergency response standards, adequateto protect workers in 
situations where it is difficult to determine what workers are 
exposed to?
    It is clear that OSHA chose not to enforce its safety and 
health standards, particularly in respiratory protection 
standards even in the months following 9/11. Where were the 
legal obstacles to enforcement or political issues or both? 
Would the enforcement of OSHA regulations have been more 
effective than offering advice? Was focusing exclusively on 
technical assistance better than enforcing the law? If these 
standards are not adequate, is there anything that we in 
Congress can do to assist OSHA to better protect workers in the 
future? The City of New York was clearly responsible for 
managing the rescue and recovery, but to what extent were they 
also in charge of workplace safety? Can OSHA cede such a story 
to the city as it was apparently done in this case?
    These are the issues that are not unique to New York. We 
faced the same issues following Katrina and will explore those 
issues in future hearings.
    I also want to mention one more item that will be the 
subject of future work of this committee. On Monday, the 
Department of Homeland Security released their near final draft 
of its National Response Framework. We were very disappointed 
to see that worker protection is not given the importance that 
it deserves in this document, and we will discuss this issue 
with the Homeland Security officials. Finally, I want to 
reassure the witnesses, particularly Ms. Clark from OSHA, that 
in no way are we intending to devalue the valiant efforts the 
OSHA staff made during these crises. We recognize the countless 
hours that your agency and your office dedicated to protecting 
workers, particularly following the destruction of OSHA's 
Manhattan office area, office number 6, at the World Trade 
Center. We are most impressed that not a single life was lost 
in the immediate rescue and recovery efforts, which we 
certainly considered one of the most dangerous in this Nation's 
history. This was a significant accomplishment due largely to 
the enormous and good work done by the dedicated employees of 
OSHA.
    Nevertheless, thousands of workers are sick today, and some 
have died. Similar safety and health problems have occurred 
during Katrina, and it is incumbent upon us as law makers to 
draw out and to apply whatever lessons can be learned from this 
tragic event and its aftermath.
    I would like to recognize the senior Republican on this 
committee, Mr. McKeon, for an opening statement.

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    I want to welcome you to the first hearing held by this committee 
on the worker health issues raised in the aftermath of the terrorist 
attack on the World Trade Center of September 11, 2001.
    This hearing will review the events immediately following the 
attack focusing on what lessons we have learned from the recovery from 
that event and how we can apply those lessons to protecting workers in 
future large scale disasters and terrorist events.
    This will be the first of at least two hearings on how this country 
protects its response and recovery workers in the aftermath of large 
terrorist attacks and other disasters such as Katrina.
    Much has been debated about actions that were taken, and actions 
that were not taken to protect workers health following 9/11. We will 
continue that discussion today by hearing from those who were 
responsible for worker protection, health experts, workers themselves 
and their representatives. We will explore the decision making of some 
of those who had responsibility for worker protection, the decisions 
made and the reasoning behind those decisions.
    This is an extremely important subject, not just because thousands 
of 9/11 responders continue to suffer from the aftermath of that tragic 
event. We need to make sure that first responders know that we will do 
everything we can to protect them during a national catastrophe like we 
faced as a result of terrorism six years ago and as a result of a 
hurricane two years ago. There are a few things we already know:
    <bullet> As a result of the hazardous materials emitted into the 
air following the collapse of the World Trade Center, we are faced 
today with thousands of workers suffering from serious health problems 
resulting from the exposures they suffered in the hours, days, weeks 
and months that they worked on Ground Zero.
    <bullet> We also know that, six years after 9/11, this country has 
yet to provide for the long-term serious health care needs of these 
workers. We will be hearing from one of those workers today, as well as 
an expert heading up the effort to monitor and treat those workers.
    <bullet> There is general agreement that communication from our 
government did not clearly communicate the hazards of the dust and fume 
to workers and residents.
    <bullet> We know that many workers throughout the cleanup did not 
wear respirators that could have protected their health.
    As I stated earlier, the goal of this hearing is to look at the 
response of the Federal government and other agencies responsible for 
worker health during a national emergency. As the first rule of rescues 
states, ``Don't create more victims.'' Here are the questions I hope 
this hearing will help clear up:
    <bullet> First, are current OSHA standards, both their chemical 
exposure limits, and other standards, like the Hazardous Waste 
Operations and Emergency Response standard adequate to protect workers 
in situations where it is difficult to determine what workers are 
exposed to? It is clear that OSHA chose not to enforce its safety and 
health standards--particularly its respiratory protection standards--
even in the months following 9/11.
    Were there legal obstacles to enforcement or political issues, or 
both? Would enforcement of OSHA regulations have been more effective 
than offering advice? Was focusing exclusively on technical assistance 
better than also enforcing the law?
    <bullet> If these standards are not adequate, is there anything 
that we in Congress can do to assist OSHA to better protect workers in 
the future?
    <bullet> The City of New York was clearly responsible for managing 
the rescue and recovery. But, to what extent were they also in charge 
of workplace safety? Can OSHA, cede such authority to the City, as was 
apparently done in this case?
    These are issues that not unique to New York. We faced the same 
issues following Katrina and we will explore these issues in a future 
hearing.
    I also want to mention one more item that will be the subject of 
future work of this committee. On Monday, the Department of Homeland 
Security released the near-final draft of its National Response 
Framework. We were very disappointed to see that Worker Protection has 
not been given the importance that it deserves in this document and we 
will be discussing this issue with Homeland Security officials.
    Finally, I want to reassure the witnesses, particularly Ms. Clark 
from OSHA, that in no way are we intending to devalue the valiant 
efforts of OSHA staff during this crisis. We recognize the countless 
hours that your agency and your office dedicated to protecting workers, 
particularly following the destruction of OSHA's Manhattan Area Office 
in #6 World Trade Center.
    And we are most impressed that not a single life was lost in the 
immediate rescue and recovery efforts, which would certainly be 
considered one of the most dangerous operations in this nation's 
history. This was a significant accomplishment, due largely to the 
enormous effort and good work done by the dedicated employees of the 
Occupational Safety and Health Administration.
    Nevertheless, thousands of workers are sick today, some have died.
    Similar safety and health problems occurred during Katrina and it 
is incumbent upon us, as this nation's lawmakers, to draw out and apply 
whatever lessons can be learned from this tragic event and its 
aftermath.
                                 ______
                                 
    Mr. McKeon. Thank you, Chairman Miller.
    Yesterday, we commemorated a somber anniversary, 6 years 
ago, the United States suffered the most devastating terrorist 
attack in our Nation's history. It was a day of tragedy but 
also a day of heroism. In the minutes, hours, days and weeks 
following the attacks on our Nation, thousands of responders, 
workers and volunteers converged on the sites of the attacks in 
an effort to rescue the wounded and to recover those who were 
lost.
    In New York, the brave men and women who rushed to the 
World Trade Center found themselves facing an incomprehensible 
scene of destruction, the likes of which no one could have 
anticipated. On that horrific day, the only concern on the 
minds of responders was preventing further loss of American 
lives. The topic of today's hearing is health and safety 
conditions at the time of the attack and in its aftermath. 
Certainly we all look back at the devastation and consider the 
dangers encountered at this site among the tragic consequences 
of the attack against this great country.
    However, in hindsight, we must try to remember the 
unprecedented circumstances thrust upon our responders, workers 
and volunteers and on the safety officials overseeing that 
effort. We must try to comprehend the challenges they faced and 
the decisions they made in the split seconds after terrorists 
carried out an unthinkable attack. That is not to say that the 
health and safety of those on the scene weren't a critical 
concern then as they are today; nor is it meant to imply the 
safety personnel did not act quickly to address these 
challenges. Indeed, OSHA took action immediately after the 
attacks to assess safety conditions and provide guidance and 
assistance in the creation and implementation of a safety and 
health plan.
    Along with the coordination of donations of and 
distribution of personal protective equipment to workers at the 
World Trade Center site responders did the best they could with 
the procedures and equipment available to them following the 
attacks, but the simple reality is that the personal protective 
equipment and the rescue and recovery procedures were not 
designed for what they found at the World Trade Center 
collapse. The unprecedented nature presented the recovery team 
with unprecedented challenges. I appreciate the purpose of 
today's hearing, which is to hear the stories of those who may 
be suffering as a result of the conditions at the attack site, 
as well as to hear about what was done to protect those 
participating in the recovery and what may be done in the event 
of future disasters.
    The title of today's hearing asks why the workers were not 
protected. I believe that title suggests a lack of concern for 
the health and safety of the brave rescue workers, a suggestion 
which is unfair and inaccurate. I hope today we can take a step 
back to look also at what protections were offered and to 
acknowledge the impossible choices that face safety personnel 
trying to protect rescuers without standing in the way of those 
who needed to be rescued.
    I am mindful that help came in many forms following the 9/
11 attacks, many independent contractors and industries sent 
heavy machinery, personal protective equipment and workers to 
New York to assist in the rescue and recovery. This outpouring 
of support was no doubt instrumental in the response, and I 
feel strongly that we must not take any steps that could 
prevent or delay future private sector aid from reaching 
disaster areas as quickly as it did after September 11th. We 
all agree that protecting the brave individuals who respond to 
disasters is a top priority.
    Today as we discuss the health and safety conditions at the 
site of this despicable terrorist attack in New York, we have 
an opportunity to once again offer gratitude to those who aided 
in the rescue and recovery efforts 6 years ago. I would like to 
thank the witnesses for being here, and I look forward to their 
testimony.
    With that, I yield back the balance of my time.

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Thank you Chairman Miller.
    Yesterday we commemorated a somber anniversary. Six years ago, the 
United States suffered the most devastating terrorist attack in our 
nation's history. It was a day of tragedy, but also a day of heroism.
    In the minutes, hours, days, and weeks following the attacks on our 
nation, thousands of responders, workers, and volunteers converged on 
the sites of the attacks in an effort to rescue the wounded and recover 
those who were lost. In New York, the brave men and women who rushed to 
the World Trade Center found themselves facing an incomprehensible 
scene of destruction the likes of which no one could have anticipated.
    On that horrific day, the only concern on the minds of responders 
was preventing further loss of American lives. The topic of today's 
hearing is the health and safety conditions at the time of the attack 
and in its aftermath. And certainly, we all look back at the 
devastation and consider the dangers encountered at that site among the 
tragic consequences of the attack on this great country.
    However, in hindsight, we must try to remember the unprecedented 
circumstances thrust upon our responders, workers, and volunteers, and 
on the safety officials overseeing the effort. We must try to 
comprehend the challenges they faced and the decisions they made in the 
split seconds after terrorists carried out an unthinkable attack.
    That is not to say that the health and safety of those on the scene 
weren't a critical concern then, as they are today. Nor is it meant to 
imply that safety personnel did not act quickly to address these 
challenges. Indeed, OSHA took action immediately after the attacks to 
assess safety conditions and provide guidance and assistance in the 
creation and implementation of a safety and health plan, along with the 
coordination of donations of and distribution of personal protective 
equipment to workers at the World Trade Center site.
    Responders did the best they could with the procedures and 
equipment available to them following the attacks. But the simple 
reality is that the personal protective equipment and the rescue and 
recovery procedures were not designed for what they found at the World 
Trade Center collapse. The unprecedented nature of the attacks 
presented the recovery team with unprecedented challenges.
    I appreciate the purpose of today's hearing, which is to hear the 
stories of those who may be suffering as a result of the conditions at 
the attack site, as well as to hear about what was done to protect 
those participating in the recovery, and what may be done in the event 
of future disasters. The title of today's hearing asks why workers were 
not protected. I believe that title suggests a lack of concern for the 
health and safety of those brave rescue workers; a suggestion that is 
both unfair and inaccurate. But, I hope today we can take a step back 
to look also at what protections were offered, and to acknowledge the 
impossible choices that faced safety personnel trying to protect 
rescuers without standing in the way of those who needed to be rescued.
    I am mindful that help came in many forms following the 9/11 
attacks. Many independent contractors and industries immediately sent 
heavy machinery, personal protective equipment, and workers to New York 
to assist in the rescue and recovery. This outpouring of support was no 
doubt instrumental in the response, and I feel strongly that we must 
not take any steps that could prevent or delay future private sector 
aid from reaching disaster areas as quickly as it did after September 
11th.
    We all agree that protecting the brave individuals who respond to 
disasters is a top priority. And today, as we discuss the health and 
safety conditions at the site of the despicable terrorist attack in New 
York, we have an opportunity to once again offer gratitude to those who 
aided in the rescue and recovery efforts six years ago.
    I'd like to thank the witnesses for being here and I look forward 
to their testimony. With that, I yield back the balance of my time.
                                 ______
                                 
    Chairman Miller. I thank the gentleman for his statement. I 
want to recognize that the committee will be joined today by 
Congresswoman Carolyn Maloney and Congressman Jerrold Nadler, 
both of New York, who have been deeply involved in this issue 
and have requested not only their participation in the hearing 
but also that the hearing in fact take place, and they will be 
recognized in regular order with the members of the committee.
    I would like to introduce our panel, we will hear first 
from Freddy Cordero. He is a World Trade Center recovery worker 
in the Bronx, New York. He was a school fireman in New York 
City Board of Education for over 21 years. On 9/11, he was 
assigned to the Board of Education to help clean up and 
maintain three public schools near Ground Zero that were being 
set up to provide shelter for rescue workers.
    Dr. Philip J. Landrigan is professor and chairman of Mount 
Sinai's Department of Community and Preventative Medicine in 
New York City. He oversees the World Trade Center Medical 
Programs at Mount Sinai. Dr. Landrigan received his medical 
degree from Harvard Medical School.
    Patricia Clark is the OSHA Regional II director in New York 
City. She is responsible for the direction, management and 
control of programs and goals set forth in the Occupational 
Safety and Health Act of 1970. Ms. Clark received her 
Bachelor's degree from Ursinus College and her Masters Degree 
from Drexel University.
    Dr. Brian A. Jackson is the associate director of Homeland 
Security Programs for the Rand Corporation in Arlington, 
Virginia. His current research activities include ongoing 
project and personal protective technology for emergency 
responders for NIOSH and in preparation of the post-9/11 
lessons learned report on protecting emergency workers on 
terrorist incident sites. Dr. Jackson received his Masters 
Degree from George Washington University and a Ph.D. From the 
California Institute of Technology.
    Dr. James Melius is the director of the New York State 
Laborers' Health and Safety Fund in Albany, New York. He 
currently serves as chair of the World Trade Center Medical 
Monitoring Steering Committee which oversees the program for 
World Trade Center responders. Dr. Melius received his medical 
degree from the University of Illinois.
    Welcome to all of you. Your entire written statements will 
be placed in the record in their entirety, we will provide you 
5 minutes for your opening statements. When you start, there 
will be a green light on the small indicators in front of you. 
When there is a minute to go, a yellow light will come on; and 
a red light, which we would like you to finish your thoughts, 
but we obviously want you to complete your thought in a 
coherent fashion.
    Mr. Cordero, my understanding you asked for an additional 2 
minutes because you are concerned whether you can read and 
breathe at the same time, so that is not a problem, we will 
provide you 7 minutes at the outset. You are recognized, 
welcome.

STATEMENT OF FREDDY CORDERO, WORLD TRADE CENTER RECOVERY WORKER

    Mr. Cordero. Good morning, my name is Freddy Cordero. I 
want to thank Chairman Miller and the members of the committee 
for the opportunity to speak to you today. I was a school 
fireman for the New York City Board of Education for over 21 
years. I have been a member of Local 94 International Union of 
Operating Engineers for over 15 years. I also have an extensive 
background in safety and an asbestos handler's certificate and 
other safety certificates needed for my work.
    On September 12th, 2001, I was called by the Custodians 
Union to see if I was willing to leave my regular school 
assignment in northern Manhattan and work to support the rescue 
and recovery effort near the World Trade Center site the next 
day. As a citizen of New York, I wanted to serve my city and my 
country however I could.
    We assembled a team of cleaners, engineers and firemen to 
join our Board of Education workers on the bus provided by the 
city to go to perform work at the World Trade Center site. We 
were only asked to bring as many buckets as we could carry.
    When we got there on September 13th, we were assigned to 
work on the bucket brigade at Ground Zero. I am sure you have 
all seen the video of the pit that horrible first day.
    The next day, September 14, our assignment was to clean up 
the three public schools within the World Trade Center area. 
Those included P.S. 234, P.S. 89 and Stuyvesant High School, 
all within blocks of the site. The schools were going to be 
shelter for many men and women during the rescue and recovery 
work. When we arrived at the schools, they were covered with 
World Trade Center dust and very smoky from the fires that were 
burning nearby.
    Our job was to make each school clean enough so that the 
workers and volunteers would have a place to eat and sleep. In 
all, I worked both as an employee and volunteer for 1 month. 
When I left the bucket brigade after 2 days, I continued to 
work as a volunteer at the school after my paid shift.
    Though I own my own respirator, I didn't take it with me 
the first day. To be honest, I forgot it. On the following day, 
I couldn't get back to my usual school to get it, but I also 
assumed that there would be masks available for those rescue 
and recovery teams working at lower Manhattan.
    Both on the 13th on the bucket brigade and on the 14th in 
the schools, the only masks provided were paper masks. I wore 
my mask and changed it frequently, as it got clogged and dirty. 
At the end of each day, when I threw out the last mask and blew 
my nose, I was amazed at the amount of black soot that I had 
breathed in. A few days later, we given regular half face masks 
with cartridges. I think it was my union that made sure that we 
had those respirators.
    Everyone I worked with from the Board of Education had the 
same respirator when they were available. It was our 
responsibility to get new cartridges as needed. There were a 
lot of people around those first days. I cannot say for sure if 
anyone from OSHA or PESH was there.
    One other thing that concerns me is that I was going home 
covered in toxic dust to my wife and my 3-year old son. By 
September 15th, or 16th, I took the matter into my own hands 
and bought four or five disposable suits. I did not want to 
endanger my family with the dust. I continued using them and 
the face mask with the cartridges until I left the Ground Zero 
area.
    In spite of everything I did, my health has suffered 
greatly from this work after 9/11. Within 3 days, my family 
noted that I had a dry cough that many people now call the 
World Trade Center cough. My family doctor prescribed a few 
medications, but they didn't really help me that much.
    In 2003, I began getting treatment at Mount Sinai World 
Trade Center Medical Screening and Treatment Program. They have 
been testing me a few times a month for 5 years. I have been 
diagnosed--they diagnosed me with scarring of the lung, asthma, 
post-nasal drip and other respiratory illnesses. They also 
diagnosed me with a narrowing of the esophagus and reflux 
disease. I now take five or six medications regularly. I have 
been taking them for the past 5 years. I don't know what I 
would've done without the Mount Sinai Medical Screening and 
Treatment Program.
    Prior to 9/11, I was an extremely healthy, an avid swimmer 
and had never had to take any medicine. My pulmonologist has 
told me that the reason I am still around is that I was never a 
smoker but that I have the lungs of an 80 year old. And it is 
not just me. Of my team of 26 men that I worked with, I believe 
11 are also suffering some illnesses.
    I consider myself fortunate. With the help of my family, my 
caregiver at Mount Sinai and the support of my new employer, I 
am able to lead a happy and productive life. I was not able to 
stay employed at the Board of Education job that I loved. The 
chemical, boiler and other hazardous exposures stopped me from 
staying there. I am now fortunate enough to have a part-time 
job at a senior citizen facility that allows me to continue 
supporting my family without exposing myself to hazards. I 
think I took a large financial cut to take this job, but I am 
grateful to have it.
    I know my time is up, but I am happy to answer any 
questions you may have about my work at the World Trade Center 
site, the wonderful care that I got at Mount Sinai or my ordeal 
with Workers' Compensation, which it took 5 years to settle as 
the different parties argued about their responsibility. Thank 
you for your interest and your support of the 9/11 rescue, 
recovery and clean-up workers. Thank you.
    [The statement of Mr. Cordero follows:]

   Prepared Statement of Freddy Cordero, World Trade Center Recovery 
                                 Worker

    Good morning. My name is Freddy Cordero. I want to thank Chairman 
Miller and the members of the Committee for the opportunity to speak to 
you today.
    I was a school fireman for the New York City Board of Education for 
over 21 years, and I have been a member of Local 94 of the 
International Union of Operating Engineers for over 15 years. I also 
have an extensive background in safety. I have an asbestos handler's 
certificate, and other safety certificates that were needed for my 
work.
    On September 12th, 2001, I was called by the Custodians Union to 
see if I was willing to leave my regular school assignment in northern 
Manhattan and work to support the rescue and recovery efforts at and 
near the World Trade Center site starting the next day. As a lifelong 
citizen of New York, I wanted to serve my city and my country however I 
could.
    We assembled a team of cleaners, engineers, and firemen, and joined 
other Board of Education workers on a bus provided by the City to go to 
perform work at the WTC site. We were only asked to bring as many 
buckets as we could carry.
    When we got there on September 13th, we were assigned to work on 
the bucket brigade on the Pile at Ground Zero. I'm sure you've all seen 
video of the pit that horrible first day.
    The next day, September 14th, our assignment was to clean up the 
three public schools within the World Trade Center area. These included 
PS 234, PS 89, and Stuyvesant High School, all within blocks of the 
site. The schools were going to be shelters for the many men and women 
doing the rescue and recovery work. When we arrived at the schools, 
they were covered with World Trade Center dust, and very smoky from the 
fires that were burning nearby.
    Our job was to make each school clean enough so that the workers 
and volunteers would have a place to eat and sleep.
    In all, I worked both as an employee and volunteer for one month. 
When I left the bucket brigade after two days, I continued to work as a 
volunteer at the schools beyond my paid shift.
    Though I owned my own respirator, I didn't take it with me that 
first day. To be honest, I forgot it. On the following days, I couldn't 
get back to my usual school to get it. But I also assumed that there 
would be masks available for the rescue and recovery teams working in 
lower Manhattan.
    Both on the 13th on the bucket brigade and on the 14th in the 
schools, the only masks provided were paper masks. I wore my mask and 
changed it frequently as it got clogged and dirty. At the end of each 
day, when I threw out the last mask and blew my nose, I was amazed at 
the amount of black soot that I had breathed in. A few days later, we 
were given the regular half-face masks with cartridges. I think it was 
my union that made sure that we had these respirators.
    Everyone I worked with from the Board of Education had the same 
respirators once they were available. It was our responsibility to get 
new cartridges as needed. There were a lot of people around those first 
days. I can't say for sure whether anyone from OSHA or PESH was there.
    One of the things that concerned me is that I was going home 
covered in toxic dust to my wife and my 3-year old son. By September 
15th or 16th, I took matters into my own hands and brought four or five 
disposable suits. I did not want to endanger my family with the dust. I 
continued to use them, and the face mask with cartridges, until I left 
the Ground Zero area.
    In spite of everything I did, my health has suffered greatly from 
my work after 9/11. Within about 3 days, my family noticed that I had a 
dry cough that many people now call World Trade Center cough. My family 
doctor prescribed a few medications, but they didn't really help that 
much.
    In 2003, I began getting treatment at Mount Sinai's World Trade 
Center Medical Screening and Treatment Program. They have been treating 
me a few times a month for five years. They have diagnosed me with 
scarring of the lungs, asthma, post-nasal drip, and other respiratory 
ailments. They have also diagnosed a narrowing of the esophagus, and 
reflux disease. I now take at least 5or 6 medications regularly. I've 
been taking them for the past five years. I don't know what I would've 
done without the Medical Screening and Treatment Program at Mount 
Sinai.
    Prior to 9/11, I was extremely healthy, an avid swimmer, and never 
had to take any medicine. My pulmonologist has told me that the reason 
I am still around is that I was never a smoker, but that I have the 
lungs of an 80-year old.
    And it is not just me. Of my team of 26 men that I worked with, I 
believe 11 are also suffering some illnesses.
    I consider myself fortunate. With the help of my family, my 
caregivers at Mount Sinai, and the support of my new employer, I am 
able to lead a happy and productive life. I was not, however, able to 
stay employed in the Board of Education job that I loved. The 
chemicals, boilers, and other hazardous exposures stopped me from 
staying there. I am now fortunate enough to have a part-time job in a 
senior citizen facility that allows me to continue supporting my family 
without exposing myself to hazards. I took a large financial cut to 
take this job, but I am grateful to have it.
    I know my time is up, but I am happy to answer any questions you 
may have about my work at the WTC site, the wonderful care I got at 
Mount Sinai, or my ordeal with Workers' Compensation, which took five 
years to settle as the different parties argued about their 
responsibility. Thank you for your interest and for your support of the 
9/11 rescue, recovery, and clean-up workers.
                                 ______
                                 
    Chairman Miller. Thank you.
    Dr. Landrigan.

 STATEMENT OF PHILIP J. LANDRIGAN, M.D., M.SC., PROFESSOR AND 
  CHAIRMAN, DEPARTMENT OF COMMUNITY AND PREVENTIVE MEDICINE, 
                 MOUNT SINAI SCHOOL OF MEDICINE

    Dr. Landrigan. Thank you, Mr. Chairman.
    I am Dr. Philip Landrigan. I am professor and chairman of 
the Department of Community and Preventive Medicine at the 
Mount Sinai School of Medicine in New York City. As you said in 
your introductory remarks, it is our department that has major 
responsibility for directing those medical programs that are 
providing diagnosis and treatment to Mr. Cordero and many 
thousands of other of the men and women who responded on 9/11 
and in the days and works that follow.
    The workforce that responded to 9/11 was a very, very 
diverse workforce. It included people who were trained in 
response, firefighters, police, paramedics and the National 
Guard. It also included construction workers, transit workers, 
sanitation workers, workers like Mr. Cordero from the Board of 
Education, volunteers. People came from across the country. 
They came from New York, New Jersey and southern New England 
but also from the Midwest, California, and they came in fact 
from every State in the Union . And there are people from every 
State in the Union who are currently registered in the various 
network of medical programs that the Federal Government has 
established since 9/11.
    The mix of chemicals that these workers and volunteers were 
exposed to is very complex; two-thirds of the mass of the dust 
consisted of pulverized concrete, which is a very nasty 
substance. It has a pH of between 10 and 11, which makes it 
very alkaline, very caustic. It seers the upper and lower 
respiratory tract when it is inhaled, and it seers the 
esophagus when it is swallowed. Also there were millions of 
microscopic shards of glass. There was asbestos. There were 
dioxins. There were polycytic aromatic hydrocarbons. The first 
couple of days when there was still unburned jet fuel at the 
site, there were organic solvents, most notably Benzene. 
Concentrations were very high, and the mixture of chemicals is 
a mix that has never previously been encountered.
    Our doctors at Mount Sinai and some of our sister 
institutions around New York and New Jersey began to realize 
within a matter of days that we were going to be seeing people 
with illnesses and injuries from their work at the World Trade 
Center site. And indeed on September 13th, 2001, just 2 days 
after the attack, a group of our doctors convened at the home 
of one of the docs to begin to plan our strategy.
    In the fall of 2001, we first began to see patients. We did 
that initially using our own resources and some funds that we 
had on a standing basis from the New York State Department of 
Health, State legislature. Federal funds through NIOSH first 
became available in the late spring of 2002. NIOSH funds for 
monitoring and screening of workers have continued from 2002 to 
the present. We also have a treatment program. It was stood up 
initially in 2003 with private philanthropy, Federal money 
through NIOSH has come on stream to support the treatment 
program since a year ago, since September of 2006.
    To date, we have seen 21,000 of the men and women who 
responded to 9/11. Those 21,000 have been seen in a consortium 
of institutions in the greater New York area that is based at 
Mount Sinai, and we have seen approximately 80 percent of this 
total number. Actually another 8,000 of those responders have 
come back for a second visit, and now a smaller number 
beginning in the last few months to come back for a third 
visit.
    We have seen a range of adverse health affects in these 
workers which basically involve three organ systems, the 
respiratory tract, the gastrointestinal tract and mental 
health. The respiratory problems, which are undoubtedly the 
consequence of the inhalation of the toxic dust that I just 
described: First of all, 46 percent of the workers have new 
symptoms that didn't exist on September 10th, 2001, involving 
their lungs, bronchi, lower respiratory tract. This is mainly 
cough, shortness of breath, new cases of asthma; 62 percent 
have symptoms involving the upper respiratory tract, very 
intense nasal irritation and sinusitis; and in the aggregate, 
68.8 percent have upper or lower respiratory problems. There 
are also mental health problems. We published these findings in 
September 2006, in Environment Health Perspectives, a peer 
reviewed medical journal published by the National Institutes 
of Health.
    In addition to those symptoms, workers also had objectively 
documented abnormalities of pulmonary function. When we did 
breathing tests we found that five times more responders had 
restrictive lung disease than would be expected in the general 
American population. I should note that our findings are very, 
very similar to findings that have been documented in two other 
independent studies; that which was done by the fire department 
of New York and that which has been done by the New York City 
registry by the New York City Department of Health, all have 
found upper and lower respiratory problems, GI problems and 
mental health problems.
    I conclude by saying that the future is uncertain for the 
health of the responders. There are fundamentally two 
categories of question: The first question is, will the 
illnesses that we are now seeing in the workers persist? Will 
they get worse or abate? We don't know, only continued follow-
up and properly established centers of excellence will answer 
that question.
    The second big unanswered question is, what about new 
illnesses, will diseases of lung latency emerge in future years 
as more time passes, as the chemicals that these workers 
inhaled have time to interact within their bodies and react 
with their cells and DNA. We don't know the answer to that 
question either, and the only way to resolve that question is, 
again, through continued, meticulous monitoring of the health 
of these brave men and women through properly established 
centers of excellence. Thanks very much.
    [The statement of Dr. Landrigan follows:]

 Prepared Statement of Philip J. Landrigan, M.D., M.Sc., Professor and 
Chairman, Department of Community and Preventive Medicine, Mount Sinai 
                           School of Medicine

    Good morning.
    Mr. Chairman and Members of the Committee, I thank you for having 
invited me to present testimony before you today on the question of 
``Why Weren't World Trade Center Rescue and Recovery Workers 
Protected?''
    My name is Philip Landrigan, M.D. I am Professor and Chairman of 
the Department of Community and Preventive Medicine of the Mount Sinai 
School of Medicine in New York City. I am a board certified specialist 
in Occupational Medicine as well in Preventive Medicine and Pediatrics. 
My curriculum vitae is attached to this testimony.
    In my capacity as Chairman of Community and Preventive Medicine at 
Mount Sinai, I oversee the World Trade Center (WTC) Medical Monitoring 
and Treatment Program as well as the World Trade Center Data and 
Coordination Center, two closely linked programs that are based in my 
Department and supported by grants from the National Institute for 
Occupational Safety and Health (NIOSH). It has been the responsibility 
of our programs at Mount Sinai and of WTC Centers of Excellence in New 
York, New Jersey and across the United States, with which we 
collaborate closely, to diagnose, treat and document the illnesses that 
have developed in the workers and the volunteers who responded to 9/11.
    Today, I shall present a summary of our medical findings in the 9/
11 responders. I shall comment also on the critical need for continuing 
support for Centers of Excellence that have the expertise and the hard-
won experience that is essential to sustain high-quality medical 
follow-up and treatment for these brave men and women.
    The Diverse Population of 9/11 Responders. In the days, weeks, and 
months that followed September 11, 2001, more than 50,000 hard-working 
Americans from across the United States responded selflessly--without 
concern for their health or well-being--when this nation called upon 
them to serve. They worked at Ground Zero, the former site of the World 
Trade Center, and at the Staten Island landfill, the principal 
depository for WTC wreckage. They worked in the Office of the Chief 
Medical Examiner. They worked beneath the streets of lower Manhattan to 
search for bodies, to stabilize buildings, to open tunnels, to turn off 
gas, and to restore essential services.
    These workers and volunteers included traditional first responders 
such as firefighters, law enforcement officers, paramedics and the 
National Guard. They also included a large and highly diverse 
population of operating engineers, laborers, ironworkers, building 
cleaners, telecommunications workers, sanitation workers, and transit 
workers. These men and women carried out rescue-and-recovery 
operations, they sorted through the remains of the dead, they restored 
water and electricity, they cleaned up massive amounts of debris, and 
in a time period far shorter than anticipated, they deconstructed and 
removed the remains of broken buildings. Many had no training in 
response to civil disaster. The highly diverse nature of this 
workforce, and the absence in most of the groups who responded of any 
rosters to document who had been present at the site, posed 
unprecedented challenges for worker protection and medical follow-up.
    The 9/11 workforce came from across America. In addition to tens of 
thousands of men and women from New York, New Jersey, and Connecticut, 
responders from every state in the nation stepped forward after this 
attack on the United States and are currently registered in the WTC 
Medical Monitoring Programs. Particularly large numbers came from 
California, Massachusetts, Ohio, Illinois, North Carolina, Georgia, and 
Florida.
    The Exposures of 9/11 Responders. The workers and volunteers at 
Ground Zero were exposed to an intense, complex and unprecedented mix 
of toxic chemicals. In the hours immediately after the attacks, the 
combustion of 90,000 liters of jet fuel created a dense plume of black 
smoke containing volatile organic compounds--including benzene, metals, 
and polycyclic aromatic hydrocarbons. The collapse of the twin towers 
(WTC 1 and WTC 2) and then of a third building (WTC 7) produced an 
enormous dust cloud. This dust contained pulverized cement (60-65% of 
the total dust mass), uncounted trillions of microscopic glass fibers 
and glass shards, asbestos, lead, polycyclic aromatic hydrocarbons, 
hydrochloric acid, polychlorinated biphenyls (PCBs), organochlorine 
pesticides, furans and dioxins. Levels of airborne dust were highest 
immediately after the attack, attaining estimated levels of 1,000 to > 
100,000 mg/m3, according to the US Environmental Protection Agency. 
Firefighters described walking through dense clouds of dust and smoke 
in those first hours, in which ``the air was thick as soup''. The high 
content of pulverized cement made the dust highly caustic (pH 10--11).
    The dust and debris gradually settled, and rains on September 14 
further diminished the intensity of outdoor dust exposure in lower 
Manhattan. However, rubble-removal operations repeatedly reaerosolized 
the dust, leading to continuing intermittent exposures for many months. 
Fires burned both above and below ground until December 2001.
    Workers and volunteers were exposed also to great psychological 
trauma. Many had already lost friends and family in the attack. In 
their work at Ground Zero they commonly came unexpectedly upon human 
remains. Their stress was compounded further by fatigue. Most seriously 
affected by this psychological trauma were those not previously trained 
as responders.
    The World Trade Center Medical Monitoring and Treatment Program. 
Although New York has an extensive hospital network and strong public 
health system, no existing infrastructure was sufficient to provide 
unified and appropriate occupational health screening and treatment in 
the aftermath of September 11. Local labor unions, who made up the 
majority of responders, became increasingly aware that their members 
were developing respiratory and psychological problems; they initiated 
a campaign to educate local elected officials about the importance of 
establishing an occupational health screening program. In early 2002, 
Congress directed the Centers for Disease Control and Prevention (CDC) 
to fund the WTC Worker and Volunteer Medical Screening Program.
    In April 2002, the Irving J. Selikoff Center for Occupational and 
Environmental Medicine of the Mount Sinai School of Medicine was 
awarded a contract by the National Institute for Occupational Safety 
and Health (NIOSH), a component of the CDC, to establish and coordinate 
the WTC medical program. The Bellevue/New York University Occupational 
and Environmental Medicine Clinic, the State University of New York 
Stony Brook/Long Island Occupational and Environmental Health Center, 
the Center for the Biology of Natural Systems at Queens College in New 
York, and the Clinical Center of the Environmental & Occupational 
Health Sciences Institute at UMDNJ-Robert Wood Johnson Medical School 
in New Jersey were designated as the other members of the regional 
consortium based at Mount Sinai. The Association of Occupational and 
Environmental Clinics was designated to coordinate a national 
examination program for responders who did not live in the New York/New 
Jersey metropolitan area.
    In addition to this consortium, there is a parallel program based 
at the Fire Department of New York (FDNY) Bureau of Health Services, 
also supported by the federal government through NIOSH. This program 
has provided medical examinations to over 15,000 New York City 
firefighters and paramedics. The FDNY and Mount Sinai programs 
collaborate closely and use closely similar protocols for monitoring 
the health of 9/11 responders. A great strength of the FDNY program is 
that it had collected extensive baseline data on the health of each 
firefighter and paramedic through a periodic medical examination 
program that long predated September, 2001.
    Nearly all of what we know today about the health effects of the 
attacks on the WTC has been learned through these medical programs that 
were developed in Centers of Excellence funded by the federal 
government.
    The Centers that comprise the consortium based at Mount Sinai 
provide free comprehensive medical and mental health examinations for 
each responder every 18 months. Examinations are undertaken according 
to a carefully developed uniform protocol, and all of the data obtained 
on each responder are entered into a computerized database. The goals 
of the program are two:
    1. To document diseases possibly related to exposures sustained at 
the World Trade Center;
    2. To provide medical and mental health treatment for all 
responders with WTC related illnesses, regardless of ability to pay.
    To date, thanks to federal support, over 21,000 WTC responders have 
received initial comprehensive medical and mental health monitoring 
evaluations in the Centers of Excellence that comprise this consortium. 
More than 7,250 of these responders have also received at least one 
follow-up examination. Demand for the program remains strong. Even now, 
six years after 9/11, approximately 400 new workers and volunteers 
register for the program each month. In August 2007, 771 new 
participants, persons whom we had never previously seen, registered for 
the program through our telephone bank.
    Our WTC Medical Treatment Program has also been active. We launched 
this program in 2003 with support from philanthropic gifts. 
Philanthropic support provided the sole financial base for the 
treatment program from 2003 to 2006. Since September, 2006, we have 
begun to receive support for this program from the federal government. 
To date over 6,300 responders have received 47,000 medical and mental 
treatment services through this program.
    Health Effects Among WTC Responders. Documentation of medical and 
mental health findings in 9/11 responders followed by timely 
dissemination of this information through the peer-reviewed medical 
literature are essential components of our work. Documentation of our 
findings enables us to examine trends and patterns of disease and to 
assess the efficacy of proposed treatments. Dissemination of our 
findings and our recommendations for diagnosis and treatment to 
physicians across the United States permits us to share our knowledge 
and to optimize medical care. Such documentation and dissemination 
would be well nigh impossible in the absence of federally funded 
Centers of Excellence.
    In September 2006, the Centers of Excellence that comprise our 
consortium published a paper in the highly respected, peer-reviewed 
medical journal Environmental Health Perspectives, a journal published 
by the National Institutes of Health. This report detailed our medical 
findings from examinations of 9,442 WTC responders whom we and our 
partner institutions had assessed between July 2002 and April 2004. I 
have appended this study to my testimony for your review, and I would 
like to direct your attention to a few key findings:
    <bullet> Among these 9,442 responders, 46.5% reported experiencing 
new or worsened lower respiratory symptoms during or after their work 
at Ground Zero; 62.5% reported new or worsened upper respiratory 
symptoms; and overall 68.8% reported new or worsened symptoms of either 
the lower and/or the upper respiratory tract.
    <bullet> At the time of examination, up to 2\1/2\ years after the 
start of the rescue and recovery effort, 59% of the responders whom we 
saw were still experiencing a new or worsened lower or upper 
respiratory symptom, a finding which suggests that these conditions may 
be chronic and that they will require ongoing treatment.
    <bullet> One third of responders had abnormal pulmonary function 
test results. One particular breathing test abnormality--decreased 
forced vital capacity--was found 5 times more frequently in WTC 
responders than in the general, non-smoking population of the United 
States.
    <bullet> We found that the frequency and severity of respiratory 
symptoms was greatest in responders who had been trapped in the dust 
cloud on 9/11; that frequency and severity were next greatest in those 
who had been at Ground Zero in the first week after 9/11, but who had 
not been caught in the dust cloud; and that frequency and severity were 
lower yet in those who had arrived at Ground Zero after the first week. 
These findings fit well with our understanding of exposures at the site 
and thus lend internal credibility to our data.
    <bullet> Findings from our program released in 2004 have attested 
to the fact that in addition to respiratory problems, there also exist 
significant mental health consequences among WTC responders.
    External Corroboration of our Findings. The peer-reviewed article 
that we published one year ago in Environmental Health Perspectives 
gains further credibility by virtue of the fact that the findings we 
report in it are consistent with findings on 9/11 responders that have 
been reported by highly credible medical investigators outside of our 
consortium. The FDNY has published extensively on the burden of 
respiratory disease among New York firefighters. They have seen a 
pattern of symptoms that closely resembles what we observed. Forty 
percent of FDNY firefighter responders had persistent lower respiratory 
symptoms, and 50% had persistent upper respiratory symptoms more than 
one year after 9/11. FDNY noted that rates of cough, upper respiratory 
irritation and gastroesophageal reflux were highest in those 
firefighters who had been most heavily exposed on 9/11. FDNY physicians 
have also noted reactive airways disease, and highly accelerated 
decline in lung function in firefighters as well as in other responders 
in the year following 9/11.
    Our findings receive further corroboration from reports released 
recently by the New York City Department of Mental Health and Hygiene 
from the WTC Registry that the health department has established with 
support from CDC. These reports noted increased rates of asthma and of 
post-traumatic stress disorder.
    Current Medical Findings in 9/11 Responders. To provide a 
``snapshot'' that portrays in near real time the patterns of illnesses 
that we are currently seeing in 9/11 responders, we have recently 
performed an analysis of responders whom we saw for treatment in our 
federally funded consortium Centers of Excellence in the 3-month period 
between April 1, 2007 and June 30, 2007. During this time, 2,323 
patients were seen in 4,693 visits. Findings among these responders who 
sought medical treatment included:
    <bullet> Lower respiratory conditions in 40%. This includes asthma 
and the asthma-like condition known as reactive airways disease (RADS) 
in 30%. Other lower respiratory conditions include chronic cough (7%) 
and chronic obstructive pulmonary disease (5%).
    <bullet> Upper respiratory conditions in 59%. This includes 
rhinitis (chronic nasal irritation or ``runny nose'') in 51%, chronic 
sinusitis in 20% and chronic laryngitis in 5%.
    <bullet> Gastrointestinal conditions in 43%. Most of these were 
cases of gastro-esophageal reflux disorder (GERD).
    <bullet> Mental health problems in 36%. This includes PTSD, in 21% 
and depression in 11.6%.
    <bullet> Social disability was also commonly encountered. More than 
30% of previously healthy responder patients were either unemployed/
laid off, or on sick leave/ disability during the 3-month time period 
of observation. And 28% had no medical insurance at some point during 
this period.
    Future Health Risks and Unanswered Questions. Two major unanswered 
questions confront us as we consider the future health outlook for the 
brave men and women who responded to 9/11:
    1. Will the respiratory, gastrointestinal and mental health 
problems that we are currently observing in responders continue to 
persist? For how long? And with what degree of severity and associated 
disability? These questions are especially important in the case of 
those responders who sustained very heavy exposures in the dust cloud 
on 9/11, in those who served in the first days after 9/11 when 
exposures were most intense, and in those who had prolonged exposures 
in the weeks and months after 9/11?
    2. Will new health problems emerge in future years in responders as 
a consequence of their exposures to the uniquely complex mix of 
chemical compounds that contaminated the air, soil and dust of New York 
City in the aftermath of 9/11? Responders were exposed to carcinogens, 
neurotoxins, and chemicals toxic to the respiratory tract in 
concentrations and in combinations that never before have been 
encountered. The long-term consequences of these unique exposures are 
not yet known.
    Concluding Comments. Six years following the attacks on the World 
Trade Center, thousands of the brave men and women who stood up for 
America and who worked on rescue, recovery, and clean up at Ground Zero 
are still suffering. Respiratory illness, psychological distress and 
financial devastation have become a new way of life for many.
    The future health outlook for these responders is uncertain. The 
possibility is real that illnesses will persist, at least in some, and 
that new conditions--diseases marked by long latency--will emerge in 
others.
    Only continuing, federally supported medical follow-up of the 9/11 
responders through Centers of Excellence that are equipped to 
comprehensively evaluate responders, to document their medical 
findings, and to provide compassionate state-of the-art treatment will 
resolve these unanswered questions.
    Thank you. I shall be pleased to take your questions.
                                 ______
                                 
    Chairman Miller. Thank you.

   STATEMENT OF PATRICIA CLARK, REGIONAL ADMINISTRATOR, OSHA 
                           REGION II

    Ms. Clark. Thank you for this opportunity to discuss OSHA's 
role in protecting workers after the tragic events at the World 
Trade Center on September 11th. OSHA's mission is to assure 
safe and healthful working conditions for employees in this 
Nation. Within hours of the attack, OSHA joined with other 
Federal, State and local agencies as well as safety and health 
professionals from contractors and trade unions on the site to 
help protect workers involved in recovery, demolition and 
clean-up operations. The site was not a typical demolition 
project, workers needed immediate protection from hazards, the 
scope and severity of which were unpredictable.
    Working under perilous conditions, OSHA began coordinated 
efforts to protect the health and safety of workers. Our 
initial actions included conducting worker air monitoring, 
distributing PPE and finding and fixing safety hazards. OSHA 
dedicated over 1,000 safety and health professionals to the 
response. Our employees remained on site for 10 months 
providing a 24-hour, 7-day-a-week presence. We collected more 
than 6,500 air and bulk samples to test for asbestos, lead 
other heavy metals, silica and other inorganic and organic 
compounds totaling 81 different substances. We performed over 
24,000 tests of individual samples to quantify worker exposure. 
Worker sampling was conducted around the clock for workers on 
and near the Pile. OSHA's reading and sample results were well 
below the agency's permissible exposure levels, PELs, for the 
majority of the substances tested.
    To keep workers fully informed about potential risk, OSHA 
distributed sampling studies to trade unions, site contractors 
and agencies during daily safety and health meetings. Personal 
sampling results were mailed directly to employees along with 
OSHA contact information. Those whose sample results exceeded a 
PEL were encouraged to seek medical consultation. We also 
posted all results on our Web site.
    Workers on the site were required to wear appropriate 
respirators selected based on extensive risk assessment. OSHA, 
along with site safety and health professionals, agreed on a 
high level of protection requiring a hazmat negative pressure 
respirator with high efficiency particulate organic vapor and 
acid gas cartridges. This was communicated through orders and 
notices posted throughout the site. I now call your attention 
to Exhibits 1 through 7 and the posters on the easel.
    Distribution of respirators to workers posed challenges. 
OSHA initially deployed staff by foot with bags of respirators, 
following by mobile teams and all-terrain vehicles; see Exhibit 
8. We also established distribution points at the fire 
department of New York staging areas. We opened multiple 
equipment distribution locations throughout the 16-acre site; 
see Exhibits 9 and 10. At the peak of the operation, we gave 
out 4,000 respirators a day. We distributed more than 131,000 
respirators during the 10-month recovery period. OSHA conducted 
over 7,500 quantitative fit tests for respirators, including 
nearly 3,000 for FDNY personnel; see Exhibit 11. Fit tests 
included instruction on storage, maintenance, the proper use 
and the limitations of respirators; 45,000 pieces of other 
protective equipment was given out as well. More than 3.7 
million work hours were expended during this highly dangerous 
rescue-and-recovery mission with only 57 non-life threatening 
injuries and not one fatality during the recovery. This is 
remarkable given the nature and complexity of the work at this 
site.
    OSHA recommended the establishment of a joint labor 
management safety and health committee which was key to worker 
protection. This resulted in an unusually high level of safety 
and health oversight and direct involvement of workers. 
Building trades, contractors, union stewards and OSHA met 
weekly, developed and distributed safety bulletins to workers 
and held tool-box talks; see Exhibits 12 and 13. OSHA and the 
building trades collaborated to provide mandatory safety and 
health training for all workers on the site.
    We learned many lessons at the World Trade Center site that 
have helped the agency and the Nation improve emergency 
preparedness. Worker safety and health must by integrated into 
the planning and operations of emergency responses. To that 
end, OSHA requested that worker protection be specifically 
included in the new National Response Plan. A worker safety and 
health support annex was added in 2005 designating OSHA as the 
designating agency. OSHA continues to work with the emergency 
response community at all levels to promote worker safety and 
health in future responses.
    Mr. Chairman, in addition to my concern for workers at the 
WTC site, I have a personal interest in the effects of 
exposures because my staff and I spent so much time there. Our 
Manhattan area office was destroyed when the North Tower of the 
WTC collapsed onto our building. Our employees were exposed to 
all of the same potential contaminants in the atmosphere as 
others who were in lower Manhattan that day.
    I can say with confidence and with pride that OSHA's staff 
did everything humanly possible to protect the workers during 
recovery efforts at the WTC. I would be pleased to answer any 
questions.
    [The statement of Ms. Clark follows:]

     Prepared Statement of Patricia Clark, Regional Administrator, 
Occupational and Safety Health Administration, U.S. Department of Labor

    Mr. Chairman, Members of the Subcommittee: Thank you for this 
opportunity to discuss OSHA's role in protecting workers after the 
terrorist attacks at the World Trade Center (WTC) on September 11, 
2001.
    My name is Patricia Clark and I am the OSHA Regional Administrator 
for Region II, which covers New York, New Jersey, Puerto Rico and the 
U.S. Virgin Islands. OSHA's mission is to assure safe and healthful 
working conditions for employees in this Nation. The attack on the 
World Trade Center was an unprecedented catastrophic event, and the 
vast majority of victims were on-the-job. The size and scope of the 
response to the attack involved response workers, uniformed services as 
well as private contractors, all of whom were engaged in a rescue and 
recovery operation. Within hours of the attack, OSHA joined with other 
Federal, state and local agencies, as well as safety and health 
professionals from contractors and trade unions on site, to assist in 
protecting workers involved in the recovery, demolition and clean-up 
operations.
    Consistent with the Federal Response Plan and National Contingency 
Plan, OSHA ``made available safety and health specialists to provide 
safety-specific assistance,'' including ``safety consultation and 
training programs, air contaminant sampling and analysis and other 
services'' during rescue and recovery work at the WTC site and later at 
the Staten Island Landfill. It was apparent that workers engaged in 
these operations would not be working in a conventional setting and 
that the WTC site was not a typical construction or demolition project. 
Employees at the WTC site needed immediate protection from safety and 
health hazards, the scope and severity of which were unpredictable.
    OSHA's primary responsibilities at the site were to perform 
personal air monitoring, characterize exposures, distribute and fit 
respirators along with other personal protective equipment, and conduct 
safety monitoring. Throughout the course of the recovery and clean-up 
phase, OSHA dedicated more than 1,000 safety and health professionals 
to the response. Our employees remained on site for ten months, 
providing a 24-hour presence, seven days a week. OSHA staff spent more 
than 120,000 hours at the site while the OSHA's Technical Center in 
Salt Lake City also worked around the clock to expedite sampling 
analysis and results.
    Between September 2001 and June 2002, OSHA conducted more than 
24,000 analyses of individual air samples to quantify worker exposure 
to contaminants. Personal sampling was conducted around the clock each 
day by industrial hygienists and supplemented by bulk samples, area 
samples, and direct instrument readings. The agency collected more than 
6,500 air and bulk samples to test for asbestos, lead, other heavy 
metals, silica, as well as inorganic and organic compounds, totaling 81 
different analytes.
    OSHA coordinated its sampling with that done by safety and health 
professionals from other environmental and health agencies of the 
Federal government, New York State and New York City, and from trade 
unions and contractors. Employee exposure to respiratory hazards was 
measured during search and recovery operations, heavy equipment 
operations, torch cutting of structural steel, manual debris removal, 
wash-station operations and concrete drilling. Debris from the WTC site 
was taken to a landfill on Staten Island for sorting and disposal. OSHA 
conducted safety and health monitoring at that site as well.
    OSHA's breathing zone samples revealed exposures well below the 
Agency's Permissible Exposure Limits (PELs) for the majority of 
chemicals and substances tested. For example, OSHA collected more than 
1,400 air samples to test for the presence of asbestos. All results 
were well below OSHA's PEL for that substance. In more than 700 samples 
taken to test for the presence of organic compounds such as 
formaldehyde, benzene, and acrylonitrile, only one benzene sample of 
the 244 taken was found to be near OSHA's PEL. About five percent of 
the 1,331 samples taken to test for the presence of metals collected on 
the site exceeded the PELs for copper, iron oxide, lead, zinc oxide, 
antimony and cadmium. While OSHA does not have the authority to mandate 
the use of respiratory protection for everyone working on the site, the 
WTC Emergency Project Environmental Safety and Health Plan, established 
in partnership with unions, contractors and federal, state and local 
agencies, required respiratory protection for workers covered by the 
Plan.
    OSHA employed a variety of methods to keep workers fully informed 
about potential hazards and risks. OSHA distributed sampling-result 
summaries to workers and their trade unions, site contractors, and all 
responding public agencies, such as the New York City Police Department 
and the Fire Department of New York, during daily safety and health 
meetings. Employees whose exposures were sampled were asked to provide 
OSHA with their mailing address and were notified in writing of their 
personal sampling result. They were also given a contact number at OSHA 
to use if they desired follow-up information. Employees whose sample 
results exceeded the PEL were encouraged to seek medical consultation. 
OSHA also posted sample results on its Web site (www.osha.gov) within 
eight hours after they were determined.
    The respirators workers were provided were selected jointly with 
safety and health professionals from a variety of organizations 
including the New York City Department of Health, the National 
Institute for Occupational Safety and Health (NIOSH), private 
contractors, and trade unions. All stakeholders agreed on a high level 
of protection, requiring a half-mask, negative-pressure respirator with 
high-efficiency/particulate/organic vapor/ acid gas cartridges. The 
requirement, along with other safety measures, was communicated through 
notices posted throughout the site. (See Exhibits 1-7) OSHA continued 
to conduct extensive risk assessment through air and bulk sampling and 
monitoring to verify that the respirators were providing an appropriate 
level of protection. For example, when sample results for jack-
hammering and concrete-drilling operations indicated that a higher 
level of protection was necessary, a full face-piece respirator was 
required for those operations.
    Shortly after the terrorist attack, the New York City Department of 
Health requested that OSHA be the lead agency for distributing, 
fitting, and training for respirators for the recovery workers. OSHA 
assisted 4,000 workers daily at the peak of recovery operations. During 
the ten-month recovery period, OSHA distributed more than 131,000 
respirators. OSHA also worked closely with the private sector by 
requesting respirator donations from the leading manufacturers, and 
many responded generously.
    Distribution of respirators to workers posed challenges. OSHA 
initially deployed staff by foot with bags of respirators, followed by 
mobile teams on all terrain vehicles (Exhibit 8). We also established a 
distribution point at the Queens Marina, which was the Fire Department 
of New York's staging area. OSHA opened multiple equipment distribution 
locations throughout the sixteen acre site (Exhibits 9 and 10).
    During the recovery, OSHA conducted more than 7,500 quantitative 
fit-tests for respirators, including nearly 3,000 for FDNY personnel 
(Exhibit 11). Fit-testing included a facial analysis and a user-seal 
check as well as instruction on the best way to store and maintain the 
respirators. OSHA also advised employers and workers on the proper use 
and limitations of respirators. In addition to respiratory protection, 
OSHA distributed 11,000 hard hats, 13,000 pairs of safety glasses and 
more than 21,000 pairs of protective gloves to workers on the site.
    Despite the highly dangerous rescue and recovery mission at the 
WTC, there was not one fatal accident during the 10-month clean-up 
operation. During this period, OSHA identified more than 9,000 hazards 
and saw that those hazards were corrected. More than 3.7 million work 
hours were expended during this hazardous and lengthy rescue and 
recovery mission, yet only 57 injuries were recorded, none life-
threatening. This is a remarkable achievement given the nature and 
complexity of the work at this site including thousands of construction 
and emergency-response workers laboring each day in close proximity to 
heavy construction and demolition equipment. OSHA played a critical 
role in protecting these workers.
    The key to success at the WTC site was working in close 
partnership. OSHA collaborated with city, state and other federal 
agencies, as well as contractors, unions and trade associations. This 
collaboration was formalized in the WTC Emergency Project Partnership 
Agreements, signed in November 2001 and April 2002. They brought 
together OSHA, the New York City Department of Design and Construction, 
the Fire Department of New York, the Building and Construction Trades 
Council of Greater New York, the Building Trades Employers Association, 
the Contractors Association of New York and the four prime contractors 
at the site. Through the partnerships, a joint-labor-management 
committee dealing with safety, health and environmental issues was 
established to identify hazards and recommend corrective actions. One 
of the most important results of these partnerships was the very high 
level of safety and health oversight, training and direct involvement 
of workers at the site. The development of a strong Labor-Management 
Health and Safety Committee combined with a steward system created an 
effective mechanism for worker concerns to be expressed and addressed. 
The end result was that the lost workday injury and illness rate (3.1 
per 100 workers) was significantly less than the national rate for 
workers in industries such as demolition (4.3 per 100 workers).
    The unique command and control structure at the WTC site created 
the need for considerable communication, coordination, and cooperation 
among all involved parties at the site. The OSHA partnership agreements 
and the WTC Emergency Project Environmental Safety and Health Plan 
provided the framework and structure for coordinated communication 
among all involved parties. Weekly reports that tracked the injuries 
and illnesses at the site were compiled by the Labor-Management 
Committee and safety-orientation training was provided for all new 
workers. Safety and health monitoring data were shared among all 
parties. Safety and health discussions reached individual workers 
through a weekly bulletin that highlighted issues of concern. (Exhibits 
12 & 13) Union stewards met weekly, distributed bulletins directly to 
workers and held toolbox safety briefings based on topical issues.
    Formal safety and health training for workers on the project was 
provided. OSHA and the Center to Protect Workers' Rights (CPWR), the 
health and safety division of the Building Trades Department of the 
AFL-CIO, created an Orientation Subcommittee to give safety and health 
training to all workers at the site. More than 50 instructors were 
trained to deliver the program to 2,000 workers.
    OSHA learned a great deal at the WTC site--lessons that will 
improve preparations for future national emergencies. First, we 
confirmed that worker safety and health must be proactively integrated 
into the planning and operations of emergency response. OSHA requested 
that worker protection be specifically included in the new National 
Response Plan, which sets forth procedures for the Federal government 
in responding to emergencies. A Worker Safety and Health Support Annex 
was included in the National Response Plan, designating OSHA as the 
coordinating agency. The Support Annex activities mirror the worker 
protection efforts implemented at the WTC, including such features as 
health and safety monitoring, worker training and use of personal 
protective equipment.
    Second, OSHA realized its need for resources and expertise to 
address worker hazards associated with weapons of mass destruction. 
OSHA created four Specialized Response Teams comprised of highly 
trained professionals qualified to assess and mitigate worker risks 
associated with Chemical, Biological, Radiological and Structural 
Collapse hazards.
    Third, OSHA reaffirmed that employers need effective emergency 
evacuation plans for their worksites and that they should regularly 
practice evacuations and review their procedures.
    Fourth, OSHA issued its National Emergency Management Plan. This 
policy directive reiterates OSHA's long standing policy of providing 
technical assistance and support in the aftermath of disasters. It also 
required each of OSHA's Regions to develop, implement and execute their 
own Regional Emergency Management Plan.
    Fifth, OSHA's experience at the WTC brought home the importance of 
routinely fit-testing respirators for emergency responders at all 
levels of government. It is important to build familiarity with 
negative-pressure, air-purifying respirators among employees who might 
not
    typically use them. OSHA is endeavoring to establish a culture that 
emphasizes proper respiratory protection for emergency responders so 
that they wear properly fitted and maintained respirators when they 
respond to worksites, similar to the WTC, which may have multiple 
chemical exposures. A respirator that does not fit properly is not 
effective. OSHA developed the Disaster Site Worker Training Program to 
help prepare workers for emergency response and is working with the 
CPWR to provide skilled-support personnel with the requisite training.
    Sixth, OSHA fully supports the National Interagency Management 
System and its focus on uniformity of response structure and protocol 
centered on the Incident Command System. OSHA worked with the 
Department of Homeland Security to define the role of the Safety 
Officer in the Incident Command System. OSHA has developed in-house 
expertise and has trained the vast majority of its field staff to 
intermediate and advanced levels of ICS.
    Finally, OSHA and other agencies now realize, as never before, the 
value of emergency preparedness and response partnerships among 
federal, state and local agencies, with clear lines of authority for 
all functions. It is particularly important to improve channels of 
communication among various levels of government. To be most effective, 
relationships must be established before the next emergency occurs. 
That is why OSHA has begun reaching out to the emergency response 
community throughout this nation. No government agency or private 
entity can handle catastrophic emergencies alone. We are all in this 
together.
    Mr. Chairman, in addition to my concern for workers at the WTC 
site, I have personal interest in the short- and long-term effects of 
exposures there because my staff and I spent so much time at the site. 
OSHA's Manhattan Area Office was destroyed when the North Tower of the 
WTC collapsed on top of us. During evacuation, the agency's employees 
were exposed to all of the same contaminants in the atmosphere as 
others who were in lower Manhattan that day.
    I can say with confidence and with pride that OSHA staff did 
everything they believed humanly possible to protect the workers during 
recovery efforts at the WTC site.
    Mr. Chairman, I would be pleased to answer any questions from 
members of the Committee.
                                 ______
                                 
    Chairman Miller. If you would provide us copies of the 
exhibits that you cited so we don't have to lug around the 
poster boards.
    Ms. Clark. Oh, I'm sorry. Absolutely, I thought they were 
provided with the testimony.
    Chairman Miller. No, they have not been. Thank you.

   STATEMENT OF BRIAN A. JACKSON, PH.D., ASSOCIATE DIRECTOR, 
          HOMELAND SECURITY PROGRAM, RAND CORPORATION

    Dr. Jackson.
    Dr. Jackson. Thanks very much.
    Mr. Chairman and distinguished members of the committee, 
thank you for inviting me to participate in today's hearing. I 
should begin by saying that my remarks are based on remarks 
carried out by RAND and the National Institute for Occupational 
Safety and Health. Our work began in December of 2001 when the 
9/11 response operations were still ongoing and continued over 
the next 4 years. Many members of the responder community 
assisted us and contributed to our research. My testimony draws 
both on my work and that of my co-authors as well as the 
contributions of our studies' participants, but my specific 
remarks are my responsibility alone.
    The main message I want to convey is twofold: First, to 
protect emergency workers at any multi-agency disaster 
response, there must be an incident safety management structure 
that can make difficult safety decisions and has the authority 
needed to implement and enforce them. The only way this can 
work is if the needed framework has been put in place 
beforehand in planning and preparedness efforts. The simple 
answer to why response workers were not sufficiently protected 
at the World Trade Center is that the preparedness efforts that 
were in place to do so were not designed for an incident of 
that magnitude.
    Second, although the experience of the 9/11 response has 
taught us a great deal about what needs to be done to protect 
workers at future incidents, many of those lessons not yet 
reflected in current practice. Some steps have been taken, and 
a number of Federal preparedness documents, including the 
workers safety annex that was just mentioned, now do contain a 
much better blueprint for responder safety management, but to 
actually protect responders at future disasters, we can't just 
describe what the system should look like, we actually need to 
build it and make sure it will work.
    I will talk about a bit more in detail about the question 
posed by the title of the hearing and then discuss some of the 
steps that need to be taken to prepare for future incidents. 
Workers at the World Trade Center were not appropriately 
protected for a number of reasons. The problems with providing 
protective equipment to responders at the site are well known. 
Much of the equipment that they had wasn't suited to the 
complexity of that hazard environment. And since responders 
perceived it as hindering their ability to act, it was often 
not used.
    Logistics operations were also chaotic, and there were 
major problems in providing workers essential supplies like 
cartridges for respirators. But in spite of the seriousness of 
the equipment problems, responders told us that the breakdowns 
in other key safety functions, hazard assessment, making safe 
decisions, and implementing and enforcing them, which we have 
collectively called safety management, were as, at least, 
detrimental to worker safety.
    The lack of a single integrated safety management structure 
to effectively coordinate the many separate response 
organizations at the site was the main problem. For example, 
there were multiple organizations involved in environmental 
monitoring, and many response organizations had to rely on 
those technical agencies for their hazard assessments. But 
since there wasn't a coordinating structure for that effort, 
different agencies reported somewhat different results which 
produced confusion. Responders spoke of waves of concerns going 
through the site about different hazards as the assessments 
changed over time. The lack of an integrated safety management 
structure also meant that some of the most difficult safety 
decisions did not or could not get made. All response 
operations are driven initially by the goal of saving lives, as 
was mentioned in some of the opening remarks, which does 
involve responders taking risks. At some point, rescue must 
transition into recovery when it becomes less likely that lives 
can be saved. The responders told us that transition came too 
late at the World Trade Center, if at all.
    Finally, responders told us that the lack of clear 
integrated command authority significantly hindered the 
enforcement of safety measures, because different organizations 
made their own decisions about what their members should do.
    When it comes to what we can do to help prevent these 
safety problems at future disasters, the fundamental message is 
that we must successfully adopt an integrated multi-agency 
approach to safety that was missing at the WTC response. 
Elements of what is required to do so are included in documents 
prepared since 9/11 lack the National Response Plan, but to 
implement those plans, we need to do more.
    I will briefly discuss three of the recommendations that 
came out of our work that are necessary to make this a reality. 
First, there is a need to really pilot test doing safety 
management at the State and local level. Although the Federal 
Government can lay the groundwork for this, the fact that all 
response operations do start locally, even large disasters, 
means that State and local responders must act first when the 
incident occurs. As a result, figuring out the details about 
how to do this right needs to be done at the State and local 
level.
    Second, there is a need to conduct preparedness exercises 
that realistically address responder safety management, because 
the focus of most exercises are on the operational parts of 
response, safety is frequently ignored or given very cursory 
attention. Finally, we recommend identifying and training 
disaster safety managers to fill the key safety management 
roles at major incidents. Playing the role successfully 
requires knowledge and expertise that most members of the 
response community are unlikely to get incidentally in their 
day-to-day activities. That suggests the need for specialized 
training in preparation in a Federal role in supporting their 
implementation.
    When our studies were released, the recommendations were 
broadly supported by key Federal safety organizations as well 
as by lawmakers on both sides of the aisle and representatives 
of the responder community. In spite of that support, many of 
the priorities they identified have not been acted upon. A few 
problems, like Hurricane Katrina, demonstrate that the system 
the county needs is not yet in place. I would like to thank you 
again for the opportunity to address the committee on this 
topic and look forward to the questions.
    [The statement of Mr. Jackson follows:]

 Prepared Statement of Brian A. Jackson,\1\ Ph.D., Associate Director, 
               Homeland Security Program, the RAND Corp.

Protecting Emergency Responders at Large-Scale Incidents Lessons 
        Learned from the Response to the Attacks on the World Trade 
        Center\2\
    Mr. Chairman and distinguished Members of the Committee: Thank you 
for inviting me to participate in today's hearing on this important 
subject. With the collapse of the Twin Towers of the World Trade 
Center, the attacks of September 11, 2001, claimed the lives of more 
than 400 emergency responders. From its first moments, one of the 
defining features of this attack was the toll it took on the emergency 
response community--men and women we rely on to protect us when 
disaster strikes. The health consequences that have continued to 
develop for response and recovery workers in the years since the 
attacks have meant the impact of 9/11 on the responder community and on 
the nation is continuing to mount. Assessing the breakdowns that led to 
this situation is important for understanding what happened that day 
and in the months that followed but is also critical in preventing 
history from repeating itself in future responses to large-scale 
terrorist events or disasters.
    In the weeks after September 11, a research team at the RAND 
Corporation--in cooperation with, and supported by, the National 
Institute for Occupational Safety and Health--initiated a quick-
response study of responder safety issues at the 9/11 response 
operations. In December 2001, while the response and recovery 
operations were still ongoing, we held a group discussion with 
responders in New York City. The goal of the discussion was to collect 
information and gather firsthand insight from the individuals directly 
involved in the safety problems that were occurring while the knowledge 
was still immediate and fresh.
    That effort was the beginning of more than four years of in-depth 
research that examined emergency responder safety concerns in much more 
detail, all of which was carried out in close collaboration with 
members of the emergency response community. The results of that work 
have been published in a set of RAND reports, which contain much more 
detail on the issues and recommendations summarized in my testimony.\3\ 
Today, I will focus on the findings reported in the first and third 
volumes of that series. My remarks therefore draw both on my work and 
that of my co-authors, as well as on the contributions of all the 
members of the responder community who participated in the projects; of 
course, the specific content of my testimony is my responsibility 
alone.
    For the remainder of my remarks, I will address two questions: 
First, the question posed in the title of this hearing, ``Why weren't 
9/11 recovery workers protected at the World Trade Center?'' and 
second, drawing on the lessons from that response and other disaster 
response operations, ``What do we need to do to ensure responders are 
protected at future large-scale incidents?''
    The basic message I want to convey today in answering those 
questions is two-fold. First, to protect emergency workers at any major 
disaster, there must be an incident safety management structure in 
place that can make difficult safety decisions and has the equipment, 
capabilities, and authority needed to implement and enforce them 
effectively. This did not happen at the World Trade Center response for 
a number of reasons, and, as a result, the response workers there were 
left unprotected from many of the risks at the site. Second, although 
the experience of the 9/11 responses taught us a great deal about what 
needs to be done to protect workers at future incidents, many of those 
lessons are not yet reflected in current practice. Some steps have been 
taken, and a number of federal policy and preparedness documents now 
contain a much better blueprint for responder safety management at 
major incidents. But to actually protect responders at future disasters 
we can't just describe what the system to do so should look like, we 
actually need to build it and make sure it can work effectively before 
the next disaster strikes.
Why Weren't 9/11 Recovery Workers Protected at the World Trade Center?
    Based on information we received directly from responders 
themselves in 2001 and data gathered in the years since, along with the 
benefit of hindsight and additional study, the reason why response 
workers were not protected at the World Trade Center is that the plans 
and preparedness measures in place for protecting them were simply not 
designed for an incident of that magnitude and complexity.
    Protecting responders is not just a concern at large events like 
the 9/11 attacks. Emergency responders face risk when they respond to 
``routine emergencies'' like fires or traffic accidents. As one 
responder put it to us, ``If things were safe, we wouldn't need to be 
there.'' Response organizations have procedures to address the danger 
that is inherent in what they do. But a disaster like the World Trade 
Center collapse was unprecedented in the experience of every emergency 
response organization involved in the response. At such major disaster 
response operations, many routine strategies for protecting responders 
break down, and, if they are not replaced with approaches better 
matched to the situation, responders are put at risk. When the attacks 
occurred, the nation did not have a safety management system in place 
to effectively make that transition from routine ways for protecting 
responders to approaches that would work at a major disaster like the 
collapse of the Twin Towers. Unfortunately, despite useful steps that 
have been taken since 2001, that is still the case.
    Protecting emergency workers requires four things: (1) figuring out 
what dangers exist in the response environment, (2) making decisions 
about tolerating or mitigating known risks, (3) getting the equipment 
or other resources needed to address the danger, and (4) implementing 
and enforcing the decisions.
    Given the publicity about shortages of safety equipment at the 
World Trade Center immediately after the attacks, when RAND went to New 
York in December of 2001 we expected that the main problems we would 
hear about would be in the third category, e.g., that the responders 
did not have the right facemasks and respirators to protect them from 
the hazardous smoke and dust at the scene. However, although there were 
equipment problems, the responders told us that equipment problems were 
not the most important safety problem. Instead, they told us that 
serious breakdowns in assessing risks, making decisions about what 
protective actions should be taken, and implementing those decisions--
which we group together here as problems in the way safety was 
managed--were at least as important, if not more critical.
    Based on the experiences and insights provided by the responders 
who participated in our workshop, I will now discuss some of the 
problems in both of these areas and their impacts on responder safety.
Equipment Problems
    It is well known that there were major problems with safety 
equipment available at the World Trade Center. Responders to the 
incident faced a major structural collapse scene with a huge variety of 
dangers--fire, rubble, dust, biological hazards, and other hazardous 
materials. At the World Trade Center and other major disaster 
operations, the definition of responder must expand beyond the groups 
we usually think of when we say that word to include members of the 
construction trades, health and safety agencies, and other federal and 
state organizations. For those responders who had protective equipment, 
much of that gear was not designed for such a complex hazard 
environment. Some other responders came to the scene with limited or no 
protective equipment or the training to use it when it was provided.
    Much of the equipment that was readily available was not practical 
to use. Firefighters operating at the scene came with structural 
firefighting gear, designed to be worn for short periods and designed 
for firefighting, not for rubble removal and search operations that 
stretched into weeks and months. One firefighter said, ``Firefighting 
equipment is designed to work well for firefighting operations that 
typically last 30 minutes * * * or an hour. But when you have fires 
burning for six, eight, or nine weeks, bunker gear gets to be pretty 
cumbersome.'' \4\ Wearing such heavy gear could result in fatigue and 
heat exhaustion; as a result, some responders told us they just took it 
off. Similar problems were observed for respiratory protection. The 
equipment that could provide complete protection--the self-contained 
breathing apparatus that firefighters use to enter burning buildings--
was impractical for extended use; moreover, there were not enough units 
to protect all responders at such a large incident in any case. Even 
less cumbersome respiratory protection, when it became available, was 
sometimes viewed as impractical. Said one firefighter, ``I have to be 
able to talk to my guys. * * * [s]o five times a day I'm pulling [the 
respirator] off just to tell them something. Next thing you know, it 
comes off one time and it doesn't go back on.'' \5\
    There was also major uncertainty about even what equipment was 
needed because of the lack of definitive information about the hazard 
environment. Responders spoke of ``waves of concern'' going through the 
site about different hazards as assessments changed. Said a 
firefighter, ``We went from `there is asbestos' to `there isn't 
asbestos,' to `there is this, `there isn't that,' and the levels of 
protection changed.'' \6\ Even when some organizations did have data on 
hazards, there were not always clear ways of getting that information 
either into incident decisionmaking or to responders. A representative 
of a federal organization involved in assessing hazards told us he saw 
a greater change in safety behavior when risks were reported in the 
media than when there was an attempt to pass safety information through 
the incident command system.\7\
    Finally, systems were not in place to manage the logistics of 
keeping such a large response operation supplied with the needed safety 
equipment over long time periods; for example, there was the need to 
make sure there were replacement cartridges for the respirators that 
were being used as the operation stretched into weeks and months. 
Because logistics plans were not in place before the event occurred, 
organizations had to improvise, and the end result was not as effective 
as it should have been. An equipment supplier told us: ``We got calls 
from every federal agency you can possibly name, and some that I've 
never even heard of, saying that they were in control of two, three 
different [logistics] sites. * * * And [you just had to] take your best 
guess that that product was going to get out to the World Trade Center 
site.'' \8\ There was similar chaos for those receiving equipment; one 
discussion participant described trying to manage the influx of 
supplies as ``a nightmare. People were offering everything and stuff 
was coming from everywhere. I didn't know who had what, where it was, 
or how to get it to where it was needed if I did know where it was.'' 
\9\ The lack of an organized management system meant that responders 
who needed safety equipment had to spend time searching for it and, as 
a result, some chose to go without.
Breakdowns in Safety Management
    Even though having the right equipment is necessary to protect 
emergency workers at events like the response to World Trade Center 
attacks, responders to that event and to other disasters emphasized 
that just having equipment is not enough. The responders stressed that 
there must be a safety management or command authority responsible for 
the safety of responders at the scene who can effectively assess risks, 
make safety decisions, and ensure those decisions are implemented and 
followed.
    The scale and the complexity of the World Trade Center site 
required that many separate response organizations were involved in the 
operations there. Some brought capabilities for the large-scale tasks 
that were required, such as moving rubble, others brought specialized 
abilities for search and rescue, and others brought technical skills 
for assessing the environment and helping understand the scene. 
Ideally, all these separate organizations should have been managed by a 
single, unified incident management structure so their activities--and 
the management of the safety of the people they brought to the scene--
could be coordinated effectively. However, responders told us that this 
did not happen quickly at the World Trade Center site for a variety of 
reasons, not least of which was the loss of key individuals from the 
Fire Department of New York in the collapse of the towers.\10\
    For safety management, ad hoc committee structures were developed 
over time to coordinate across organizations, but responders we spoke 
with differed about how effective they thought those structures were 
and whether they were even linked to the operational management of the 
response and recovery operations.\11\ In any case, the fact that they 
had to be developed during the incident delayed coordination and hurt 
efforts to protect the responders at the scene. Without a clear safety 
management structure for the entire operation, organizations in many 
cases adopted more routine approaches to safety where they focused on 
their own activities and the safety of their own members. While all 
organizations have clear responsibilities for protecting their own, 
this approach is not sufficient for large-scale operations like this 
one that involve many organizations working together.
    Not all response organizations have the capabilities to assess the 
complex hazards that were present at the World Trade Center--and they 
should not be expected to. Putting every possible technical capability 
that might be needed in every response organization would be 
prohibitively expensive and unlikely to succeed in any case. Therefore, 
many organizations needed to rely on the results of hazard monitoring 
by other technical organizations that responded to the incident. 
However, since there was no unifying structure and authority that 
brought everything together and coordinated the effort, independent 
technical organizations reported different results, which added to the 
confusion about the risks and what equipment choices should be 
made.\12\ As one responder put it: ``[A]ll the experts have got to come 
up with a common theme. I can't have [one federal agency] telling me, 
`You need Level A protection for this,' and [another agency] telling me 
that a half-face respirator and latex gloves are sufficient.'' \13\ 
Some of the disagreement and confusion was even ascribed to turf 
battles among the safety organizations operating at the scene.\14\ 
There were also problems in ``translating'' the results of technical 
monitoring into something responders could use: ``We would ask them to 
interpret [safety information] into plain English for us. Please stop 
speaking OSHA-speak [or] EPA-speak. Speak English so we know what to 
do.'' \15\
    Responders told us that the absence of a single, unified management 
authority also meant that some of the most difficult decisions about 
responder safety did not--or could not--get made. Early-stage response 
operations at any disaster are driven by the goal of saving lives, 
and--as responders repeatedly told us--it is appropriate ``to risk a 
life to save a life.'' As a nation, we need and depend on responders 
who are willing to put themselves at risk to save others. The fact that 
many of the missing were fellow responders themselves made the 
situation all the more emotional. Put simply by one responder at the 
workshop, ``All we were worried about was getting our guys out.'' \16\ 
This singular focus contributed to individuals working to the point of 
exhaustion and making the choice to discard protective equipment that 
they perceived as hindering their ability to search quickly.\17\
    However, in all disasters, at some point rescue must transition to 
recovery where it is no longer acceptable for responders to take on as 
much risk themselves. Responders told us that transition came too late 
at the World Trade Center, if it ever came at all. As one safety and 
health agency responder put it:
    We understood completely that when people are running in initially 
to try to potentially save someone's life, there's a lot of health and 
safety protocols that you would normally follow that are going to get 
thrown right out the window. * * * But there came a point in this 
effort where it became brutally clear to everyone that you are not 
going to save anybody's life. There was no one left to save. And at 
that point, I think some things needed to change from the health and 
safety point-ofview. And they didn't. Not as fast as they should 
have.\18\
    Put more simply by two of the responders at the workshop, even 
after it was relatively clear there would be no more survivors found, 
``You had to pry people off the piles for the first two or three weeks. 
You had to pry them off the pile * * * [b]ecause you had hopes that 
there was going to be someone in there.'' \19\
    At virtually every significant incident, the decision will have to 
be made that operations need to transition from rescue to recovery, 
when the chance that there are still lives to be saved is no longer 
high enough to justify responders putting themselves at high risk of 
injury, illness, or death. For that difficult--but critically 
important--decision to be made there must be a command authority in 
place to make it. Furthermore, for the decision to have an effect on 
responder safety, the organizations participating in the response, as 
part of that unified command structure, must take the actions needed to 
implement it. Given the high pressure environment that exists after any 
large disaster--and even more so after the September 11 attacks--unless 
the groundwork for such a unified approach to safety has been put in 
place beforehand, it is doubtful whether it could be imposed in the 
period after the disaster has occurred.
    Finally, responders told us that the lack of clear and unified 
command authority significantly hindered the enforcement of safety 
measures at the site. All organizations have responsibilities for 
protecting their members and for enforcing compliance with the safety 
measures that are necessary to do so. However, responders told us that 
the participation of many separate response organizations at a large 
incident scene can make safety enforcement very difficult. If one 
organization does not require particular measures (respiratory 
protection, for example), members of others may wonder why they should 
use them--essentially, ``He isn't wearing it, why should I?'' \20\
    Responders also indicated enforcement issues were linked to 
challenges in controlling the perimeter of a site as large as the World 
Trade Center area. Even in a complex multi-agency response, control of 
the perimeter can be a powerful way to enforce safety measures across 
organizations if a central authority sets clear rules for what 
protective measures workers must have as their ``admission ticket'' to 
the scene and remove workers who do not follow them.\21\
What Do We Need to Do to Ensure Responders are Protected at Future 
        Large-Scale Incidents?
    Given the problems in protecting emergency responders at the World 
Trade Center--the price of which we are only now beginning to fully 
understand--the second important question is, what must be done to 
ensure that responders are protected at future large-scale incidents. 
As a country, we should not allow this to happen again. This was the 
specific focus of one of the other research efforts RAND carried out in 
collaboration with and supported by NIOSH in the years since September 
11, 2001. Again, in direct cooperation with members of the responder 
community, that project developed recommendations describing what is 
required to manage responder safety at disaster and large-scale 
terrorism response operations.\22\
    My remarks here describe four of the recommendations based on the 
results of that study: one strategic-level recommendation, and three 
specific recommendations. Since September 11, 2001, some steps have 
been taken to implement these recommendations, but much more remains to 
be done. Congressional direction and support could make key 
contributions in completing the process to reduce the chances that 
similar safety management problems will affect responses to future 
incidents.
An Integrated Approach to Safety Management
    For managing the safety of emergency responders to disasters and 
large-scale terrorist attacks like the World Trade Center, our most 
important overarching recommendation is that safety must be approached 
as a multi-agency effort that is part of overall incident management, 
not something that individual organizations do on their own for their 
own members. We refer to this as an integrated approach to safety 
management. Protecting responders at large events requires not just 
addressing the complexities of having many agencies involved in a 
response operation but also taking advantage of the full range of 
technical, protective, and other capabilities all those organizations 
bring with them to the event. All the responders at a disaster should 
be able to benefit from the best safety capabilities available.
    Building on the concept of unified command for the operational 
elements of response, integrated or unified safety management requires 
that all responding organizations at an incident be part of a single 
safety management structure that can coordinate the safety assets of 
different organizations, that can manage hazard assessment and build a 
common view of protective choices, that is vested with the authority to 
resolve problems and address safety concerns, and that is linked to the 
incident management structure, so safety decisions can be implemented 
and enforced.
    While this is easy to say, past experience has taught that 
interagency coordination at major incidents is often difficult to put 
into practice. For it to work effectively in the chaotic environment 
after a disaster or major terrorist incident, it must be planned for 
and practiced beforehand. Responder organizations and agencies with 
responder safety responsibilities must be prepared to put the necessary 
coordination and management structure in place that all organizations 
can ``plug into'' when they get to the scene.
    To protect responders, this structure must be stood up and 
activated very quickly. In many incidents, and the World Trade Center 
was no exception, the environment is at its most dangerous in the 
earliest hours and days of the incident, perhaps before exact analysis 
information on the specific hazards that are present is even 
available.\23\ During those initial phases of response, state and local 
response organizations will likely be largely on their own, given the 
deployment time required for federal response and safety assets to 
arrive at a disaster scene. As a result, to protect responders, the key 
initial steps must be taken by state and local response organizations, 
both to manage safety during those first phases of the response and to 
put the structure in place so federal resources can reinforce the 
effort at the scene and productively contribute to safety efforts when 
they arrive. This requires that safety management efforts be a planned 
and practiced element of preparedness efforts, not an ad hoc activity 
that is developed after an incident already has occurred.
    Important steps have been taken since September 11 that provide key 
parts of the blueprint for such a multi-agency safety effort:
    <bullet> The National Response Plan (NRP) specifies that safety 
management must be coordinated across organizations at major incidents. 
It includes the position of Safety Coordinator to ensure federal 
incident managers receive ``coordinated, consistent, accurate, and 
timely safety and health information and technical assistance,'' 
coordinate safety and health resources for other response managers, and 
ensure the safety of the federal personnel at the joint field 
office.\24\
    <bullet> The Worker Safety and Health Support Annex (WSHSA) to the 
NRP emphasizes response organizations should ``plan and prepare in a 
consistent manner and that interoperability [of their safety efforts] 
is a primary consideration for worker safety and health.'' \25\ It also 
defines federal roles for helping to assist in coordination among 
organizations at the ``Federal, State, local, and tribal governments 
and the private sector involved in incident characterization, 
stabilization, and cleanup.'' \26\
    <bullet> In the National Incident Management System (NIMS), the 
responsibilities given to the safety officer at large incidents include 
``coordination of safety management across jurisdictions, across 
functional agencies, and with private-sector and nongovernmental 
organizations,'' with the intention that ``each entity [contribute] to 
the overall effort to protect all responder personnel involved in 
incident operations.'' \27\
    Other DHS planning documents, notably the current draft of the 
Target Capabilities List (TCL), define responsibilities, performance 
targets, and capabilities needed for safety management personnel and 
resources.
    These documents include some of the key elements required for 
effective safety management, but not all of them; for example, although 
effective safety enforcement is mentioned in the draft TCL, none of the 
documents addresses how that key function would be put in place at 
future incidents. Furthermore, there is a big difference between 
addressing issues in policy and planning documents and being ready to 
put those plans into practice. Safety management performance at 
subsequent incidents such as Hurricane Katrina has demonstrated that 
there is a great deal more that must be done before the components 
necessary to effectively protect emergency responders are truly in 
place.\28\
Implementing an Integrated Approach to Safety Management: Key 
        Ingredients
    What is needed for safety management to be implemented effectively 
at future incidents? The basic structures are in place for doing so, 
but using them successfully requires efforts to implement and practice 
so that we are ready for future disasters. Based on our research and 
the input we received from the responder community, part of the answer 
to that question is captured in three practical recommendations from 
our study:
    Pilot efforts implementing integrated safety management. Although 
our research lays out the principles for integrated safety management, 
more is required to employ this approach in future incidents. Response 
organizations must work out all the practical implementation 
requirements to effectively protect responders at different types of 
incidents: what safety and response organizations need to cooperate, 
what safety capabilities they need to bring and how rapidly they are 
needed, what plans must be modified or written, what agreements must be 
put in place, and so on. This process must take into account the real 
differences that exist across the country, but it must also build the 
national commonality needed so other response organizations can plug in 
to reinforce a local effort when they come to assist at a large-scale 
disaster. This learning and testing effort cannot happen inside the 
federal government, but it could be facilitated and supported by 
federal action. More specifically, we viewed this pilot effort as one 
involving federally funded efforts to implement safety management 
structures and preparedness measures in a number of representative 
areas, from large metropolitan to rural areas, with information-sharing 
mechanisms to transfer the lessons learned from those areas to other 
responder organizations.
    <bullet> Conduct preparedness exercises that address responder 
safety management. Emergency preparedness exercises are a key part of 
both building and testing the systems and capabilities in place to 
respond to disasters. However, because the focus of most preparedness 
effort is on the operational elements of response--what is needed to 
help the victims of disasters or terrorist incidents--responders who 
participated in our research told us exercises often ignore or give 
only cursory attention to responder safety concerns. This means that 
key organizations with responsibility for protecting responders are 
frequently left out of planning or out of the exercises themselves, 
meaning these key functions are seldom--if ever--practiced or 
assessed.\29\ Given the importance of exercises for building the 
interagency links needed for effective multi-agency response, safety 
concerns and safety management processes must be realistically included 
in exercises. If we do not provide the chance for individuals and 
organizations to practice safety management, we cannot expect them to 
perform well after a disaster has struck.
    <bullet> Identify and train disaster safety managers to play 
central roles for safety management at major incidents. Although 
planning is a necessary ingredient for performing in incident response, 
it is not a sufficient condition for success. Execution of even the 
best plans relies on people with the right knowledge and expertise. Our 
work suggested the need for a specific group of individuals, who we 
called disaster safety managers, to play the central role for managing 
responder safety and coordinating safety effort across organizations at 
a multi-agency response operation. These individuals would be trained 
and experienced responders that could play the coordinating and 
``bridging'' role among different agencies and organizations with 
safety responsibilities and capabilities in incident management. 
Playing this role successfully requires knowledge and expertise that 
most members of the response community are unlikely to get in the 
standard training available to them and their day-to-day operations; 
this suggests the need to develop specialized training and preparation 
efforts. Our work did not specify where such individuals should be 
drawn from, although they would need to be based around the country to 
build and maintain relationships across response organizations likely 
to participate in disaster operations in their region. Such responders 
are needed to fill key safety roles described in the NRP and NIMS. The 
current draft TCL specifically calls out the need for a group of such 
individuals, although it also acknowledges that their characteristics 
and role have not yet been completely defined. We need to do so and 
take the steps needed to prepare these key people to respond to future 
incidents.
Conclusions
    When disasters strike, members of the public rely on emergency 
responders to protect them from harm. For responders to play that 
critical role, systems and equipment must to be in place to protect 
them as they do their jobs. The safety management system that was in 
place at the World Trade Center after the 9/11 attacks was not 
sufficient to the task, and the country is still paying the price.
    In the years since, some progress has been made. In addition to 
multi-agency safety management being included in the planning documents 
I mentioned earlier, other efforts have also contributed to addressing 
equipment problems that made protecting responders at the World Trade 
Center site so difficult. For example, changes in respirator standards 
made since then have made it technically possible for cartridges from 
different brand respirators to be used interchangeably in an emergency 
response operation, thus simplifying the challenge of providing 
respiratory protection to emergency workers at such incidents.
    The experience at the World Trade Center response and recovery 
operation--and the serious breakdowns in safety management that 
occurred there--have also taught us lessons about what we must do to 
protect responders in future large-scale incidents. We now know what we 
need to do. When the results of our studies came out, they were broadly 
supported by key safety federal organizations, such as OSHA and NIOSH, 
as well as by lawmakers on both sides of the aisle and representatives 
of the responder community. But despite that broad agreement, many 
steps that are needed to actually implement the recommendations have 
not been taken. For there to be a system in place to protect responders 
to future disasters, we cannot just describe what that system should 
look like--we actually have to build and maintain it. Performance at 
more recent disasters like Hurricane Katrina demonstrates that the 
system that is needed has not yet been built and, as seems all to often 
the case, the lessons about what we need to do to protect responders 
that were bought so dearly in the 9/11 response operations may be yet 
another set of lessons collected, but not yet lessons learned.
    I would like to thank you again for the opportunity to address the 
committee today on this important topic, and look forward to answering 
any questions you might have.

                                ENDNOTES

    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. The series records testimony 
presented by RAND associates to federal, state, or local legislative 
committees; government-appointed commissions and panels; and private 
review and oversight bodies. The RAND Corporation is a nonprofit 
research organization providing objective analysis and effective 
solutions that address the challenges facing the public and private 
sectors around the world. RAND's publications do not necessarily 
reflect the opinions of its research clients and sponsors.
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT291.
    \3\ Protecting Emergency Responders: Lessons Learned from Terrorist 
Attacks, B.A. Jackson, D.J. Peterson, J.T. Bartis, T. LaTourrette, I. 
Brahmakulam, A. Houser, and J. Sollinger, RAND Science and Technology 
Policy Institute, CF-176-OSTP/NIOSH, 2002, available at: http://
www.rand.org/pubs/conf--proceedings/CF176/. Protecting Emergency 
Responders, Volume 3: Safety Management in Disaster and Terrorism 
Response, B.A. Jackson, J.C. Baker, M.S. Ridgely, J.T. Bartis, and H.I. 
Linn, RAND Science and Technology and National Institute for 
Occupational Safety and Health, MG-170-NIOSH, 2004, available at: 
http://www.rand.org/pubs/monographs/MG170/. Protecting Emergency 
Responders, Volume 4: Personal Protective Equipment Guidelines for 
Structural Collapse Events, H.H. Willis, N.G. Castle, E.M. Sloss, and 
J.T. Bartis, RAND Infrastructure, Safety, and Environment, MG-425-
NIOSH, 2006, available at: http://www.rand.org/pubs/monographs/MG425/, 
Protecting Emergency Responders, Volume 2: Community Views of Safety 
and Health Risks and Personal Protection Needs, T. LaTourrette, D.J. 
Peterson, J.T. Bartis, B.A. Jackson, and A. Houser, RAND Science and 
Technology Policy Institute, MR-1646-NIOSH, 2003, available at: http://
www.rand.org/pubs/monograph--reports/MR1646/, and Review of Literature 
Related to Exposures and Health Effects at Structural Collapse Events, 
E.M. Sloss, N.G. Castle, G. Cecchine, R. Labor, H.H. Willis, and J.T. 
Bartis, RAND Infrastructure, Safety and Environment, TR309-NIOSH, 2005, 
available at: http://www.rand.org/pubs/technical--reports/TR309/
    \4\ Protecting Emergency Responders, Volume 1: Lessons Learned from 
Terrorist Attacks, p. 22.
    \5\ Protecting Emergency Responders, Volume 1: Lessons Learned from 
Terrorist Attacks, p. 24.
    \6\ Protecting Emergency Responders, Volume 1: Lessons Learned from 
Terrorist Attacks, p. 39.
    \7\ Protecting Emergency Responders, Volume 1: Lessons Learned from 
Terrorist Attacks, p. 52 and personal interviews.
    \8\ Protecting Emergency Responders: Lessons Learned from Terrorist 
Attacks Workshop, December 2001, previously unpublished comments.
    \9\ Protecting Emergency Responders, Volume 1: Lessons Learned from 
Terrorist Attacks, p. 10.
    \10\ Protecting Emergency Responders, Volume 1: Lessons Learned 
from Terrorist Attacks, p. 45-6; Protecting Emergency Responders: 
Lessons Learned from Terrorist Attacks Workshop, December 2001.
    \11\ Protecting Emergency Responders, Volume 3: Safety Management 
in Disaster and Terrorism Response, p. 75-6.
    \12\ Protecting Emergency Responders, Volume 3: Safety Management 
in Disaster and Terrorism Response, p.
    \13\ Protecting Emergency Responders, Volume 1: Lessons Learned 
from Terrorist Attacks, p. 39.
    \14\ Protecting Emergency Responders, Volume 1: Lessons Learned 
from Terrorist Attacks, p. 39-40.
    \15\ Protecting Emergency Responders, Volume 1: Lessons Learned 
from Terrorist Attacks, p. 61.
    \16\ Protecting Emergency Responders, Volume 1: Lessons Learned 
from Terrorist Attacks, p. 12.
    \17\ Protecting Emergency Responders, Volume 1: Lessons Learned 
from Terrorist Attacks, p. 21-22.
    \18\ Protecting Emergency Responders: Lessons Learned from 
Terrorist Attacks Workshop, December 2001, previously unpublished 
comments; also Protecting Emergency Responders, Volume 1: Lessons 
Learned from Terrorist Attacks, p. 47.
    \19\ Protecting Emergency Responders, Volume 1: Lessons Learned 
from Terrorist Attacks, p. 17.
    \20\ Protecting Emergency Responders, Volume 1: Lessons Learned 
from Terrorist Attacks, p. 51.
    \21\ Protecting Emergency Responders, Volume 1: Lessons Learned 
from Terrorist Attacks, p. 48-49. Responders participating in our 
research drew a distinction between responses at the Pentagon on 9/11 
and at the site of the Oklahoma City bombing, where perimeters were 
successfully put in place and safety enforcement was therefore much 
easier.
    \22\ Protecting Emergency Responders, Volume 3: Safety Management 
in Disaster and Terrorism Response, B.A. Jackson, J.C. Baker, M.S. 
Ridgely, J.T. Bartis, and H.I. Linn, RAND Science and Technology and 
National Institute for Occupational Safety and Health, MG-170-NIOSH, 
2004, available at: http://www.rand.org/pubs/monographs/MG170/.
    \23\ See Protecting Emergency Responders, Volume 4: Personal 
Protective Equipment Guidelines for Structural Collapse Events.
    \24\ National Response Plan, December 2004, pp. 35-36.
    \25\ National Response Plan: Worker Safety and Health Support 
Annex, December 2004. p. WSH-1.
    \26\ National Response Plan: Worker Safety and Health Support 
Annex, December 2004. p. WSH-2.
    \27\ National Incident Management System, March 1, 2004, p. 17.
    \28\ See, for example, Government Accountability Office, ``Disaster 
Preparedness: Better Planning Would Improve OSHA's Efforts to Protect 
Workers' Safety and Health in Disasters,'' GAO-07-193, March 2007.
    \29\ This remains a problem. See, for example, discussion about the 
inclusion of safety organizations in preparedness exercises in 
Government Accountability Office, ``Disaster Preparedness: Better 
Planning Would Improve OSHA's Efforts to Protect Workers' Safety and 
Health in Disasters,'' GAO-07-193, March 2007, p. 31.
                                 ______
                                 
    Chairman Miller. Thank you.

STATEMENT OF JAMES MELIUS, M.D., DR.PH, ADMINISTRATOR, NEW YORK 
          STATE LABORERS' HEALTH AND SAFETY TRUST FUND

    Dr. Melius. Thank you, honorable Chairman Miller, other 
members of the committee who are here. I greatly appreciate the 
opportunity to speak to you today. I am Jim Melius. I currently 
work for the New York State Laborers' Health and Safety Fund. 
It is a labor management fund that focuses on issues for union 
construction laborers in New York. It has been mentioned that I 
currently serve as chair of the steering committee for the 
World Trade Center Medical Monitoring and Treatment Program.
    Immediately after 9/11, I became involved in working with 
our members and with our contractors to try to provide 
protection. We had over 2,000 members who were involved in the 
initial response within the initial few weeks at the World 
Trade Center. Some were there immediately; many coming in over 
the next few weeks into the site, and ended up eventually with 
close to 4,000 members working at the site.
    In my testimony, I point out, we tried to obtain 
information on the degree to which they need to be protected. 
It was very difficult. The Federal government was not initially 
sharing information. And we were actively involved in the site 
safety committee that Ms. Clark has already mentioned and 
actively involved in working to provide our members with 
protective equipment, eye protective equipment, as well as with 
appropriate safety training. But it was under very difficult 
circumstances. Things were not well organized, and it took a 
great deal of effort.
    And I think that effort could not be implemented for 
several weeks or months into the course of the initial clean 
up. For example, the safety training for members there, that 
was several months after the initial event before that became 
required for people working at the site.
    As has been pointed out, OSHA played an important role 
there, and they had large numbers of people there working very 
hard. However, it was always a consultative role. There was no 
enforcement of standards, and therefore, as Dr. Jackson has 
pointed out, compliance varied quite a lot. And there was very 
little coordination of what the different people were doing.
    Now, that approach was also what was taken by the City of 
New York, which was apparently in charge of the site, but they 
also, in terms of health and safety, played what I would 
describe as a consultative role in that. While that approach 
worked in terms of preventing major injuries, it was an 
extremely dangerous site. And I think it is remarkable how low 
the injury rate was.
    At the present time, we are now faced with thousands of 
workers who are now suffering from pulmonary disease, other 
health problems, as a result of their exposures at the site. 
These problems are widespread and serious, as Dr. Landrigan has 
pointed out, and they cannot be solely contributed to exposures 
the day of the event or the immediate few days after the event. 
People continued to be exposed for many months after that. The 
compliance with consultative requirements was not always 100 
percent. It was not as good as when there is an actual 
enforcement.
    I would also point out that the hazards at the site, the 
respiratory hazards, were not new. They may be unique, and they 
may be very complicated. When I worked at OSHA--excuse me, at 
NIOSH over 25 years ago with Dr. Landrigan, we issued an alert 
about the respiratory health hazards of alkaline dust, the very 
kind of cement dust that was present at the World Trade Center 
site. It should not have been a surprise to anybody that there 
was a possibility of respiratory disease from exposure to that. 
I think, looking back, again retrospectively, we just have to 
admit that we failed to provide the proper protection. Not, as 
Dr. Jackson pointed out, it is not only the use of respirators. 
It was a comprehensive approach to safety at the site that 
included enforcement. I don't think that you can protect people 
in those circumstances without a strong enforcement; there are 
too many groups involved.
    My recommendations for moving forward is that we need to 
make sure that we have the kind of incident safety management 
plan that Dr. Jackson has pointed out, some of the other needs 
for coordination and preplanning, but we also need a very 
strong OSHA involvement in these incidents that includes the 
ability to, one, comprehensively assess hazards at the site; to 
enforce the appropriate standards of protection for people; and 
that would have a place that, no work at that site would go 
forward without OSHA certification that people are being 
appropriately protected during that work.
    We do have to recognize that there is sort of a rescue 
phase that immediately occurs after an incident such as the 
World Trade Center. We need to prepare for that. We need the 
training and so forth for people to have proper equipment ahead 
of time so that they are properly protected, but that should be 
part of this overall safety planning process and enforcement of 
appropriate health and safety standards at the site.
    In the case of the World Trade Center, there is no reason 
that work could not have been stopped there after the rescue 
phase until it could have been organized and we could have had 
a proper safety program that could be enforced throughout that 
site. I will also add that given, follow-up to Dr. Landrigan, 
we also need comprehensive medical follow up program for people 
involved in these incidents. We know that. We see that in other 
instances. We would hope that it would not need to be as 
extensive as we have for the World Trade Center, but it is 
something that I think is very appropriate and very badly 
needed in terms of following up.
    Thank you. I will be glad to answer any questions.
    [The statement of Dr. Melius follows:]

  Prepared Statement of James Melius, M.D., Dr.PH, Administrator, New 
           York State Laborers' Health and Safety Trust Fund

    Honorable Chairman Miller and other members of the Committee. I 
greatly appreciate the opportunity to appear before you at this 
hearing.
    I am James Melius, an occupational health physician and 
epidemiologist, who currently works as Administrator for the New York 
State Laborers' Health and Safety Trust Fund, a labor-management 
organization focusing on health and safety issues for union 
construction laborers in New York State. During my career, I spent over 
seven years working for the National Institute for Occupational Safety 
and Health (NIOSH) where I directed groups conducting epidemiological 
and medical studies. After that, I worked for seven years for the New 
York State Department of Health where, among other duties, I directed 
the development of a network of occupational health clinics around the 
state. I currently serve on the federal Advisory Board on Radiation and 
Worker Health which oversees part of the federal compensation program 
for former Department of Energy nuclear weapons production workers.
    I have been involved in health issues for World Trade Center 
responders since shortly after September 11th. Over 3,000 of our union 
members were involved in response and clean-up activities at the site. 
One of my staff spent nearly every day at the site for the first few 
months helping to coordinate health and safety issues for our members 
who were working there. When the initial concerns were raised about 
potential health problems among responders at the site, I became 
involved in ensuring that our members participated in the various 
medical and mental health services that were being offered. For the 
past four years, I have served as the chair of the Steering Committee 
for the World Trade Center Medical Monitoring and Treatment Program. 
This committee includes representatives of responder groups and the 
involved medical centers (including the NYC Fire Department) who meet 
monthly to oversee the program and to ensure that the program is 
providing the necessary services to the many people in need of medical 
follow-up and treatment.
Protection for 9/11 workers
    Providing initial protection for our members who initially 
responded to the WTC attack was very difficult. Many of our union 
members working nearby or hearing about the collapse of the buildings 
rushed to the scene with their construction tools and equipment. Many 
worked long hours at the site trying to rescue anyone who might have 
survived the collapse of the building. Some brought respirators and 
other protective equipment with them, but most did not have such 
equipment readily available. Gradually, respirators were made available 
to them. Over the next few weeks, our union worked with our contractors 
to organize a respirator program for people working at the site and 
provided respirators, eye protection, and other needed equipment. Other 
organizations did the same. During this time period, I visited the site 
several times to observe working conditions and to help organize our 
response.
    I personally tried to obtain information on the results of air 
sampling being done by EPA and other agencies near the site. For a 
short time, I was permitted access to some of these results on an EPA 
web site and was permitted to participate in conference calls 
discussing these results. However, after a short time, my access to 
this information ceased, and I was unable to obtain any information on 
these results until much later. Similar to those working on the site 
and those directing that work, I assumed that the results did not 
indicate any serious problems.
    Once the City took control of the site and more formally organized 
the construction work, safety efforts also became more organized. 
Access to the site was restricted, and daily safety meetings involving 
contractor and labor representatives were held. As I mentioned, a 
member of my staff attended each meeting. Much of the focus of those 
meetings was on the prevention of traumatic injuries at the site, a 
very important consideration given the nature of the site. However, it 
was several months before a safety training program for every one at 
the site was developed and provided to the workers.
    During my visits to the site, I occasionally saw OSHA 
representatives. Often they were standing outside of the secure area, 
observing the work. However, later I saw some OSHA staff at the actual 
work site. I believe that they also participated in the daily safety 
meetings.
OSHA enforcement
    OSHA handled the work at the World Trade Center site in a 
``consultative'' role throughout the recovery and clean-up. Although 
the City of New York managed the recovery and clean-up, their role 
regarding health and safety issues at the site was also 
``consultative''. Through their management of the construction 
activities, the City tried to take into account the safety of the 
people working at the site. They also promoted efforts such as the 
daily safety briefings to ensure a safe work site. However, I observed 
little evidence that they assumed full responsibility for health and 
safety protections at that large job site.
    This ``consultative'' approach by OSHA and the City seemed to work 
in regards to major injuries at the site. Given the nature of the job 
site (unstable structures, etc), the low rate of serious injury on this 
job site is remarkable. However, as has been pointed out in this 
hearing, thousands of the workers at the site are now suffering from 
pulmonary disease and other health ailments. These health problems are 
not isolated among just a few workers or in a particular work group. 
They are widespread and quite serious leading to many of these workers 
being disabled and unable to work. The health problems cannot be 
attributed solely to exposures in the immediate day or to after 
September 11. Studies show that prolonged exposure even starting 
several days after September 11 increases the risk of developing 
respiratory disease.
    The lack of more comprehensive OSHA involvement at the World Trade 
Center site including enforcement contributed to the development of 
these health problems. A serious health hazard was not recognized and 
properly controlled.
    I would add that this problem with OSHA enforcement involves not 
only the World Trade Center site. Shortly after September 11, our union 
was involved with the anthrax mail problem. We represent mail handlers 
and clean-up workers. Both groups were exposed to anthrax in mail 
facilities or during the clean-up of contaminated buildings. We asked 
OSHA to get actively involved in protecting our workers, and they 
refused leaving it to health and environmental agencies to address the 
problems. Fortunately, the anthrax mailings ceased. More recently, I 
went to the New Orleans area and met with many fire fighters who were 
ill because of their exposures in follow-up to Katrina. The lack of 
proper steps to protect the health of workers after this natural 
disaster contributed to their health problems.
What needs to be done
    I would propose two major initiatives in response to this failure.
    The first is preventive. We need a process that ensures OSHA 
involvement including enforcement starting with the early response to 
an incident similar to the WTC. This would require OSHA to make a 
complete evaluation of the hazards at this type of disaster site and to 
take the proper steps including enforcement action to fully protect the 
people working at the site. This protection should extend to all 
workers. It makes no sense to exclude federal workers or state and 
local government workers from these provisions. No work at the site 
should be allowed to go forward until OSHA has certified that the 
people doing the work will be protected. In the case of the World Trade 
Center, OSHA enforcement could have been phased in after the initial 
rescue phase. For example, work at the site could have been halted or 
slowed down until all workers had been appropriately trained about work 
requirements (including protective equipment) and then the work 
restarted with strict enforcement.
    We need to recognize that situations such as the World Trade Center 
also involve the possible rescue of people at the site. Inappropriate 
delays could endanger the lives of those people, and there often will 
not be time for a careful deliberate approach to this phase of the 
work. Therefore, we must also ensure that we prepare for these 
situation including health and safety protections for those involved. 
We need proper planning for these potential situations, appropriate 
training of all groups that may be involved (including construction 
workers as we learned at the WTC site), and the availability of proper 
protective equipment for those who will be responding. We also need to 
develop better protective equipment such as lighter weight respirators 
that can be worn for longer time periods and better chemical protective 
clothing.
    The second need is to ensure proper medical follow-up of the people 
responding to these disasters. In the World Trade Center situation, we 
have relied on a fragmented system utilizing private philanthropy, 
health insurance, line of duty disability retirement, and workers' 
compensation along with some federal funding to support the necessary 
medical monitoring and treatment for the thousands of people whose 
health may have been impacted by their WTC exposures. If the federal 
funding ends, this fragmented approach will inevitably leave many of 
the ill and disabled rescue and recovery workers without needed medical 
treatment and will only worsen their health conditions. We need a 
comprehensive approach. The legislation just introduced by 
Representatives Maloney, Nadler, and Fossella provides the framework 
and support needed for this comprehensive program for these workers and 
for the residents, school children, and others whose health has been 
harmed by the failure to recognize and address the health hazards from 
this incident. It is unfortunate that the failure to properly protect 
these people at the time of the incident makes this program necessary.
    Thank you for your time and attention, I would be glad to answer 
any questions.
                                 ______
                                 
    Chairman Miller. Thank you very much, and thank you to all 
of you for your testimony. Certainly to all of you for your 
work on this problem at the time of the incident and since that 
time, we deeply appreciate it.
    Ms. Clark, in your testimony, you really describe a 
dazzling array of activities that OSHA was engaged in from the 
moment you could first be on the site in terms of the 
conducting of worker exposure samples and air samples and 
contaminant samples, and at some point, I think you say 24,000 
or 30,000 combined samples of the air for all of these various 
materials. And some we knew would be in the building as a 
result of the collapse and the content of the buildings and so 
forth.
    What was done with those samples? I mean, those were used 
how?
    Ms. Clark. The samples were analyzed by our laboratory in 
Salt Lake City, and as soon as we could, we would provide that 
information back to all of the safety and health professionals 
at the site; the contractors, the unions, the other city, State 
and Federal agencies. We had daily meetings. We met in P.S. 89, 
one of the schools that Mr. Cordero mentioned. That was our on-
site command post. We would meet there daily in the morning to 
discuss the latest issues that were arising, sample results 
from the various agencies.
    Chairman Miller. Were those samples, I don't know if I am 
phrasing this right, but were they translated into the on-site 
experience? We have standards--correct me if I am wrong, and I 
probably am--but we have standards where this is exposure over 
8 hours, this is exposure over periodically during a lifetime, 
we have different--was there an effort to relate that to what 
workers were experiencing at the time on the site?
    Ms. Clark. Absolutely. We reported our results the same way 
we report any other worker safety standard or analysis. What we 
did was we took personal samples in the breathing zone. That is 
how we do it in any work site. In the particular situation 
there, we wanted to err on the side of caution, so we did not 
use zero exposure for the time frame if the sample was not in 8 
hours. So, in essence, we reported the highest levels. We 
reported actual exposure levels. And that was shared with 
everyone. It was also explained to all of the people there. It 
was done in separate steward meetings. We actually brought 
together the stewards on the site for the first time late in 
September at a meeting, particularly to go over these results.
    Chairman Miller. But, at no time, apparently--I am sort of 
short-handing this--but at no time, apparently--let me ask you, 
was there any discussion that these samples and the work site 
and the exposure ever added up to, we should be enforcing 
adherence to the use of respirators or other safety equipment?
    Ms. Clark. Well, one of the reasons I brought some of these 
posters that we mentioned before was to show you----
    Chairman Miller. No, that is advising people to do things.
    Ms. Clark. No, this was the requirement. This was enforced 
by the site, on the site by the City of New York, by the 
contractors. These are orders. You see the middle one is an 
order from the Department of Health requiring personal 
protective equipment. These were orders. They were, as you see 
in the one with the picture----
    Chairman Miller. Were they enforced?
    Ms. Clark. They were not allowed to enter into the site 
areas. They were enforced. I will tell you that in the early 
days, it was very difficult to enforce because there were a lot 
of entry points into the site. There was also a lot of 
discussion between myself and my staff about what was the 
appropriate method to take here. We considered the issue of 
issuing citations, but we decided that would not work under 
these circumstances. And this was not a one-time discussion. We 
referred to this over a period of time.
    Chairman Miller. Ms. Clark, let me ask you this, in the 
documents that we have received, there is a consistent request 
from Mr. Kelly McKinney, who I guess was joining with union 
representatives, Liberty Mutual Life Insurance Company, asking 
OSHA to taking enforcement actions. And that starts in October. 
We are talking in early October. The event was obviously 
September 11th. Early October and those continue on for a 
month, constant requests and no action, so at no time did OSHA 
invoke its ability to take enforcement action during that time 
frame.
    Ms. Clark. We did not issue citations. We worked through--
--
    Chairman Miller. Did you take actions with respect to 
enforcement?
    Ms. Clark. We considered appropriate actions under the act. 
The act allows us to--gives us the discretion to do 
nontraditional enforcement, which is what we did here. We 
provided technical assistance. We worked with the other people 
at the site to establish a safety and health program with 
mandatory requirements that exceeded our standards. We would 
not have been able to issue citations except in a very, very 
few number of instances. We did not have over-exposures. If we 
were to issue any citations, the employer has the right to 
contest those.
    Chairman Miller. I understand that.
    Ms. Clark. During the contest period, they do not----
    Chairman Miller. I am trying to lay down a baseline, as I 
said in my opening statement, the question is, why, and we 
raise the question, are there legal impediments when we have 
what we consider a nontraditional site and a catastrophic site? 
So you are saying for the moment here, and I want to go to Mr. 
McKeon, for the moment you did not feel you could issue--I am 
putting words in your mouth--issue enforceable citations given 
the law at that moment.
    Ms. Clark. I did not feel we could issue citations that 
would provide immediate protection to workers. I could not 
force immediate protections through the citation process, 
through issuance of penalties. That would not have provided the 
immediate protection because the law allows employers to 
contest. Contest periods can take 2 to 7 years to go through 
the appeal process. We needed to protect those workers 
immediately, and that was why we did not choose to issue 
citations.
    Chairman Miller. We will come back to that point.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    I remember, like all of us do, watching on television as 
this unfolded. It was I am sure a lot different watching it on 
television than being on the site, because we, on television, 
didn't have the smell. I remember when I visited Manhattan, 
visited the site a month later, it was the first time I had 
ever been to Manhattan. And still the smell was permeating all 
of the area, and I think it is difficult to comprehend what a 
huge problem this was.
    And I appreciate the Chairman's questions about 
enforcement, but it seems to me that people rushed to the site 
to help, and just as Mr. Cordero, they are paying a price for 
it. But you probably would have had a difficult time trying to 
stop them from trying to help other people, because everybody 
was just so concerned with trying to help others, they weren't 
considering their own safety. And I understand it is OSHA's, 
one of their responsibilities among other people's 
responsibilities to try to protect at that time, but I have a 
couple of letters here. I think they came to you, Mr. Chairman. 
I don't know if you entered them into the record. I would like 
to have them entered in the record; one from John Graham and 
one from Rick Ostrander. They were people who showed up to 
help. And Mr. Graham is permanently disabled because of the 
stuff that he breathed and came into his lungs and caused him 
problems, but he gives some specific things about what OSHA 
inspectors did on the site to try to protect people, and I 
think it would be good to have that in the record.
    Chairman Miller. Without objection, we will make them part 
of the record.
    [The letters referred to follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Mr. McKeon. I appreciate the Chairman's questions, and I 
appreciate the atmosphere that is here, that this is really--I 
sense that this hearing is not a gotcha type hearing, that we 
are really sincerely trying to find out what happened and what 
we can do to make things better in the future. I apologize; I 
am going to have to leave early. I appreciate you being here 
and your testimony. I know there will be other questioners here 
to ask other questions, and I, again, thank you for being here.
    I am sorry, Mr. Cordero, for your problem. I have asthma, 
and I have reflux, but just as a result of, I was born with 
asthma, and the reflux came through other things.
    Ms. Woolsey. Old age.
    Mr. McKeon. I could mention a few other things, too, but I 
applaud you for your diligence and being there to help others 
at the risk of your own health. And I am sorry that you had 
this problem, and others are dealing with those problems, but I 
hope as a result of this incident and Katrina and others that 
we have had, that we can make things better in the future. 
Although I don't know how we could have foreseen all the 
different things that happened. Dr. Melius, you talked about a 
report you issued a few years ago. Probably a few doctors read 
it. I don't know if everybody takes those warnings to heart 
until we are faced with a problem. Again, thank you.
    Chairman Miller. Thank you very much. We now recognize the 
subcommittee chair, Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman. It is so obvious that 
disaster changes everything, and 9/11 and Katrina, we can't 
really unlink the two because the same thing virtually happened 
in both areas. Proves to us that we have to have systems in 
place so when something that disastrous happens, we can rely on 
those systems to the best of our ability, not make it worse. 
There are going to be other disasters of one kind or another 
and there are going to be future heroes.
    So what we have to do from 9/11 is learn, not get 
defensive. We have to learn what should have been done. We have 
to learn what can be done in the future and what must be done 
for our workers for their health effect, because it is a three-
part solution we have to be looking at here.
    I thank you all for what you provided us today. But when 
you have a near miss--and I know that OSHA, this is part of 
OSHA's strategy, you learn from a near miss. Well, we have a 
lot to learn from the OSHA response.
    And my question--and I am going to ask this of all of you, 
because I am sure you have an opinion. When we talk about 
comprehensive enforcement--and I am going to start with you, 
Dr. Melius--when we look for comprehensive enforcement, who 
should be in charge? We have got to have somebody in charge. Is 
it OSHA, is it EPA? Where was FEMA? Or is it the local folks? 
Who do you think should be in charge? What should the hierarchy 
be? Because when major decisions are being made during a major 
disaster, we need to know who is in charge.
    Dr. Melius.  I believe OSHA should be in charge of ensuring 
worker safety at the site of a disaster and the follow-up to 
that disaster. And they need to be able to comprehensively 
assess the hazard, they need to be able to then decide what 
needs to be taken in terms of protecting people, advise people 
of what that protection should be, what steps should be taken. 
They need to then be able to enforce and make sure that that 
protection is implemented.
    One of the problems here is that when that enforcement is 
delegated to different agencies, like the city here, the 
contractors, different city agencies involved, is that the rate 
of compliance was very--if one visited the site as I did 
repeatedly and just observed, you will see some groups, using 
respirators as an example, there was excellent compliance. 
Ninety percent of people are in respirators or higher. In other 
groups, nobody was wearing respirators, and it was extremely 
frustrating because it was very confusing for people on site. 
People were still believing EPA Administrator Whitman's 
pronouncement that the air was safe, so there was a lot of 
skepticism over the need for providing protection. And one 
needs one strong central authority to be able to do that.
    And I just add that I don't believe that if there was 
enforcement action, you can assume that every agency on site is 
going to contest the enforcement actions. I think most of them 
actually would have complied. And I think really, in reality, 
most people would have welcomed a single strong voice that was 
in charge of safety at that site.
    Ms. Woolsey. Thank you. Dr. Jackson?
    Dr. Jackson. Well, in thinking about who should be in 
charge for safety, we in our work sort of went to look at the 
operational side of response for an example. In that case you 
have the incident command system, where who is in charge of the 
incident is the incident commander. Fundamentally, the 
responsibility for safety at any incident is with the 
operational commander, because they are the ones who are making 
the risk decisions about what needs to be done and what risks 
need to be taken to do it. But in order for that to work, the 
model that we talked about in our work is that you actually 
need a multiagency approach to doing that.
    As it has been mentioned, OSHA wasn't the only agency that 
was doing hazard monitoring. The EPA was there, NIOSH was doing 
some hazard monitoring. And the point was that for all of that 
to work, for hazard monitoring to be credible, for people to 
act on it, there had to be a structure to bring that together, 
rationalize it, figure out what the one answer was, and then 
implement based on it. So really from our perspective, it is 
not just a question of who should be in charge, but how you put 
that structure in place to bring together everything that needs 
to support that person who is in charge.
    Ms. Woolsey. So then, Ms. Clark, why don't you talk to us 
about if it falls on OSHA, what do you need to be able to hold 
that together to be that agency?
    Ms. Clark. Well, like Dr. Jackson, I understand that we are 
going to be working in an incident command system. It is 
usually a unified command when it is something of this 
magnitude with many agencies at all levels, Federal, State and 
local. Under the current National Response Plan with the 
implementation of the Worker Safety and Health Annex, we now 
have the coordinating role; in other words, the lead role. That 
is something we recommended as a lesson learned from World 
Trade Center. In fact, within the Annex, it talks about what 
that Annex covers and it covers all of the things I mentioned 
we did at the World Trade Center. That is how we put those 
recommendations together.
    We have the lead, but there are coordinating agencies such 
as NIOSH, the Centers for Disease Control, EPA, the Corps of 
Engineers, the others ones who would be working with us at the 
Federal level. This is all handled through a joint field office 
which is established where all of the Federal agencies are 
located. There also is a State coordinating official because, 
as I think Dr. Jackson also mentioned, responses are local. 
That is how they start. Even for incidents of national 
significance, that is where they start. Eventually there may be 
a recommendation that goes up to the President to make it a 
nationally recognized disaster. But you need to start with the 
locals. We are working with them very closely in New York City 
and in the rest of the country to try to coordinate these 
things.
    But I think that the Worker Safety and Health Annex is a 
very good start. It was used in Katrina in the early days. It 
was the very first time we were not exercising it, but 
implementing it. We learned a lot from that and we are learning 
more and more.
    Now the Response Plan is being recrafted. I think the 
Chairman referred to the fact that there is a national response 
framework now that is being put together. And we are working on 
that as well. So I think it is really important that we do have 
a coordinating role, a lead role, but that we have to recognize 
it is going to be a unified command, and the locals are going 
to be very instrumental in having the lead on this.
    Chairman Miller. Time has expired. Ms. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman.
    And I want to say that I appreciate what Mr. McKeon was 
saying before. I don't like to come to these hearing, where 
they are ``gotcha'' kinds of hearing, but where we will get 
some ideas of how we can do things better. And I appreciate the 
title of Dr. Jackson's comment, lessons learned from the 
response, because if we don't learn lessons and implement those 
lessons, then we are just going to continue to do these 
hearings where we try to figure out who to blame. And we want 
to stop doing that and figure out what to do better. So I 
appreciate the comments that are being made.
    But I would like to ask, Dr. Jackson, how did the number of 
incidents of on-site rescue workers' injuries compare to other 
responses or even other construction and demolition sites? Has 
somebody kept track of those records? I know that has got to be 
somewhat of a challenge, but tell me about the comparison data 
that we have.
    Dr. Jackson. Well, in our work we compared four major 
incidents: the two 9/11 responses, Hurricane Andrew and the 
Northridge earthquake. And, unfortunately I have to mainly 
answer your question we don't really know. And that is 
partially because of the difficulties in collecting data about 
what happens at those incidents. It means that there is a 
dearth of actual accounts of what injuries occurred.
    And people mentioned the World Trade Center site because it 
was a centralized location. There was some data collection. And 
in some cases there were fewer numbers of injuries than you 
might have expected. But that was actually something we 
actually called out in our study as one of the things that 
needs to be done at future disasters is to better collect that 
data, not just so we know afterwards how we are doing, but to 
get that data as quickly as they can into the response 
commander's hands, so that if you know a lot of injuries are 
happening in one way, you can change what you are doing to try 
to reduce them.
    Ms. Foxx. Mr. Chairman, just one other comment, if I could. 
I appreciate also, Ms. Clark, your comments about the 
importance of the local folks. I just think we are not very 
well equipped at the Federal level in most cases to deal with 
handling on-the-ground-things. The coordination is very 
important. But, again, I think it is going to be critical that 
we have in the National Response Plan ways that we respond with 
coordination and also have some flexibility there so that 
people are able to take advantage. Every situation is going to 
be different. You can't possibly plan ahead for every possible 
contingency, but that there be ways for folks to understand how 
to utilize--particularly the local people, and give them as 
much authority and responsibility as possible. But probably, 
ultimately, somebody has got to be put in charge. I can't 
understand how you can do these things when you have multiple 
people in charge. Somebody has to make some final decisions and 
take the responsibility.
    Thank you.
    Chairman Miller. Ms. Clarke?
    Ms. Clarke. Thank you very much, Mr. Chairman. As you know, 
I am a new member here and a resident of New York City. So this 
hearing is of great importance to me and my constituents. And I 
want to thank you for gathering us here today.
    Let me just say from the outset that I became a member of 
the city council just after 9/11 and was sworn in there January 
of 2002, and I can tell you that the air was not clear in Lower 
Manhattan, even at that point. So that, you know, as we talk 
about this, we really have to put it in context. This was an 
event that lingered for many, many months in the city of New 
York and was transportable to other parts of the city, 
including parts of Brooklyn.
    I thought Lynn Woolsey really pulled an important point 
forward and that was about who was in charge. Some it of has to 
do with perception, quite frankly. When the President of the 
United States shows up and stands on a pile and says to the 
world, you know, that we are going to take care of business, we 
expected the business that is going to be taken care of 
includes the people of the city of New York, and I think that 
that is very important. And we also expect that our agencies 
are going to use maximum skill, talent and expertise to tell 
the people the truth.
    And what we are finding is that we could not rely on the 
intelligence and the information and the sentiment that was 
brought forth in New York City after 9/11, and that is quite 
disappointing. But we are moving on and we are not placing 
blame. We do want to get to the point where we can rely on our 
Federal entities to be of service to the people that we are 
supposed to serve.
    So my question is actually to you, Ms. Clark. Earlier this 
week when the Department of Homeland Security released the 
final draft of the national response framework, OSHA was 
relegated to a support annex rather than an emergency support 
function. Support annexes are generally administrative 
functions by financial management and press affairs. Emergency 
support functions, on the other hand, provide the structure for 
coordinating Federal interagency support. What this means in 
plain English is that instead of worker protection being an 
automatic part of every emergency response, OSHA has to wait 
for support annexes to be activated by FEMA before becoming 
involved in emergency response. It also means that OSHA is not 
at the table during national and regional disaster planning and 
exercises.
    Why is OSHA not part of the emergency support function?
    Ms. Clark. I am not sure that I am the person to ask that 
question. I guess you would have to ask the Department of 
Homeland Security. I can tell you that we went to Homeland 
Security after 9/11 and talked about what we had done there and 
what we felt our role was and the fact that we felt that worker 
safety and health needed to be elevated in the new plan. And 
you are correct that it is a support annex. Would it be more 
nicer for us if it was perhaps an ESF [Emergency Support 
Function]? You are probably correct.
    I will say that we are very much involved in planning and 
working on exercises and other activities. We are not sitting 
back and waiting to be activated. We are working fully. We are 
at the table. We are inserting ourselves. But clearly it is a 
support annex, and that has a particular way of activation. And 
I am not able to explain why----
    Ms. Clarke. I think my time is winding down. I think some 
of the concern is that we need to know who to hold accountable. 
And I think, Dr. Jackson, you really raised some critical 
pieces here when you talk about the integrated safety 
management system. The perception out there is that OSHA is the 
agency with the big stick. You have the individuals with the 
capacity, the understanding, the know-how to really get in 
there and enforce and make sure that workers are protected, 
that communities and family are protected.
    People talk about the folks that went to the pile. There 
are numbers untold. But there are residents, there are 
families, there are workers outside of the immediate pile that 
were exposed as well. We don't know the breadth and depth of 
exposure of people from New York and what the latent diseases 
will be as a result of us not really focusing the way we 
should, using the intelligence that we have to save lives. And 
I hope that there is a lesson that we learn from this and that 
we move forward with the integrated management system that Dr. 
Jackson has spoken about.
    Thank you very much, Mr. Chair.
    Mr. Fortuno. Thank you, Mr. Chairman. And I commend you for 
this hearing and I thank the witnesses. I apologize for not 
being here earlier, but I certainly have gone through your 
statements.
    Before I ask a question, I would like, if I may, to express 
my sincere appreciation to all of those that participated in 
the recovery efforts of 9/11, including 15 of my own 
constituents, the most established firefighters from Puerto 
Rico that were there. Today, 6 years after those attacks, as we 
are discussing many of their long-term effects, we must come 
together to find ways to help all of those who were affected, 
especially the brave men and women that were part of the 
recovery efforts at Ground zero.
    The 15 firefighters who are my constituents were sent to 
New York City the day of the attacks to be part of the recovery 
efforts. They spent 10 days working at the site for shifts of 
12 hours each. Unfortunately to this day, only 14 of them 
remain alive. Last year, one of them died due to a bacterial 
infection. During the autopsy, high levels of metal were found 
in his body. The remaining 14 Puerto Rican firefighters who 
joined the recovery efforts have been living with serious 
health problems which have been proven by medical professionals 
to be directly related to time spent at Ground Zero during the 
recovery process.
    We all need to ensure that all of those that participated 
in the recovery efforts after the attacks are taken care of 
accordingly. The best way we can show our respect and gratitude 
for their support and commitment through our Nation's most 
difficult time is by providing them with the means to cope with 
the problems that they are facing today as a result of the 
valiant sacrifices in a time of need.
    I have a question, if I may. We have a New York Times 
article, dated September 7th of this year. And if we may, Mr. 
Chairman, introduce it into the record. Thank you.
    [The information follows:]

              [From the New York Times, September 7, 2007]

             Accuracy of 9/11 Health Reports Is Questioned

               By Anthony DePalma and Serge F. Kovaleski

    Much of what is known about the health problems of ground zero 
workers comes from a small clinic in Manhattan that at the time of the 
trade center collapse had only six full-time doctors and a tiny budget.
    Yet in the weeks after 9/11, its doctors stepped into the fray in 
the absence of any meaningful effort by the city, state or federal 
government to survey, interview or offer treatment to potentially 
sickened recovery and cleanup workers.
    Since then, the clinic, the Irving J. Selikoff Center for 
Occupational and Environmental Medicine, based at Mount Sinai Medical 
Center, has examined more than 15,000 workers and volunteers and has 
overseen the examination of 5,000 more at clinics elsewhere.
    Those programs have received more than $100 million from the 
federal government for tracking and treating those workers. The 
clinic's doctors published the largest and most often quoted study of 
recovery workers' ills. And they have testified about the health 
problems before city and federal committees.
    But six years after the disaster, it is clear that while the 
center's efforts have been well meaning, even heroic to some, its 
performance in a number of important areas has been flawed, some 
doctors say. For years after 9/11, the clinic did not have adequate 
resources or time to properly collect detailed medical data on workers 
exposed to ground zero dust.
    The clinic's doctors presented their findings in what other experts 
say were scientifically questionable ways, exaggerating the health 
effects with imprecise descriptions of workers' symptoms and how long 
they might be sick.
    Researchers in this field say that the clinic's data collection was 
so badly planned that its usefulness may be limited. Others say that 
doctors at the clinic, which has strong historical ties to labor 
unions, have allowed their advocacy for workers to trump their science 
by making statements that go beyond what their studies have confirmed.
    Dr. Albert Miller, a pulmonologist who spent more than three 
decades at Mount Sinai before moving to Mary Immaculate Hospital in 
Queens in 1994, worries that the actions of the center's leaders have 
harmed the legitimate cause of workers who might be in need of help. 
``They are doing the workers a disservice,'' he said, ``because any 
time you veer from objective and confirmable statements, you're 
destroying your own case.''
    ``They are people with a cause,'' Dr. Miller said.
    Even now, there is debate about how harmful the dust was, and 
whether it could cause cancer or debilitating chronic diseases, 
although there is emerging medical consensus that workers who arrived 
at ground zero early and stayed longest were at greatest risk of 
getting sick. Medical studies by the Fire Department, and most recently 
by the city health department, show that the dust has caused diseases 
like asthma and sarcoidosis (a lung-scarring disease) in a small 
percentage of rescue workers.
    Although the Selikoff clinic's research has found signs of ill 
health in more workers than other studies, it generally tracks the same 
trends. But that has not lessened the skepticism of critics.
    The clinic's leaders acknowledge that their efforts were troubled. 
But they challenge anyone facing the same hardships to have done 
better. The doctors point out that they took on ever-increasing 
responsibilities with federal financing that came in fits and starts. 
They had to continue their clinical care while collecting data, and 
clinical care had to come first. They tackled an unprecedented 
epidemiological challenge with too little money, too few records and 
too little time to plan properly.
    ``I'll accept that we could have done some things better and 
there's always room for improvement,'' said Dr. Philip J. Landrigan, 
who has overseen the clinic's efforts to help ground zero workers. 
``You have to have a thick skin in this business.''
    While organized labor has steadfastly supported and praised the 
Selikoff Center's efforts, other doctors say its missteps have 
heightened the anxiety of New Yorkers who expected the center to answer 
medical questions that have unsettled the city since 9/11.
    There remains confusion about whether government officials should 
have done more to protect workers from toxic materials at ground zero. 
The city is still contesting thousands of lawsuits from workers who 
claim they were sickened while working at ground zero, even as it is 
providing millions of dollars to Bellevue Hospital Center to treat 
people sickened by the dust.
    And experts agree that the clinic's imperfect work--done alone and 
under difficult circumstances--might have long-lasting consequences if 
the poorly collected data eventually skew the results of future 
studies. Should the clinic come to conclusions different from other 
medical researchers, say experts, those contrary findings would confuse 
the overall health picture, delaying scientific consensus. The city 
would then have lost valuable time in developing a precise picture of 
diseases from this kind of disaster and the public health response 
needed.
    Dr. Steven Markowitz, who runs a ground zero screening and 
monitoring program at Queens College, and who worked at the Selikoff 
Center in the 1980s, says there is no doubt that the clinic, for all it 
has accomplished, has also let people down.
    ``Frankly,'' he said, ``it was reasonable for the public to expect 
more.''
A Logical Choice
    Forty-eight hours after the attack, Dr. Robin Herbert, Dr. Stephen 
Levin and other Mount Sinai doctors met at a Westchester County home to 
figure out how to respond to the disaster at ground zero. They agreed 
to volunteer extra hours to see sickened workers, and to gather medical 
information on them. And in the weeks and months that followed, the 
Selikoff Center was virtually the only place for workers to turn to.
    While federal officials warned those on the pile to protect 
themselves from the dust, they also said that the chance of developing 
serious long-term illnesses was low. And city officials stressed that 
the risk of illness from exposure was minimal. They also faced enormous 
legal liability if workers on the smoldering pile got sick.
    Thomas R. Frieden, commissioner of the New York City Department of 
Health and Mental Hygiene since 2002, said in a recent interview that 
the threat of lawsuits in no way shaped the city's response. Rather, he 
said, the city did not step in more forcefully because clinical 
treatment is not one of the department's responsibilities. But, he 
said, it was something the Selikoff Center did well.
    Few people in New York's medical community were surprised that the 
center had taken the lead. After all, the Selikoff Center, named after 
a pioneering asbestos researcher who died in 1992, was founded in the 
mid-1980s with political backing from New York labor leaders. It was 
well known for serving injured union workers, including those with lung 
diseases, a major concern of Dr. Selikoff's.
    But on 9/11, the center was focused mostly on repetitive strain 
injuries, the workplace hazard of the moment. Still, ground zero 
workers complaining of a persistent cough started showing up on Oct. 2. 
It was not until April 2002, six months later, that the Federal 
Emergency Management Agency provided the center with $12 million to 
support a program to give physical and mental health examinations to 
9,000 workers.
    But the clinic got no money to begin a comprehensive research 
program, or to make any long-range plans for tracking or caring for 
injured workers.
    ``We were told very unequivocally that we were not being funded to 
do research,'' recalled Dr. Herbert, who has been a part of the 
screening program since its inception. ``We were being funded to do 
screening.''
    Without money or time to plan, they started collecting data anyway, 
knowing that it would be necessary to track the rise of symptoms 
related to dust exposure. But the medical history questionnaire they 
pulled together was an unwieldy 74 pages long, full of questions that 
were too vague to be useful. When combined with X-rays and breathing 
tests, the examination process took more than three hours and scared 
off many workers. Some of the data was collected on paper and stored in 
boxes.
    ``It took me three months just to figure out where the information 
was and how it had been kept,'' said Dr. Jeanne Mager Stellman, a 
medical researcher who was hired as deputy director of the data center 
in April 2006. ``I don't think they knew what they were getting into.''
    Dr. Stellman resigned last November for personal reasons but 
continued to work on several mental health studies of ground zero 
workers. ``This is a program that's done enormous good for 20,000 
people,'' she said, ``but it's a program that has not yet met 
expectations.''
    The clinic's doctors also faced significant problems because 
critical information was simply not available. There were no records of 
how many people worked at ground zero or for how long. No one knew 
exactly what was in the dust or how much contamination each person at 
the site breathed in. And since many workers had not seen a doctor 
regularly before Sept. 11, there was no reliable way to confirm when 
respiratory symptoms and ailments started.
    By contrast, the New York Fire Department, which monitors its 
15,000 firefighters, knew exactly how many firefighters had been 
exposed. And mandatory annual checkups provided precise medical 
histories.
    It was not until 2004 that the Mount Sinai clinic started to 
receive federal financing for analysis--about $3 million a year for a 
data and coordination center. The money was part of $81 million in 
federal aid for medical tracking--half to cover firefighters, and the 
rest for ground zero workers.
    By then, it was too late to undo some of the missteps made early 
on.
A Misleading Impression
    The Selikoff Center has been criticized for blurring the line 
between scientific observation and alarmism in acting like an advocate 
for worker causes. But its doctors say that an aggressive approach is 
necessary in occupational health because employers tend to challenge 
complaints about workplace safety.
    ``I've spent my whole professional life walking that line,'' said 
Dr. Landrigan, who founded the center in 1986 with Dr. Selikoff. ``You 
can collect facts and be rock-solid certain about those facts, but you 
know quite well that those facts are only a piece of the puzzle. The 
intellectual question then is: `Do I have enough information to issue a 
call for action?' ''
    Last year, as the fifth anniversary of the attack approached, the 
center produced a major report that was published in Environmental 
Health Perspectives, a scientific journal of the National Institute of 
Environmental Health Sciences, a federal agency. The report said, and 
Dr. Landrigan declared at a major press conference, that 69 percent of 
9,442 responders examined had reported ``new or worsened respiratory 
symptoms.''
    In fact, a chart accompanying the report showed that 46.5 percent 
reported the more serious lower respiratory symptoms, which lung 
specialists consider to be indications of significant health problems 
(17 percent reporting shortness of breath, 15 percent reporting 
wheezing, and 14 percent listing cough with phlegm), while 62.5 percent 
of the workers reported minor upper respiratory symptoms like runny 
noses and itchy eyes.
    The decision to combine the two categories of symptoms was 
criticized by medical experts, but it made a powerful--and misleading--
impression on the public and the press about the nature and scale of 
the health problems.
    ``There is not a scientific reason to lump those two together,'' 
Dr. John R. Balmes, a professor of environmental health and medicine at 
the University of California, San Francisco, who reviewed a version of 
the report before it was published, said in a recent interview. 
``Science is better served separating them.''
    Dr. Miller, who called the press conference a ``public relations 
extravaganza,'' said: ``I'm not as worried about a runny nose as I am 
about shortness of breath.''
    In fact, the 69 percent figure--though it deals with symptoms, 
rather than actual diseases--suggests a more alarming picture than 
other studies. For example, a report by the city health department 
released last week showed that about 4 percent of 26,000 ground zero 
workers reported developing asthma after working on the pile. And the 
Fire Department's sarcoidosis study focused on 26 new cases of the 
disease since 9/11.
    Dr. Landrigan, in an interview, defended the way he presented the 
findings, maintaining that symptoms like a persistent runny nose could 
have indicated more serious lower respiratory problems.
    The clinic was also criticized for suggesting that the symptoms 
were longer lasting than their own evidence indicated at the time. No 
symptom, major or minor, had persisted for more than two and a half 
years when the study was done, and a condition is not generally 
considered chronic until it lasts at least five years, doctors say. Yet 
Dr. Herbert said at the press conference that many workers would ``need 
ongoing care for the rest of their lives.''
    Newspapers, including The New York Times, gave prominent play to 
Dr. Herbert's statements about the lasting nature of the problems. For 
some experts, her words went too far.
    ``It's very hard to predict the future,'' said Dr. Markowitz. ``I 
know people want answers, and I know people want to give answers, but 
we really have to stick to the scientific method if we want to 
understand the truth.''
    One thing is certain. The press conference galvanized many more 
workers to seek medical exams. More than 1,000 additional workers 
signed up for monitoring and 500 new workers continue to enroll each 
month even now.
    Dr. Landrigan said he and his colleagues did not exaggerate their 
findings to scare workers. But other experts said the doctors may have 
caused a panic.
    ``We have patients constantly saying after one of these 
pronouncements, `Am I going to die?' `` said Dr. David Prezant, deputy 
chief medical officer of the New York Fire Department, who has overseen 
several epidemiological studies for the department.
    Dr. Prezant said that the Selikoff clinic's statistics sometimes so 
worried workers that they neglected proven treatments to seek 
unorthodox cures that have questionable results.
    In what many critics regard as the clinic's most disturbing recent 
miscue, Dr. Herbert said in a 10-minute audio interview posted in May 
on the Web site of The New England Journal of Medicine that she was 
seeing the beginning of a ``third wave'' of disease, referring to 
cancer. In her interview, which accompanied a separate article on 
ground zero health effects by doctors not affiliated with the Selikoff 
Center, she named specific types of cancer--leukemia, lymphoma, 
multiple myeloma--and expressed concern about ``synergistic effects'' 
caused by chemicals in the dust, a controversial contention among 
medical experts.
    She was instantly criticized by doctors outside Mount Sinai, who 
felt her comments were irresponsibly speculative because there is no 
evidence yet to conclusively link exposure to the dust to cancer. But 
the city's tabloid newspapers seized on Dr. Herbert's comments, 
prompting another panic among some recovery workers.
    In an interview last month, Dr. Herbert defended her comments, 
explaining that she was speaking as a clinician and sharing her 
observations about diseases she was seeing with other clinicians.
    ``I feel that it is our job to communicate as clearly as we can 
what we do know, what we worry about, what are possible red flags,'' 
Dr. Herbert said. ``We have to strike a balance between not 
exaggerating and not waiting to act until we have absolute proof.''
Praise From Unions
    Today, union officials stand by the work the Selikoff Center has 
done.
    ``Sinai should be canonized for the services it is providing,'' 
said Micki Siegel de Hernandez, the health and safety director for 
District 1 of the Communications Workers of America. ``The doctors have 
really established relationships with responders who walk in. This is 
the place where workers know that the people care and have the 
expertise.''
    Only late last year did the center and the other clinics begin 
getting federal money to treat ill workers--$17 million then and more 
on the way. About 10,000 are now receiving treatment, which generally 
consists of prescription medication or counseling.
    Most days, dozens of ground zero workers make their way to the 
clinic on East 101st Street. Dr. Jacqueline Moline, who now directs the 
programs, said some workers show up to be examined for the first time. 
Others come back to be re-examined. All of them expect answers, but for 
most, uncertainty has become a constant part of their lives. The center 
continues to collect data from each of them, and Dr. Landrigan said he 
expected to publish as many as 10 new reports within the next 18 
months.
    Eventually, doctors and scientists analyzing the long-term effects 
of the dust will take into account not only Mount Sinai's studies but 
those of the Fire Department, the city's health department and other 
sources. Clinical studies will continue for decades.
    The Selikoff doctors acknowledge their mistakes, but they do not 
apologize for speaking out aggressively about the potential health 
dangers.
    ``If our advocacy has brought in people and we've saved their lives 
because we've identified health problems, whether they're World Trade 
Center-related or not, I'll take that any day of the week,'' said Dr. 
Moline. ``And if that's our epitaph--that we talked loudly and we 
brought people in for health care--so be it.''
                                 ______
                                 
    Mr. Fortuno. In that article, Dr. Landrigan, you are quoted 
as saying that Mount Sinai's World Trade Center survey could 
have done some things better and there is always room for 
improvement. That is one of the reasons we are here. If you 
could go into how you do that, exactly what you were referring 
to.
    Dr. Landrigan. Thank you, Mr. Congressman.
    Well, we are extremely proud of what we were able to do at 
Mount Sinai. And up until this point with good, consistent 
support from the National Institute for Occupational Safety and 
Health, we have been able to examine more than 21,000 of the 
responders at least once. We have seen 8,000 of these people a 
second time. And we are beginning now, after 6 years, to see 
some of them in fact for a third time.
    Also, more people are arriving every month. We are getting 
4- to 500 new responders, people who we never previously have 
seen before, calling us each month, qualified responders who 
were indeed there at the site and who had not previously come 
in.
    We are also extremely proud of the careful documentation 
that we have made of these workers. We have documented that 46 
percent have lower respiratory problems, 62 percent upper, and 
69 percent have one or the other. In the aggregate, this is a 
high prevalence of self-reported symptoms. And those symptoms 
are corroborated by abnormalities in pulmonary function testing 
in these workers.
    Moreover, our findings at the Mount Sinai School of 
Medicine are corroborated by very similar findings from two 
other independent studies that were conducted by the fire 
department of the City of New York. The fire department has 
15,000 New York City firefighters. They have found pretty much 
the same percentages of abnormality that we did. They have got 
about 40 percent lower respiratory and 50 percent upper. Very 
similar to ours. And the New York City Health Department has a 
registry that now encompasses 71,000 people in New York and 
they are seeing findings very similar to ours.
    One thing that could have been done better is we could have 
established down at the site--probably not in the first 48 to 
72 hours, but after that--we could have established a roster of 
all of those who came into the site. One of the difficulties 
that has confronted us in our medical efforts is that, apart 
from a few highly disciplined groups, uniformed services like 
the firefighters, we don't really know who was down there. 
People came, people went, volunteers appeared and they 
departed. There simply does not exist today, 6 years after the 
fact, a comprehensive list of who was there and consequently 
there is uncertainty about the actual number of folks who were 
there as well as their names.
    Moreover, a consequence of that lack of a roster is that in 
many instances we don't know how long people were there. Was it 
a day? Was it a week? Was it a couple of months? It obviously 
makes a difference in terms of the level of exposure that they 
sustained. And it becomes difficult medically to assess some of 
the symptoms if you don't know the duration of the exposure. 
But I think on the medical side----
    Chairman Miller. I am going to ask you to wrap up this 
answer, Dr. Landrigan.
    Dr. Landrigan. We are proud of what we have done medically.
    Chairman Miller. That is a good wrap. Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman.
    Ms. Clark, one of the concerns we have got is the fact that 
things were so upbeat. The EPA issued a statement that said 
that ``sampling conducted on Tuesday and Wednesday have been 
very reassuring about the potential exposure of rescue crews 
and the public to environmental contaminants. It is unlikely to 
cause significant health effects.''
    Those are the kind of things that--we know the people are 
sick, and that wasn't really the case. In your testimony, I was 
intrigued when you said OSHA's breathing zone samples revealed 
exposures well below the agency's permissible exposure limits 
for the majority of chemicals and substances tested. Is that 
your testimony?
    Ms. Clark. That is correct.
    Mr. Scott. What does the word ``majority'' mean.
    Ms. Clark. Well, I can tell you that, for instance, in 
asbestos, all of those samples were below the exposure levels. 
And, in fact, 95 percent were below the detection levels of our 
analysis.
    Mr. Scott. Well, the majority of the substances tested as 
being well below the exposure limits suggested for a minority 
some may have been well above--for a minority, well above.
    Ms. Clark. That is not what that means actually. What it 
means is that there were a small number of all of the samples 
taken, of the 6,500 samples and the 24,000 analyses. I can tell 
you, for instance, for metals there were only 13 samples out of 
all of the metals that were taken, which was a very large 
sampling.
    Mr. Scott. Well, if you can provide for the committee a 
number which describes what the word ``majority'' means, I 
would appreciate it, because the sentence suggests that a 
minority of the chemicals tested were not well below the 
agency's permissible exposure level.
    Now, you mentioned asbestos particularly. Is there an 
acceptable level of exposure for asbestos?
    Ms. Clark. OSHA has a standard for asbestos that is what we 
regulate on.
    Mr. Scott. And so you can detect asbestos and take no 
action if it is below--what is that level?
    Ms. Clark. .1 fibers per cubic centimeter of air. And I 
have to emphasize that this is an air sample. It is asbestos in 
air. It is not a piece of asbestos that is sitting on the 
ground or a piece of debris that might have come out of the 
buildings. It is in air.
    Mr. Scott. Let me ask, Dr. Landrigan, is there an 
acceptable level of exposure to asbestos that you would 
consider safe?
    Dr. Landrigan. Well, Mr. Scott, I think you have to 
distinguish between medically acceptable level and an OSHA 
standard. From a medical point of view, there is no acceptable 
level of exposure to asbestos. Asbestos is a carcinogen. A 
proven carcinogen. All types of asbestos cause human cancer. No 
level of exposure is safe. Even very low levels of exposure to 
asbestos have the potential to cause a particularly aggressive 
form of malignancy called malignant mesothelioma.
    Mr. Scott. Thank you.
    Ms. Clark, if you have all these air samples tested for 
each and every chemical, did you consider that although each 
and every chemical may be under the limit, but in combination 
the air would be dangerous?
    Ms. Clark. We did look at that actually. Within the 
industrial hygiene profession, there is a mixture formula where 
you look at the target organ of the substance, what organ they 
affect, and then you do a combined projection of that and you 
consider whether or not that would be over the requirement. And 
we looked at that on all of the substances and we did not find 
any of those that would have exceeded our standards.
    Mr. Scott. Dr. Landrigan, at the rate that you are seeing 
problems now--I know that asbestosis takes years, even decades, 
before you see symptoms. If we are seeing these symptoms now, 
what does the future look like for the people exposed?
    Dr. Landrigan. Well, I can't predict the future with 
certainty, sir, but I think we are seeing enough illness and 
disability today in workers. My patient, Mr. Cordero, is an 
example.
    I think there is an absolute need to continue in the years 
ahead, for the Federal Government to support the centers of 
excellence across the country that are providing expert care to 
workers. I think it is terribly important that these centers be 
maintained because the centers do two things. They bring 
together people from the multimedical specialties--pulmonary, 
gastroenterology and psychiatry--who are the principal 
providers of care to these men and women. And the second thing 
that the centers do that no other entity can do is that they 
have the ability to collect, analyze and publish the data so 
that we can make sense out of the patterns of disease that we 
are seeing.
    Chairman Miller. Mr. Nadler?
    Mr. Nadler. Thank you. Let me begin by expressing my 
appreciation to the Chairman for conducting this hearing, to 
Mr. Cordero for your sacrifice and your great work, and, 
through you, all the other first responders; Dr. Landrigan, for 
the great work that Mount Sinai has done and some of the other 
centers of excellence.
    Ms. Clark, let me begin by expressing my astonishment at 
your testimony that all the breathing zone samples revealed 
exposures well below the permissible exposure limits. The 
majority. The Department of Environmental Protection, State of 
New York, ASTDR, EPA, University of California at Davis, all 
found highly toxic results on the pile and off the pile. Even 
Christine Todd Whitman who has said everywhere in Lower 
Manhattan was safe, says but this did not mean on the pile and 
the pile was highly toxic.
    Why do you disagree with that? Very quickly, because I have 
about six more questions for you.
    Ms. Clark. I am merely reporting the facts, sir. I gave you 
the analysis.
    Mr. Nadler. That is enough. Okay. You are reporting facts. 
I don't believe you.
    Second, if these are the facts, doesn't this--in light of 
the fact that 70 percent of the first responders are now sick, 
doesn't this simply suggest that your permissible exposure 
levels are completely off base? If everything there was below 
the permissible exposure levels and everybody is getting sick, 
doesn't this suggest that your permissible exposure levels 
ought to be reconsidered?
    Ms. Clark. The respirators that we selected in concert with 
all of the other safety and health professionals at the site 
would have protected every substance at the lowest level 
possible. I have to say that there are many studies which show 
that the vast majority of the people seriously affected were 
there within the first 48 hours. I agree absolutely that they 
received an incredible assault to their respiratory system.
    Mr. Nadler. Dr. Landrigan, has it been your observation 
that there is a substantial amount of sickness of people beyond 
the 48 hours, or is it true that only those who were there for 
the first 48 hours before things could be done are getting 
sick.
    Dr. Landrigan. Rates of illness are certainly highest in 
the people that were there during the first 48 hours, but there 
is also plenty of disease in people who arrived after 48 hours.
    Mr. Nadler. Okay. Thank you.
    So, Ms. Clark, I ask you again: Doesn't this suggest that 
your permissible levels are off base?
    Ms. Clark. I don't think that is what it suggests.
    Mr. Nadler. Okay.
    You also state that OSHA does not have the authority to 
mandate the use of respiratory protection for everyone working 
on the site. Now, at the hearings that my subcommittee held, it 
was Mr. Henshaw, who used to be the head of OSHA, that 
testified that OSHA did not have the authority to mandate the 
use of respiratory protection or enforce safety standards on 
city of New York employees.
    Did you not have the authority on all private employees, as 
well as--except the city of New York employees?
    Ms. Clark. Private sector, that is correct. However, we 
have to have overexposures to issue citations.
    Mr. Nadler. So you had the authority.
    Ms. Clark. Yes. We never relinquished that authority.
    Mr. Nadler. Can you explain to me why at the Staten Island 
landfill there was 90 to 100 percent compliance of respirator 
use, and why the law was enforced by OSHA at enforcement level 
at the Pentagon, but at the World Trade Center site you chose 
not to enforce the law as an enforcement mechanism, and the 
respiratory compliance was less than 50 percent for a period of 
over 7 months.
    Ms. Clark. Well, I think some of your facts are incorrect. 
First of all, there was no issuance of citations at either the 
Pentagon or the Staten Island landfill. And also, they were 
very different sites. I think anyone who has looked at any of 
the TV coverage or saw what was happening those days would say 
that both the Pentagon and Staten Island were very controlled 
areas.
    Lower Manhattan, as you know--it is your district--was very 
chaotic for the first several weeks at least, and it was an 
entirely different situation. Furthermore, Staten Island, there 
was only one difference in the safety and health plan between 
Staten Island and the World Trade Center. That was the wearing 
of Tyvec clothing. We considered Tyvec clothing--all of the 
safety and health professionals considered it and decided it 
would be too much of a safety risk. It was too hot to wear, 
there was slippery issues. All of the other requirements----
    Mr. Nadler. Excuse me, I would like to ask another 
question, please.
    Chairman Miller. Let her finish the sentence, though. You 
can cut her off at the end of a sentence.
    Ms. Clark. Thank you. All of the other requirements, 
respirators, everything else, was identical. Thank you.
    Mr. Nadler. Why is it that the city of New York, starting 
at least as early as October 7th--because we have Mr. McKinney 
of DEP requesting OSHA to start taking enforcement action at 
the World Trade Center site as early as October 7th--repeatedly 
requesting this? And we know that at the Pentagon you were 
taking enforcement action, you were in that mode. Why is it 
that OSHA kept saying ``no'' to the city of New York's request?
    Ms. Clark. As I indicated before, we did not issue 
citations, we did not at the Pentagon. I want to make that 
clear. As far as Mr. McKinney's requests, we discussed those. 
We discussed those with my staff and myself. You are talking 
about industrial hygienists, safety professionals who have over 
30-plus years individually of experience. We considered that. 
We looked at what would happen if we were to do that, if we 
were to find overexposures that would allow us to do that. And 
we decided that was not the way to get immediate protection.
    I have been an industrial hygienist for 30-plus years. I am 
a career industrial hygienist. I have led some of the largest 
enforcement inspections, issued egregious citations, very high 
penalties. My staff is very aggressive in that matter. If any 
of us had thought that it would have worked, we would have done 
it. I assure you, it was not workable.
    Chairman Miller. Thank you. Ms. Maloney?
    Mrs. Maloney. Thank you. And first and foremost, I want to 
thank my good friend, Chairman Miller, for holding this 
tremendously important hearing just one day after the sixth 
anniversary of 9/11, and for graciously allowing those of us 
who are not members of this committee to participate.
    Looking back, to understand why the World Trade Center 
rescue and recovery workers were not protected is so 
tremendously important as we work in Congress to provide for 
the health care that sick workers now need and as we try to 
learn from this tragedy.
    I would like to follow up on Congressman Fortuno's 
questioning. He mentioned the 14 sick firefighters who are now 
sick because of their work at 9/11. I would like to note that 
every single State sent professionals and volunteers to 9/11 
and that practically every single congressional district--just 
yesterday, I met with Earle Pomeroy who traveled from North 
Dakota to be at the anniversary with sick workers from North 
Dakota. And they are all supporting the efforts of Jerry Nadler 
and Yvette Clarke and other members of the delegation to pass 
comprehensive health care, that surely these volunteers who 
risked their lives should get adequate health care.
    This week, we hope to introduce the 9/11 Health Care Act 
and Compensation Act to move forward. And I first of all, want 
to thank Mr. Cordero for your work and your heroic work on the 
really legendary bucket brigade that was so helpful. We need to 
make sure that you and others in the bucket brigade get the 
health care you deserve.
    I found it ironic that Mr. Fortuno is calling me and asking 
me to amend the bill to include Puerto Rico, which we are doing 
literally today, Mr. Chairman. We are amending the bill to 
include the sick workers from Puerto Rico so that they can be 
covered, and hopefully legislation that will move forward; yet 
was critical of yet really the leading hospital that is 
providing monitoring and treatment, Mount Sinai.
    I want to publicly thank Mount Sinai for your heroic and 
pioneering work in environmental health care and for coming 
forward and providing health care and monitoring and treatment 
long before you were funded by the Federal Government or the 
State or the city. And I know that in the Federal dollars that 
we have worked for for the World Trade Center consortium, it is 
only for monitoring. We just recently got treatment. So I do 
not believe you get one Federal dollar for your research; is 
that correct?
    Dr. Landrigan. Yes, ma'am. The research has been entirely 
supported with other funds that we have been able to pull in 
from within Mount Sinai. But for the first 4 years, we had 
quite strict instructions from the Federal Government not to 
undertake research on the data that we were collecting.
    Mrs. Maloney. And I know that because I have had 
conversations with the Chairman that one of the things we want 
to accomplish is research that will help us answer questions 
and get us prepared for, God forbid, another tragedy that may 
happen in the future, whether it is a hurricane or another 
terrorist attack.
    So I am very grateful to Mount Sinai for going forward and 
conducting research with no support from the Federal 
Government. And I want to note that the research coming from 
Mount Sinai really is similar and tracks the research from the 
New York City Fire Department, which is tracking a very 
controlled group of people and the New York City Health 
Department.
    And I just wanted to make that clear that there have been 
some skeptics out there, but overall your work has been needed 
and really quite wonderful.
    I would like to ask Dr. Melius, we have been working 
together for many years within a consortium with Jerry Nadler 
and Yvette Clarke and many others from the New York delegation 
to try to come forward with a plan to provide health care, and 
we now have a bill which we hope it introduce this week.
    Would you say that this bill should be a top priority for 
providing health care? Do you believe this bill will reach the 
goal of monitoring everyone who was exposed to the deadly 
toxins and providing treatment for everyone who is sick? Could 
you explain your work on this bill and whether or not you think 
this will address the challenges that Mr. Cordero and many 
others are facing now?
    Dr. Melius. Absolutely. As I said in my testimony, I think 
it is extremely important in these instances that we provide 
the medical follow-up for people that are involved, and 
particularly in this instance where people weren't properly 
protected, weren't afforded the protections that really were 
necessary at the site. I think that we should assure that they 
have the full medical monitoring and medical treatment for 
conditions that they developed that are related to the site. 
And we know that there are literally thousands of people with 
these conditions that are currently being monitored in 
treatment.
    There may be many more. As Dr. Landrigan has said, over 500 
people are signing up every month, and over half of those are 
being found to be sick. These are new people coming into the 
program over the last several months, so we know this is a 
large problem.
    And I believe that the bill that your staff, Mr. Nadler's 
staff, and others have been working on, I think will provide 
the kind of framework for the comprehensive follow-up for 
providing medical monitoring, providing treatment not only for 
the workers and responders who were at the World Trade Center 
site, but for the residents and other workers who were exposed 
in areas away from the site and around the site; the workers 
that did cleaning up their office, their homes, and the people 
there that were exposed in many different way. It includes 
school children also. And they also deserve the same type of 
follow-up and treatment.
    We also need to be able to reach out to people in other 
parts of the country, many thousands of people that came in to 
help out, such as the firefighters from Puerto Rico that we 
heard about. And the bill that is being developed, I believe, 
will provide the framework and the capability for those people 
to get the same type of monitoring and treatment for World 
Trade Center conditions that we have been fortunate through 
Mount Sinai and the Federal support that we have been able to 
get to be able to provide. So I think it will actually provide 
that kind of program that is so badly needed.
    Mrs. Maloney. My time is up. Thank you.
    Chairman Miller. Clever construction of a run-on sentence. 
Very clever of you.
    And I want to thank my colleagues from New York and the 
gentleman from Puerto Rico. And I was encouraged that the 
Speaker, Congresswoman Pelosi, when she was in New York 
expressed support for this effort to get health care to these 
individuals who are all across the country.
    In my earlier days in Congress, I had the honor of working 
with Dr. Irving Selikoff on asbestos and the disclosure of John 
Mansfield's activities and later removal of asbestos from 
schools. And obviously standards have developed around 
asbestos, EPA standards, OSHA standards. And I am always amazed 
that when we go to remove asbestos, if somebody wants to 
remodel their home, we tape off the home, we throw a cloth up, 
we protect the public, people have to wear clean suits, 
respirators and all the rest of this to remove what may be 
friable or nonfriable asbestos. But at the World Trade Center 
site we couldn't make a determination--given all that we know 
about latency, given all that we know about the condition of 
the workers when they were exposed to asbestos and the very 
vile nature of asbestos in any form to individuals' lungs and 
health, that we couldn't figure these things out.
    I understand, Ms. Clark, you said that we would have been 
sued. Sometimes you have to step up and have to say ``sue me,'' 
because I am going to err on the side of protection of the 
workers. You didn't do that and I understand why. You didn't 
believe you had the authority.
    But let me ask another question here. I mean, you had the 
information coming to you from EPA, from UC Davis and other 
sources that were cited here. And I am not talking about the 
first 48 hours. But I am worried that the first 48 hours is 
always used as an excuse of why we didn't do anything in terms 
of enforcement. And you have--it is an unfortunate name here--
the HAZWOPER authority which is, as I understand it and if I 
remember correctly, legislative history is sort of put in 
exactly for these kinds of situations where you can't 
immediately characterize what is in place there, but it looks 
to be pretty bad, and provides you the authority to move 
forward with enforcement until such time. And I am just 
concerned that those kinds of actions were never taken where we 
erred on the side of the worker.
    And, again, people will talk about the bravery, the skill, 
the tenacity, the emotion of the people who came to this site 
to try and rescue people and to clear the site. And we respect 
all of that. But at some point, this site changed form. And 
apparently it never changed form with respect to enforcement 
from OSHA, and that is what concerns me.
    I am not saying that to lay that onto you. I am saying that 
because I think the point is raised in Dr. Jackson's report. 
And he says on page 7, ``In all disasters, at some point rescue 
must transition to recovery, where it is no longer acceptable 
for responders to take on as much risk themselves. And 
responders told us that the transition came too late at the 
World Trade Center, if it came at all. And then he quotes 
somebody from one of the agencies.
    And I think that is kind of what this hearing is about. At 
some point, somebody has to stand up and make that command 
decision. I am very concerned that the new operational form 
that we are referring to here really doesn't put OSHA in the 
right position to say at some point, folks, we better start 
thinking about the safety of these rescue workers. Because if 
we don't respond to the point raised by Dr. Jackson and the 
workers, I think we get a repeat performance of this down the 
road. And that is clearly what we want to permit. Was there a 
discussion of using the HAZWOPER authority?
    Ms. Clark. Yes. And what I want to make clear is that 
HAZWOPER, it would have required us--you know, you talk about 
the asbestos. This site was being wet down because that is one 
of the normal methods that you use to contain the dust. You 
couldn't put up a containment area on a 16-acre site.
    Chairman Miller. I understand. I am just saying the levels 
to which we believe people in much less toxic sites must be 
protected when they engage that environment, whether it is 
school children, pedestrians, workers, families, whatever, we 
made a decision and it cost a lot of money for people to engage 
in that activity. I understand the nature of this site. We all 
understand it.
    Ms. Clark. I was trying to explain what we did. And we did 
require the highest level of respiratory protection that would 
be appropriate for asbestos under HAZWOPER or anything.
    Chairman Miller. I am talking about the enforcement where 
at some point you decide that access at this workplace is going 
to require certain things.
    Ms. Clark. And that is what the safety and health plan, 
which was signed off by the two co-incident commanders, the 
Fire Department of New York and the Department of Design and 
Construction required. It required entry to the site--as you 
can see, you had to have these things.
    Chairman Miller. I understand that is what it required. But 
the fact in place, that was not taking place by all of the 
testimony that people have received.
    Ms. Clark. And I just want to make it clear, when you say 
that I didn't want to be sued, it wasn't a question of having a 
contest. The effect of having a contest would basically have 
removed us from that site while the contest is pending. It is 
not like with MSHA where they can direct something immediately 
to be done to have the mine closed. We cannot do that under our 
act. The employer has the right to contest that citation. While 
it is in contest, we cannot issue other citations against that 
same thing. We cannot compel enforcement.
    The only other alternative would be to go into Federal 
District Court and to seek a temporary restraining order to 
stop the site, as I think Dr. Melius might have suggested we 
needed to do. My staff and I did not believe that was a viable 
alternative in New York City at that time. There was a----
    Chairman Miller. I am going to stop you there. I am sorry. 
I am using other people's time and I want to ask Dr. Jackson if 
he would respond.
    Again, when you look at what has been proposed, where we 
have been, I think you--as obviously I said, you raise a very 
important point, at which some point the characterization of 
the site must change for the maximum protection of those who 
are going to continue to be at that site.
    Dr. Jackson. Yes, that is absolutely true. It does have to 
change. Making that change is difficult. And at the World Trade 
Center site, it was even more difficult because a lot of the 
victims who were being searched for were responders themselves. 
So that is why where we came back to is the importance of 
putting all of this in place beforehand, because the intense 
emotional situation that exists after a disaster has already 
struck, you have to have everyone agree who is going to come in 
and say that transition has to be made.
    Chairman Miller. There were transitions made this time and 
it sounds very grisly to talk about, but the question of how 
they would proceed with bulk removal, whether or not they found 
whole bodies or parts--I mean, they were making these 
delineations about this site along those lines at that very 
same time, according to the safety meetings that were taking 
place.
    Dr. Jackson. Yes, that is true. And certainly decisions 
were being made. But in terms of the implementation and the 
enforcement, because of the many organizations and agencies 
that were involved, if you don't have the buy-in beforehand 
that everyone is going to accept when that transition is made, 
it is going to make the changes in the way they are doing 
things. It is not the sort of emotionally intense time after 
the disaster has already struck when you can sort of put that 
in place. So we came back to if it is going to be OSHA who is 
going to be expected to be in the lead role for that, or if it 
is going to be the local responders--who is the incident 
commander--you have to have that agreement among all of these 
multiagencies that are going to be at a disaster beforehand so 
everyone is on the same page, so when the decision is made it 
is actually implemented.
    Chairman Miller. Do you think the new proposals from 
Homeland suggest that that can be done?
    Dr. Jackson. I am encouraged by the documents that we have 
seen since 9/11. They have what I would call sort of the 
blueprint for doing this. They at least have the words in there 
that it is going to be a multiagency function and that you do 
have to have sort of a unified command for safety, if you will. 
There is a big difference between having those words in a 
policy document and being ready to do it. We went to sort of 
the issues of exercises and having key people trained to play 
those roles in place as sort of the key elements for doing 
that. But as we saw in Katrina, there has been some progress 
made, but we are not to the point where we can implement it 
seamlessly and as quickly as we need to at a major disaster 
because of the intensity of the hazards early on.
    Chairman Miller. Thank you. Mr. Fortuno.
    Mr. Fortuno. Mr. Chairman, first I want to thank--even 
though I know she had to leave--my colleague, Carolyn Maloney, 
for mentioning our firefighters from Puerto Rico. I also 
understand, Ms. Clarke, that some of our own OSHA personnel 
were in New York assisting in these procedures.
    Mr. Chairman, from the hearing and the testimonies, it is 
clear that, yes indeed, we must have a process by which we take 
care of not just our response to a crisis like this and that we 
engage in rescuing operations, but we also have to take care of 
our rescuers' health needs in the process. And I believe we 
have learned a lot from this. And what I would say is that we 
don't know what will be next, but we must make sure that 
regardless of the circumstances, whether it is a hurricane, 
whether it is a terrorist act, whatever, that indeed we here in 
Congress actually assist in the process of having a blueprint 
to be followed.
    So for that I thank you again for the hearing.
    Chairman Miller. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Ms. Clark, I am a little unclear. Did OSHA personnel know 
and see what everybody else saw, that people were wandering 
around the site without the proper equipment?
    Ms. Clark. I dedicated over 75 people a day. All 250 of my 
employees throughout my region, as well as another 800 from 
OSHA, came and helped us to have a 24-hour, 7-day-a-week 
presence on that site. We were in the pit. We were on the pile. 
We were everywhere the workers were. I had an industrial 
hygienist dedicated to doing compliance checks. We had people 
walk up to firefighters, who are outside of our normal 
jurisdiction; to construction workers; to anyone on the site.
    I myself was down there. I worked the first 90 days. I went 
to that site. I went up to workers and said, please put on your 
respirator, please wear these safety goggles. I pulled people 
back. I did something about a fall hazard, an open pit area. We 
all worked very hard on this. Yes, there were people who did 
not wear respirators. We put people out on the pile with the 
respirators. We had gaters that went around to be able to go 
directly there because we were concerned that people may not 
come through every point where we had the respirators.
    We were there, we understood that. We worked with the 
agencies, we worked with the union stewards. We had walk-
arounds.
    Mr. Scott. I guess part of the problem was people were 
wandering around without their equipment. However, if the 
message was communicated--because there were other messages 
communicated that there is no problem--obviously the 
communication was not made in such a way that people knew that 
they were almost killing themselves by wandering around without 
the appropriate equipment.
    Ms. Clark. I respectfully disagree with that. The message 
was loud and clear that any worker in that area was required to 
wear respiratory protection. These signs were posted 
everywhere. I had people there--not only my 75 people a day, 
but the Department of Design and Construction was there, the 
Department of Health. Stewards would go up to their employees. 
The fire department had safety people.
    Mr. Scott. When you were giving that message, and the EPA 
had said ``monitoring and sampling conducted on Tuesday and 
Wednesday have been very reassuring about potential exposure of 
rescue crews and the public to environmental complaints. Short-
term, low-level exposure of the type that might have been 
produced by the collapse of the World Trade Center buildings is 
unlikely to cause significant health effects,'' EPA and OSHA, 
who work closely with rescue and cleanup crews to minimize 
their potential exposure, but the general public should be very 
reassured by initial samplings.
    Ms. Clark. That quote was for the public outside of the 
project. Administrator Whitman went on to say, But employees 
working at the project, working on the pile, need to wear 
respirators. In every meeting I was in with EPA, we all were in 
agreement. If you were at that site, if you were working at 
that site, you needed to wear the high-level protection of 
respirators that I talked about. That was not a question. It 
was posted everywhere. We gave out notices, fliers with the 
sampling results.
    Honestly, I can't tell you how many times we went to people 
and practically begged them. We had people refuse us. I had 
compliance officers threatened by some personnel on this site, 
telling them that if they reminded them again to wear a 
respirator, they were going to take action against them, hit 
them, throw them off the site.
    Mr. Scott. Mr. Cordero, did the workers at the site get 
that kind of message?
    Mr. Cordero. I was mostly inside the school, and I am going 
to be very honest with you. I was amazed, because in front of 
me there were three rescue workers--I am not too sure they were 
firefighters. They were completely on the floor, sleeping. And 
a gentlemen that came out directly from the pile, took off his 
suit. The only thing I could really see was really his eyes. He 
was completely filled with dust. He took off his jacket and 
everything else and just threw it on the floor. The dust just 
piled up in the air. I personally didn't remember anybody from 
the EPA or whoever department to come to the school with any 
type of monitoring equipment or just telling us to put the mask 
on. Most of those guys that came directly from the pile came 
into the school to wash up, to take a nap, to eat inside the 
building. Most of those guys were filthy when they came in. We 
had hoses inside the bathroom so these guys could hose 
themselves down, so they can have something to eat and then go 
back to the site. I personally don't remember seeing anybody 
inside the school. I don't remember outside. I was mostly 
cleaning, doing the schools.
    Mr. Scott. Thank you.
    Mr. Chairman, if I could remind Ms. Clark, we want an 
answer on the clarification to the sentence, ``OSHA's breathing 
zone samples revealed exposures well below the agency's 
permissible exposure limits for the majority of chemicals and 
substances tested.'' If you can give a clarification of that 
sentence in writing.
    Chairman Miller. We will follow up on that.
    Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman. With all due 
respect, Ms. Clark, if what you say, that Administrator 
Whitman's statement was, is true, at best it sent a very mixed 
message to an extremely traumatized population that was really 
interested in making sure that we reached our loved ones as 
soon as possible. Telling the city of New York that the air was 
clear to breathe sent a message for people who probably would 
not have gone to the pile to begin with if there were a caution 
set up, and sent people across those bridges, through those 
tunnels to that pile and jeopardizing their health. My 
recollection is that she said the air was clean, end of story. 
There was no follow-up about anyone's caution with regard to 
equipment that needed to be utilized or anything like that.
    Let me return to the issue of HAZWOPER. That is a very 
intriguing one and one that you said could not have been used 
unless the EPA declared the area a Superfund. I wanted to find 
out from you, is--OSHA's HAZWOPER standard states it covers the 
emergency response operations at any workplace when there has 
been a release or a substantial threat of a release of 
hazardous substances.
    Wouldn't you agree that there was a release or a 
substantial threat of a release of hazardous substances here, 
even if you couldn't measure them all?
    Ms. Clark. I believe when I answered I think it was the 
Chairman's question about the HAZWOPER, that, in fact, the 
safety and health plan, that was enforced at the site by the 
coincident commanders who were responsible for the site.
    Ms. Clarke. Yes, but my question is----
    Ms. Clark. Required--required--the requirements that you 
would under HAZWOPER but for the Tyvec clothing. That is the 
other requirement that would not necessarily have worked there. 
We discussed it.
    And so, in effect, they were using the wet-down methods, 
they were using the appropriate respiratory protection that you 
would do under the HAZWOPER standard. And that was the joint 
decision of all of the safety and health professionals, for all 
of the agencies, the contractors and the unions.
    Ms. Clarke. Okay, Ms. Clark, let me----
    Ms. Clark. There was this site safety and health committee 
that was union management that agreed to----
    Ms. Clarke. Let me just follow up with you. Again, I think 
that most people, ordinary citizens, perhaps even the workers 
there, would have looked to OSHA for leadership with respect to 
this matter. They often do. We are all familiar with the 
technical expertise that you provide.
    But if you don't believe HAZWOPER was usable in this 
situation, is there a need for a different, enhanced HAZWOPER-
type standard, especially considering the future response 
workers may have to face with respect to biological agent, 
dirty bombs, Avian flu epidemics? How can we provide adequate 
protection for these responders?
    Ms. Clark. I believe that is beyond the purview of my 
authority as the regional administrator who was at the World 
Trade Center for the future. But what I----
    Ms. Clarke. You talked about 30 years of experience and 
everything----
    Ms. Clark. To tie that----
    Chairman Miller. One at a time here. Let her finish the 
question, and then you will finish the answer.
    Ms. Clarke. You just said to us you have 30 years of 
experience and all this other wonderful stuff about OSHA and 
its personnel. And I don't believe it is above your pay grade 
to project for the people who are really concerned about some 
of the mishaps that happened here what you could see as a tool 
that can make sure that an incident of this magnitude never 
happens again, and that you are equipped or some agency is 
equipped with the type of tools it needs, particularly in light 
of the fact that we are dealing in a time with biological 
agents, dirty bombs, Avian flu. We had Anthrax right after this 
event in New York City.
    So we would really like to hear something from you with 
regard to that.
    Ms. Clark. Well, I appreciate your concern about the 
future, that is why, in our lessons learned, we looked at what 
we could do. And we strongly recommended that OSHA have the 
lead in dealing with worker safety and health in incidents of 
national significance.
    That is why there is the Worker Safety and Health Annex. 
There is a question of whether it could be more, but I was at 
least encouraged that that is there. That does allow us to have 
that involvement, to have our expertise used, to have us in a 
position where we are the coordinating agency.
    OSHA has also done things to prepare for many of the 
substances and issues that you talked about. We have specialty 
teams that can address biological, radiological, structural 
collapse and chemical issues. We have put those in place. We 
have had specialized training. We have actually trained in 
exercises. As Dr. Jackson mentioned, it is so important to know 
the other workers, the other responders, the other agencies. We 
have been working on that.
    And you are absolutely right, I couldn't agree more, that 
it is very important that we take our lessons learned from 
World Trade and do better for the workers in all future 
activities. We see the Safety and Health Annex as a very big 
start in that. And we have done training. We have done worker 
site training for construction workers, so that they understand 
how better to protect themselves in the future when they come 
forward as heroes, really, and volunteer in these situations to 
help out the responders.
    We are doing a lot of work----
    Chairman Miller. The gentlewoman's time has expired.
    I would just like to tack on to what Ms. Clarke--and we can 
follow up on this--but, again, in the documentation of the 
various safety meetings, the point is raised that the Teamsters 
raised questions regarding OSHA's role at the site. They 
indicated they would get better compliance from the workers if 
OSHA enforced the regulations.
    OSHA explained that, ``We are following existing protocols 
of catastrophic and emergency operations. We explained that we 
were at the site in an advisory capacity only. Captain Revella 
told the group that he understood that this has been OSHA's 
role in every emergency in which he and OSHA had been involved. 
Kelly McKinney again indicated that he understood our position, 
but he still felt that OSHA's enforcement would be useful very 
at the site.''
    Obviously, these are people who are responsible for other 
workers at the site who are saying your presence in an 
enforcement capacity we believe would bring about better 
compliance, in terms of the safety operational standards, 
whatever you agreed upon in this committee, at that site. ANd I 
think that is the question that is being raised over and over 
by members of the committee, but we will follow up on that 
after the hearing.
    Mr. Nadler.
    Mr. Nadler. Thank you.
    It was interesting to hear a moment ago that you said that, 
with respect to having the worker protection, at least a 
support annex, if not an emergency support function, you were 
glad you accomplished that much. I suppose in this 
administration getting worker protection mentioned at all is a 
great accomplishment, so I congratulate you.
    In your testimony, Ms. Clark, you say the key to success at 
the World Trade Center site was working in close partnership. 
Do you consider what was done at the World Trade Center site a 
success?
    Ms. Clark. I do. And I don't think I speak alone from that. 
The two statements that Congressman McKeon mentioned that have 
been sent in by two of the union representatives who worked 
very closely with us at the site who were there I think attests 
to their opinion that it was a success. There also have been 
other documents from many of the unions that we worked closely 
with. The head of the----
    Mr. Nadler. Ma'am, excuse me. I asked you yes or no. I have 
a number of questions. You said yes.
    I simply want to comment that when 70 percent of the first 
responders are sick, it was a catastrophic failure. Maybe it 
wasn't the fault of OSHA or EPA or somebody or the city of New 
York or whoever--although I think it was, to some extent. But 
when 70 percent of the workers are sick, it was not a success; 
it was a catastrophic failure. And if you consider it a 
success, maybe that does not augur very well for future 
developments.
    Let me ask you another question. You said, you testified a 
few moments ago, that you and OSHA did everything you could to 
get people to wear their respirators and so forth. You 
testified to that. OSHA, however, passed out paper masks that 
said, ``Warning: This mask does not protect your lungs.''
    Do you believe that paper filament masks provide adequate 
protection against asbestos or ultra-fine particles? And if you 
knew that respirators were necessary, why were you passing out 
the paper masks?
    Ms. Clark. I am sorry, I don't know what you are reading 
from that suggests we passed out paper masks.
    Mr. Nadler. There was plenty of testimony at other hearings 
to that. There were plenty of testimony at other hearings from 
workers and others that that is exactly what OSHA was doing at 
various points.
    Ms. Clark. OSHA never passed out paper masks.
    Mr. Nadler. All right. There is a conflict of testimony.
    How many compliance letters did you issue for nonwearing of 
respirators?
    Ms. Clark. I would have to provide that for record. I don't 
know the number off the top of my head.
    Mr. Nadler. Could you, please? Thank you.
    Dr. Landrigan, obviously the air at the World Trade Center 
was highly toxic, or otherwise all these people wouldn't be--
and a lot of tests show that otherwise all these people 
wouldn't be sick.
    Could you comment, in light of what we now know, on the 
PELs, the permissible exposure limits, that OSHA was relying 
on? Did they, in fact, rely on those limits, or were those 
limits ridiculous? Or was something else the case?
    Dr. Landrigan. Well, it is axiomatic that those OSHA 
standards are set through a negotiated process, in which the 
medical input is only one component.
    Mr. Nadler. The medical component is only one component.
    Dr. Landrigan. Yes, sir.
    Mr. Nadler. What are other components.
    Dr. Landrigan. There are also issues of feasibility, issues 
of cost are considered----
    Mr. Nadler. Issues of cost.
    Dr. Landrigan [continuing]. By OSHA when they set 
standards.
    Mr. Nadler. So that the physical exposure limits may be 
medically unsafe if it is judged too costly to get it down to 
safe levels?
    Dr. Landrigan. Well, there are certainly documented 
instances in which the medical community, including NIOSH, the 
National Institute for Occupational Safety and Health, have 
recommended standards that ended up being substantially below 
the standard that OSHA adopted.
    Mr. Nadler. And if those OSHA-adopted standards are 
substantially below what the medical community recommended, 
would that, in your judgement, pose medical threats to first 
responders and others in the area.
    Dr. Landrigan. Yes.
    Mr. Nadler. Thank you.
    Mr. Melius, in your testimony, you state that the lack of 
more comprehensive OSHA involvement at the World Trade Center 
site, including enforcement, contributed to the development of 
these health problems.
    Now, we have heard testimony from Ms. Clark that they did 
the best they could, that they didn't think they should go into 
an enforcement mode because of various--we have heard all that 
testimony.
    Could you give us your opinion on all of this?
    Mr. Melius. Yes. I think that they absolutely needed to go 
into enforcement mode. When you see a situation where there is 
such limited compliance with the use of safety equipment and 
other safety measures, then I think that absolutely calls for 
stronger action.
    And, again, I think, going forward, as we potentially face 
similar incidents like this, a number of other situations, 
dirty bombs, chemical attacks and so forth, we need to have a 
strong OSHA enforcement role at these sites. There needs to be 
at least one party that is officially responsible, and they 
have to have the ability to enforce health and safety 
requirements.
    And if OSHA feels that they are limited by their current 
regulations in taking those steps, then they need to be 
changed. These are not times when we can spend 10 years in 
court arguing about a particular enforcement.
    Mr. Nadler. Thank you.
    Just one final question. Dr. Landrigan and Mr. Melius, do 
you think, in light of everything we know, would you agree with 
Ms. Clark that the enforcement actions at the World Trade 
Center were a success?
    Mr. Melius. They obviously weren't. We are having so many 
people that are sick now, I think it speaks for itself.
    Mr. Nadler. Dr. Landrigan?
    Dr. Landrigan. Too many people are sick.
    Mr. Nadler. Thank you very much.
    I yield back.
    Chairman Miller. Thank you.
    Ms. Maloney?
    Mrs. Maloney. Thank you.
    Mr. Cordero, you testified that you spent time at the site 
as a volunteer, in addition to your professional duties. And 
volunteers played a very, very important role at Ground Zero. 
To me, some of the most inspiring sites was the ``bucket 
brigade,'' which was primarily volunteers, helping the fire, 
remove debris, trying to find people.
    But right now OSHA does not cover volunteers. And do you 
think we need to change the law to cover volunteers, 
particularly in areas such as the terrible day of 9/11?
    Mr. Cordero. Absolutely. I personally think they should 
change the law on that, those people who go out there on their 
own and volunteer to help others. Sure, I think something 
should be done.
    Mrs. Maloney. I think it is important to put in perspective 
that 9/11 was a truly horrific day, but it was also probably 
the greatest rescue effort in the history of our country.
    On 9/12, when I was down there at Ground Zero at the 
headquarters in one of the schools, the Mayor's office and the 
Governor's office were predicting that 25,000 to 65,000 people 
died. And we know that it was less than 3,000 innocent people 
lost their lives that day. Yet thousands and thousands more 
lost their health due to the toxic particles that are now in 
their lungs.
    That was why I was very pleased to join Denis Hughes, who 
was the president of the AFL-CIO for New York State, in a rally 
that we had this Saturday before 9/11, Mr. Chairman, at Ground 
Zero, in support of providing health care and monitoring for 
everyone who was exposed to the deadly toxins, and building on 
these centers of excellence that we have put in place.
    And, very importantly, we are now only monitoring the 
responders. As we have heard from Mr. Cordero and others, we 
need to monitor the volunteers, the residents, the school 
children--everyone who was exposed to these deadly toxins.
    We include in the bill the opening of the Victims' 
Compensation Fund. The Victims' Compensation Fund was there for 
the innocent people who lost their lives, but, in my opinion, 
the true heroes and heroines are those who made a decision to 
rush into a burning building, to go into a pile that burned for 
months, to work to help a recovery and to help try to find 
lives.
    These are the true heroes and heroines of 9/11, yet they 
were not covered, are not covered, in the Victims' Compensation 
Fund. And many of us are working very hard to open up that fund 
and provide it for the true heroes and heroines of 9/11.
    Dr. Landrigan, we have heard from Mrs. Clark and others 
that the most deadly fumes were there in the first 48 hours and 
that the vast majority of the health consequences came from 
that period, and, therefore, nothing could have been done to 
prevent the problems.
    Do you believe this is an accurate observation? You know, 
obviously, in my opinion, the times I was down there, the fumes 
were there for months.
    Dr. Landrigan. The fumes were there for months. And the 
airborne suspended particulates and other toxic materials were 
there for months. After all, the fires burned until pretty much 
the end of December of 2001.
    It is true, of course, that levels were highest on 9/11 
itself, and the cloud levels were next highest in the following 
48 hours. But people were exposed to unsafe levels of materials 
for weeks and months thereafter.
    Mrs. Maloney. Well, we have heard a great deal of 
discussion today about respirators and the need to have worn 
them at the site. But what else could have been done to help 
protect the workers?
    I do want to point out that we did not lose one life in the 
recovery, which is really extraordinary, given the fact that it 
was probably the most dangerous recovery site in the history of 
our country.
    But what else could we have done to protect workers? 
Shorter hours, no night shifts? What could we have done in 
addition to the respirators to have had a safer work 
environment?
    Dr. Landrigan. Well, first of all, I agree with you that 
the prevention of even a single fatal accident was a remarkable 
accomplishment.
    And also, we have to recognize that many of the standard 
industrial hygiene practices that would be used in a static 
industrial setting--workplace enclosure, protection of 
hazardous machinery--are simply not applicable here.
    It is axiomatic in occupational medicine that when you 
can't use engineering controls, like process enclosure, to 
protect the workers, that you must equip the workers with 
proper personal protective equipment.
    One of the things that happens on a work site is that 
average exposures over a work shift may indeed be below a pre-
established legally mandated standard, but that doesn't gainsay 
the possibility that there are puffs of intermittent exposure 
in the course of that shift.
    For example, when the construction workers pick up a beam 
and the asbestos-containing dust flies out, the aggregate 
exposure over the 8 hours may be way below the standard but the 
momentary exposure might be enough to permit significant 
inhalation of toxic dust.
    Mrs. Maloney. I thank you.
    And my time has expired.
    Chairman Miller. Thank you.
    It is the intent of the Chair to allow another round of 
questioning, but that round is going to end at 12:30.
    So I just would like to ask one question of Dr. Melius, and 
that is back on the question of the HAZWOPER approach and 
whether this could have been used more effectively.
    It apparently wasn't used, but the suggestion is the 
totality equals HAZWOPER and whether or not this could have 
been used.
    Mr. Melius. It certainly was designed--I was involved in 
the writing of the HAZWOPER standard. I was actually a witness 
for OSHA when they promulgated it. And it was certainly 
originally designed to apply to these types of situations where 
there are multiple chemical toxic hazards, where it was 
difficult to fully assess those hazards in a timely way because 
they were so rapidly changing. And it certainly would have 
provided the level of protection, and it provided through the 
standard the enforcement of those protections. So I think it 
was very much applicable.
    Now, whether over time OSHA has changed their 
interpretation of how it is applied, I don't know. But 
certainly, 20 years ago when Congress mandated that that be 
passed and when OSHA promulgated that standard, that was 
something that was put in place and designed for these types of 
situations and would have provided the proper framework and the 
proper protection if it had been enforced.
    Chairman Miller. I think it is important that we take 
another look at this. And I would say, as one who represents a 
district with multiple refineries, chemical plants--and I have 
Homeland Security traipsing through my district all the time 
with the Coast Guard and others--it doesn't take a long stretch 
of the imagination where we would have an uncharacterized event 
of substantial complexity, and the ability to be able to 
protect the responders who would respond to that, either inside 
a facility or in the community--you would not get a lot of time 
before you had to make a decision. And I think if the legal 
authority isn't clear, we have to take another look at this.
    And I thank you for your response.
    Mr. Fortuno?
    Mr. Fortuno. Thank you, Mr. Chairman.
    Mr. Chairman, when I got to this hearing, I was the first 
one to bring up my concern with the health of those rescuers 
and everyone involved in this. And I think that has to be our 
prime goal here.
    I am troubled, however, by the direction that some of the 
questioning has taken. And I want to put this into the proper 
perspective.
    Our Nation hasn't faced anything like this probably since 
Pearl Harbor, and in an urban, civil environment probably since 
the British invaded our Nation's capital. So really, we have to 
put everything into perspective and actually try to learn 
lessons from what we did wrong, what we could have done better, 
but not to try to gain anything politically from this. Those 
that gave their lives in trying to do their best for our Nation 
deserve much better from us.
    Having said that, Ms. Clark, we have dwelled a lot on what 
happened and what was done with those rescuers that weren't 
there at Ground Zero. We haven't talked however, and we should 
learn as well, from what was done and what should be done to 
address any hazards that were faced by workers outside the 
World Trade Center within Region 2, which I understand included 
States around New York City and the Virgin Islands and Puerto 
Rico, and what we have learned, what we should have done better 
and what we could have done better.
    So if you could address that?
    Chairman Miller. You have to do it very quickly, and we 
would take your answer on the air, as they say.
    Ms. Clark. Okay.
    We actually did have full enforcement issuance of citations 
in the area immediately around the site. There were buildings 
there that was not controlled by the project, that was not 
controlled by the safety and health plan. We went into full 
enforcement mode, with citations and inspections.
    We also did inspections throughout the rest of my region. I 
had people--my 250 people worked during the week in their 
regular offices doing normal work, because we did not want to 
shortcircuit the other workers in the country. And then on 
weekends, they came to New York and worked there. That is why 
we brought in the people from outside the region to help during 
the week.
    So we were conscious of the fact that we needed to protect 
all the workers, both those on the site and outside.
    Chairman Miller. Okay, thank you.
    Ms. Clarke?
    Ms. Clarke. Thank you, Mr. Chairman.
    I just want to, first of all, acknowledge--I didn't have an 
opportunity to--your heroics, Mr. Cordero. You responded to a 
call. Like many New Yorkers, you came from uptown all the way 
downtown, left your family to really do what you could to 
really help New York. And we owe you a debt of gratitude. I 
don't think there is enough that can be said or even financed 
to really demonstrate how grateful we truly are. And I wanted 
to express that for the record.
    And to Dr. Landrigan, Mount Sinai and the work that you 
have stepped up and done, when no one else was thinking about 
the health of the people of the city of New York, I want to 
salute you and Mount Sinai for your steadfast work on our 
behalf. Notwithstanding the lack of support or the 
understanding of what this ultimately would bring to the 
population of the people of the city of New York, you were 
there. You used your expertise, and you continue to do that 
today. I want to thank you, as well.
    And just to close by saying, Mr. Chairman, that this is, 
unfortunately, a case study now. You know, it is an issue that 
our Nation will be facing for future generations. I hope that 
we can learn from this and that the expertise that has come to 
the table--the actual victims, survivors and heroes--will be a 
significant way for us, moving forward, leaving a legacy for 
future generations to be able to address any type of event that 
should occur and save life and do it safely.
    Thank you very much, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Nadler?
    Mr. Nadler. Thank you, Mr. Chairman. Let me again thank you 
for holding this hearing.
    And I express my thanks to Mr. Cordero for his heroics; Dr. 
Landrigan for the Mount Sinai work; Mr. Melius for the 
wonderful work that the AFL-CIO in New York has done on this; 
Dr. Jackson, for your excellent report.
    I want to make a comment given what was said a moment ago 
by my friend on the other side of the aisle. I think it is very 
important to go into what happened there, for several reasons: 
number one, to learn for the future, obviously. And I hope we 
are doing that; I hope we can learn proper lessons for the 
future.
    But number two, the workers who worked there, the residents 
in the neighborhood, I think it is important to establish the 
moral debt that we owe them, the moral debt that we owe the 
workers, the Mr. Corderos of the world, not only because they 
went into a situation of danger to help us all, but also 
because many of them would not be sick today were it were not 
for the failures and the malfeasance of the Federal Government.
    The Federal Government failed them. It lied to them. It 
told it was safe when it wasn't. It didn't enforce the law. It 
regards as a success a catastrophe where 70 percent of the 
people are sick.
    And there is, therefore, a double moral debt to all these 
workers that establishes a necessity of our passing legislation 
to make sure that at least we, as in AbrahamLincoln's words, 
``care for him who shall have borne the battle'' by providing 
proper long-term medical monitoring and medical coverage for 
the victims here, the victims of the Federal Government's 
malfeasance, as well as of the terrorists.
    Thank you. I yield back.
    Chairman Miller. Ms. Maloney?
    Mrs. Maloney. I join my colleagues in thanking you, 
Chairman, and express my hope that you will follow up with 
legislative corrections in this area.
    I thank all of the panelists.
    And I would like to thank Mr. Cordero for his service and 
ask him: Could you tell us how important the World Trade Center 
monitoring and treatment program is for the responders, the 
true heroes of 9/11, in my opinion, those who made the decision 
to run in and help others? How important is this program?
    And we are only funded, I believe, through the next year. 
So if we don't work together to continue funding, the program 
will not be there to help you and others.
    How important is this program to you and to others who 
responded?
    Mr. Cordero. Well, this program, Mount Sinai medical 
treatment program, if it wasn't for them, to be very honest 
with you, I don't think I would be here. They really, really 
have done a wonderful job, with the psychiatrist, the 
pulmonologist specialist, the counseling, the right people to 
help you lead to the right direction--phenomenal doctors who 
understand, who took the time to pick up your call when you 
need it.
    Most of the time, I didn't have the money to pay for my 
medicine. And this particular doctor, Dr. Afilaka, he just came 
in at 7:00 in the morning and prescribed me the medication that 
I needed because I didn't have the money that time.
    It is a tremendous hospital that really, really helps those 
people like me, who cannot afford the medicines and the help.
    Chairman Miller. I want to thank----
    Mrs. Maloney. This is a difficult question--if I could 
follow up with him with one question. It's a difficult question 
to ask.
    But given the sacrifice that you gave--you've lost your 
job, you've lost your health, you can only work in limited 
areas now--would you go back to that flaming pile again, 
knowing what you know now?
    Mr. Cordero. No. I would not go back, no.
    Mrs. Maloney. I yield back.
    Chairman Miller. Mr. Scott?
    Mr. Scott. Thank you.
    Just very briefly, Dr. Landrigan, based on the level and 
nature of the pollution at that site, are you surprised at the 
medical fallout?
    Dr. Landrigan. No. We were beginning to see people with 
cough and respiratory distress within a couple of weeks of the 
attacks at the World Trade Center. Firefighters, construction 
workers were already reporting cough. It was in all the papers 
very early.
    So it was plain that people were inhaling material that was 
causing respiratory irritation. That is precisely why we set up 
the medical response programs that we did set up in the fall 
and winter of 2001, 2002.
    We couldn't have predicted the actual number of workers 
sick whom we've seen. And, in fact, we have had to revise the 
number upward several times because more and more people keep 
coming in.
    But we knew from very early on that there would be 
problems.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    And I want to thank all of my colleagues on the committee 
and those who joined us this morning for the hearing.
    As I mentioned at the outset, this is the first of at least 
two hearings but probably a series of hearings discussing other 
lessons learned and things to be done here in the future.
    I also want to note that we invited the city of New York to 
testify, but because of their involvement in litigation, we 
were not able to work that out at this time.
    And I want to thank you, the witnesses, for providing your 
expertise and your understanding of this situation. I hope that 
we will be able to continue to call on you as we move forward 
on this subject matter.
    Thank you very much.
    With that, the committee stands adjourned.
    [The prepared statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Mr. Chairman, for holding this hearing to explore the 
reasons why World Trade Center rescue and recovery workers were not 
better protected from health hazards at ground zero.
    Approximately 91,000 people were involved in the rescue and 
recovery efforts at the World Trade Center in the nine months following 
the September 11, 2001 attack. Several studies of these rescue and 
recovery workers have documented a variety of health conditions that 
are likely related to exposure to the air at ground zero.
    It is understandable that in the immediate aftermath of the 
September 11 attack rescue workers were not provided with and required 
to wear additional safety equipment; however, it is unclear why 
recovery workers were not required to wear respirators and other safety 
equipment to safeguard them from the polluted air at ground zero 
following the initial rescue efforts.
    I hope that this hearing helps shed light on the decisions made by 
the Occupational Safety and Health Administrations in the aftermath of 
the September 11 attack on the World Trade Center, and that the lessons 
from this hearing can help ensure rescue and recovery workers are 
better protected in the future.
    Thank you again, Mr. Chairman, for holding this hearing. I yield 
back the balance of my time.
                                 ______
                                 
    [The prepared statement of Mr. Fossella follows:]

Prepared Statement of Hon. Vito Fossella, a Representative in Congress 
                       From the State of New York

    With the sixth anniversary of 9/11 having just past, it is time to 
reaffirm our commitment to ``Never Forget.'' We must never forget the 
people that died on that day, and we must also never forget those who 
are sick and dying for being heroes and volunteers that day as well.
    What many here in Washington have forgotten is that a silent killer 
is taking the lives of the rescue, recovery, and clean-up workers, as 
well as the volunteers, area residents and workers and students who 
were at Ground Zero. All of them breathed the toxic air created by the 
destruction of the towers, and many of them are suffering as a result.
    A New York City Health Department study showed an increased 
incidence of asthma for those who worked the pile, and a Department of 
Health and Human Services (HHS) study reported that illnesses as a 
result of exposure to 9/11 toxins are on the rise.
    Progress in helping the sick and injured can best be measured in 
small steps rather than giant leaps as critical needs continue to be 
unmet after six years. My colleagues and I have worked across party 
lines fighting for health monitoring for all who were exposed, adequate 
funding to treat those who are sick or injured and a comprehensive 
federal plan to ensure that anyone impacted by 9/11 gets the care he or 
she deserves.
    We have encountered many obstacles along the way, but we have also 
achieved some successes. Working with Congresswoman Maloney in 
particular, we restored $125 million in funding after it had been 
rescinded. Of that money, $75 million was dedicated for treatment--the 
first-ever federal dollars to be directed for that purpose. We were 
also able to create a health czar, Dr. John Howard, to help coordinate 
and oversee the Federal response. In addition, we included $50 million 
for federally-funded 9/11 health clinics in the Labor HHS 
appropriations bill to ensure that the unsung heroes of 9/11 have 
access to the care they need.
    These are steps in the right direction, but there is still so much 
more to do.
    That is why we have drafted H.R. 3543, the James Zadroga 9/11 
Health and Compensation Act of 2007--a critical piece of legislation 
that addresses several key areas to help our heroes who are sick today 
as well as anyone who falls ill in the future. The bill:
    <bullet> Ensures that everyone exposed to the Ground Zero toxins 
has a right to be medically monitored and all who are sick as a result 
have a right to treatment;
    <bullet> Builds on the expertise of the Centers of Excellence, 
which are currently providing high-quality care to thousands of 
responders and ensuring on-going data collection and analysis;
    <bullet> Expands care to the entire exposed community, which 
includes residents, area workers and school children as well as the 
thousands of people from across the country who assisted with the 
recovery and clean-up effort; and
    <bullet> Provides compensation for loss by reopening the 9/11 
Victim Compensation Fund.
    Over the years, I have heard too many stories about a young 
firefighter who ran a 6-minute mile in his thirties, but now has 
trouble walking up a flight of stairs * * * or the police officer who 
was forced to retire in his forties because he has become too sick to 
work.
    America cannot turn its back on the men and women who were there to 
help America recover after the 9/11 attacks. I don't think it is the 
right thing to do, which is why this legislation is so important.
    On a very personal level, I know too many people across Staten 
Island and Brooklyn who were willing to risk their lives. I know many 
who risked their lives and gave their lives on September 11. But the 
untold story, and it will be told for years and years to come, are 
about so many people who stayed there for the recovery and rescue 
effort and who now are in need our help. This legislation that we are 
proposing will help them give a degree of certainty.
    I applaud the work of my colleagues for coming together to help 
those whose heath is in danger because of exposure to ground zero on 
that fateful day. I pledge my full support of these efforts as we move 
forward, because I truly affirm to ``Never Forget.''
                                 ______
                                 
    [Whereupon, at 12:37 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
